App. 1
436 P.3d 1139
Colorado Court of Appeals, Division III.
LANDMARK TOWERS ASSOCIATION, INC., a
Colorado nonprofit corporation, BY EWG-GV, LLC,
as receiver for 7677 East Berry Avenue Associates,
LP, its declarant, Plaintiff-Appellee and CrossAppellant,
v.
UMB BANK, N.A.; Colorado Bondshares, a tax
exempt fund; and Marin Metropolitan District,
a Colorado special district, Defendants-Appellants
and Cross-Appellees.
Court of Appeals Nos. 14CA2099 & 14CA2463
|
Announced May 31, 2018
|
As Corrected July 26, 2018
Attorneys and Law Firms
Burg Simpson Eldredge Hersh & Jardine, P.C., Brian
K. Matise, Nelson P. Boyle, Englewood, Colorado, for
Plaintiff-Appellee and Cross-Appellant
Kutak Rock LLP, Neil L. Arney, Mia K. Della Cava,
Denver, Colorado; McNamara Law Firm, P.C., John N.
McNamara, Denver, Colorado, for Defendants-Appellants and Cross-Appellees

App. 2
Opinion
Opinion by JUDGE J. JONES
¶ 1 A homeowners association, Landmark Towers Association, Inc. (Landmark), filed suit challenging
the creation of a special district that includes condominiums owned by Landmark members. In a nutshell,
Landmark asserts that the special district can’t levy
Landmark owners’ properties to pay for bonds issued
by the special district, which funded improvements on
other property, because the election organizing the special district, approving the bonds, and approving the
levies paying for the bonds violated article X, section
20 of the Colorado Constitution (otherwise known as
the Taxpayer’s Bill of Rights (TABOR)), and the Landmark owners’ rights to due process. Though the district
court found against Landmark on the TABOR election
claim, it found for Landmark on its due process claim,
as well as on other claims, enjoined the special district
from trying to collect levies from the Landmark owners, and ordered refunds. On appeal, we ruled, as now
relevant, that Landmark should prevail on its TABOR
election claim, but didn’t address other contentions.
Landmark Towers Ass’n v. UMB Bank, N.A., 2016 COA
61, 436 P.3d 1126 (Landmark I).
¶ 2 The Colorado Supreme Court remanded the
case to us after reversing our conclusion that the election giving rise to the parties’ dispute violated TABOR.
UMB Bank, N.A. v. Landmark Towers Ass’n, 2017 CO
107, 408 P.3d 836 (Landmark II). Though the supreme
court had granted certiorari review on a number of

App. 3
issues, it ultimately resolved only one—whether the
time bar of section 1-11-213(4), C.R.S. 2017, precludes
Landmark’s TABOR challenge to the election.
¶ 3 We asked the parties to submit supplemental
briefs identifying the issues that remain for us to decide and explaining how, if at all, the supreme court’s
decision impacts those issues. Having considered those
supplemental briefs and the parties’ briefs previously
filed, we essentially affirm the district court on all remaining issues save one. The net result is that we uphold the district court’s rulings that the election was
illegal, Landmark is entitled to injunctive relief barring the special district from levying against the Landmark owners’ properties, the mill levy rate of the
district’s levy exceeds that allowed by law, and the
Landmark owners are entitled to a refund of excessive
assessments; but we reverse the district court’s ruling
that the Landmark owners are entitled to a “refund” of
misappropriated bond sale proceeds.
I.

Background

¶ 4 We recited the relevant facts of the case at
some length in Landmark I, but given the nature of the
issues now before us, we do so again, adding facts particularly relevant to our analysis of those issues. We
glean these facts from the district court’s extensive
findings following a trial to the court and the exhibits
submitted by the parties.
¶ 5 Beginning in 2005, Zachary Davidson developed two high-rise condominium towers (the

App. 4
Landmark Project) via an entity he controlled named
7677 East Barry Avenue Associates, L.P. Davidson
built the public infrastructure for the 3.5-acre Landmark Project pursuant to a “Developer Improvement
Agreement” with Greenwood Village.
¶ 6 Before the Landmark Project was complete,
Davidson also decided to develop a separate residential community (the European Village Project) on 11.4
acres of nearby land owned by Everest Marin, L.L.P.
(Everest), another entity that he controlled. But he discovered that the revenue base for the European Village
Project wouldn’t be sufficient to pay the general obligation bonds he intended to issue to fund construction
of its necessary infrastructure—streets, sidewalks,
curbs and gutters, water lines, sanitation lines, and
landscaping. So he embarked on a scheme to use owners of condominiums in the Landmark Project to pay
for those improvements, even though none of the improvements would be on Landmark Project property
and the Landmark Project’s own infrastructure was
being built pursuant to a separate financing arrangement. To do this, he created a special district comprising both projects, known as the Marin Metropolitan
District (District).
¶ 7 As required by statute, Davidson applied
with Greenwood Village for approval of the District. He
submitted a “Service Plan” describing the District and
explaining how the proposed improvements would be
paid for, among other things. See § 32-1-202, C.R.S.
2017. But neither he nor anyone else told those who
had entered into Landmark Project purchase

App. 5
agreements about the application or about the Landmark Project’s inclusion in the District.1
¶ 8 The Service Plan doesn’t show any area of
the Landmark Project that would benefit from the proposed improvements: to the contrary, the maps included in the Service Plan show that all improvements
are separated from the Landmark Project by existing
streets. And more, the infrastructure is internal to the
European Village Project: it provides no benefit, such
as improved or alternative traffic routes, to the surrounding community.
¶ 9 Not surprisingly, Greenwood Village’s planning staff criticized the Service Plan for including the
Landmark Project. At a city council meeting in August
2007, Davidson, one of his associates, and his attorney
responded to that criticism by telling the city council
that the Landmark Project would benefit from the new
infrastructure, the Landmark Project buyers had been
told of the proposed District and the associated high
tax burdens, and those buyers favored the proposal. All
of those statements were false. Apparently based at
least in part on those false assurances, the city council
approved the Service Plan.
¶ 10 Davidson’s next step was to hold an election
to organize the District, approve the bonds, and approve the “taxes” paying the bonds. After obtaining
court approval to hold the election, see § 32-1-301,
C.R.S. 2017, in November 2007, Davidson and five of
1

At this point in time, numerous Landmark Project condominiums were under contract, but none of them had closed.

App. 6
his associates (and only those six individuals) voted in
the election to organize the District, approve the bonds,
and approve the levies. This “election” was planned
and conducted using what could be charitably described as dubious means. See Landmark I, ¶¶ 10, 5455, 57, 63. The six voters purported to become electors
by entering into what we previously concluded were
sham purchase contracts with Everest. Id. at ¶¶ 61-64.
And the organizers didn’t give the Landmark Project
buyers any notice of the election, so none of them voted.
¶ 11 The District later sold $30,485,000 in “Limited Tax General Obligation Bonds” to Colorado Bondshares (Bondshares) in June 2008. The bonds call for
payment of interest at an annual rate of 7.75%, and
have a twenty-year maturity date (rather than the
thirty-year maturity date called for by the Service
Plan). At maturity, the bonds require a balloon payment of over $23 million. And, as discussed below, although the Service Plan capped the debt service levy
for the bonds at 49.5 mills (absent prior approval by
the city), the District imposed a levy of 59.5 mills.2
¶ 12 UMB Bank, N.A. (UMB) held the bond sale
proceeds in trust. Davidson, purporting to act on behalf
of the District, drew on those funds, but allegedly misappropriated millions of dollars for his personal use.
See Landmark II, ¶ 15; Landmark I, ¶ 12.3 In the end,
2

Other terms of the bonds also materially deviate from the
Service Plan, to the detriment of District residents. The District
didn’t get city approval for those deviations.
3
Davidson committed suicide after he was indicted for fraud.

App. 7
Everest didn’t build any of the promised European Village Project infrastructure.
¶ 13 The Landmark owners learned of the District’s creation, and of their properties’ inclusion in the
District, when they began receiving tax bills. Their investigation disclosed that the District had been formed
and approved by means of fraud perpetrated on the
city, Landmark Project buyers, the court, and perhaps
others. Landmark then sued UMB, Bondshares, and
the District (collectively, defendants).
¶ 14 As now relevant, the district court ultimately ruled in Landmark’s favor on a variety of
claims. These claims included that the election and resulting levying of Landmark owners’ properties violated the owners’ constitutional rights to due process;
the District improperly disbursed bond sale proceeds
for Davidson’s personal benefit; and the District’s mill
levy on the Landmark owners’ properties was higher
than that allowed by statute or by the Service Plan.
But the court rejected Landmark’s claim that because
ineligible voters (Davidson and his five associates) had
voted in the organization, bond, and tax election, while
eligible voters (the Landmark Project buyers) hadn’t
been given notice of the election, the election violated
TABOR. See Landmark I, ¶¶ 15-16. The court ordered
the District to refund the misused bond funds, ordered
the District to refund the sums collected from Landmark owners in excess of the Service Plan’s mill levy
limit, and enjoined the District from levying on the
Landmark owners’ properties.

App. 8
¶ 15 Both sides appealed. We reversed the district court’s ruling that the election hadn’t violated TABOR, without addressing defendants’ challenges to the
district court’s judgment. Id. at ¶¶ 59-70. The supreme
court granted certiorari review on several issues, but,
as noted above, ultimately resolved only one: the court
held that Landmark’s TABOR challenge to the election
was time barred by section 1-11-213(4). So the court
reversed our previous decision and remanded the case
to us to resolve outstanding issues.
¶ 16 Having considered the parties’ supplemental briefs as well as the briefs originally filed in
this court, we conclude that we need to address the following contentions, all of which are asserted by defendants, and none of which are impacted by the supreme
court’s decision:
1. The district court erred in finding that including the Landmark Project in the District violated
the Landmark owners’ rights to due process.
2. The district court erred in weighing the equities in imposing the injunction.
3. The injunction violates the Uniform Tax
Clause of the Colorado Constitution.
4. The district court erred in ruling that the District may not levy property taxes in excess of fifty
mills.
5. The district court erred in ruling that the misappropriation of bond sale proceeds violated TABOR and in ordering a refund of those proceeds.

App. 9
¶ 17 Addressing these contentions in this order,
we reject the first four, but agree with the fifth.
II.
A.

Discussion

Due Process Violation

¶ 18 The district court gave two reasons for concluding that the Landmark owners’ rights to due process were violated by the manner in which the District
was created and the associated levies were approved:
(1) the inclusion of the Landmark Project in the District solely to provide a sufficient revenue base to fund
European Village Project improvements was a taking
of property without due process; and (2) the levy is in
substance a special assessment, not a tax, that doesn’t
provide any special benefit to the Landmark Project.
¶ 19 Defendants argue first that the due process
claim is barred by a thirty-day statute of limitations,
section 11-57-212, C.R.S. 2017. They argue second that
there was no due process violation because the levy
was a tax, and property subject to a tax needn’t receive
any benefit in return for the tax payments. Both arguments fail.
1.

Statute of Limitations

¶ 20 Section 11-57-212 provides as follows:
No legal or equitable action brought with respect to any legislative acts or proceedings in
connection with the authorization or issuance
of securities by a public entity shall be

App. 10
commenced more than thirty days after the
authorization of such securities.
¶ 21 In Landmark I, we held, as now relevant,
that defendants waived the affirmative defense provided by the statute by failing to raise it at trial, and
that the statute was equitably tolled by virtue of the
District organizers’ successful, intentional efforts to
keep the Landmark Project buyers in the dark about
the creation of the District and the election. Landmark
I, ¶¶ 21-25, 51-55 & n.4. We see no reason to retreat
from those holdings.
¶ 22 In any event, the argument fails on the merits. The statute applies, by its terms, to “the authorization or issuance of securities.” § 11-57-212. Landmark,
however, challenges, on constitutional grounds, the
creation of the District to include the Landmark Project and the associated levies. We won’t expand the
reach of the statute beyond the plain meaning of its
language. See Denver Post Corp. v. Ritter, 255 P.3d
1083, 1089 (Colo. 2011) (if statutory language is clear,
we apply the statute as written); Spahmer v. Gullette,
113 P.3d 158, 162 (Colo. 2005) (“We will not create an
addition to a statute that the plain language does not
suggest or demand.”).
2.
a.

The Merits

Taking Without Due Process: Myles Salt

¶ 23 This issue is controlled by a United States Supreme Court decision, Myles Salt Co. v. Board of Commissioners of the Iberia & St. Mary Drainage District,

App. 11
239 U.S. 478, 36 S.Ct. 204, 60 L.Ed. 392 (1916). Two
adjoining parishes created a drainage district comprising land in both. To pay for construction costs, the district levied a five-mill “ad valorem tax” on all property
in the district. Myles Salt sued, claiming that the land
in one of the parishes, including its land, wouldn’t benefit from the district and that this land had been included in the district solely to help fund construction
benefiting land in the other parish. Id. at 480, 36 S.Ct.
204.
¶ 24 The Supreme Court held that the formation
of the district to include Myles Salt’s land was “an act
of confiscation” violating Myles Salt’s right to due process. Id. at 485, 36 S.Ct. 204. It reasoned that, although
creation of the particular type of district at issue was
otherwise authorized by law, the reason for including
certain property—to derive revenues for a project
solely benefiting other property—was constitutionally
impermissible. Id. at 483-85, 36 S.Ct. 204; see id. at
485, 36 S.Ct. 204 (“It is to be remembered that a drainage district has the special purpose of the improvement of particular property, and when it is so formed
to include property which is not and cannot be benefited directly or indirectly, including it only that it may
pay for the benefit to other property, there is an abuse
of power and an act of confiscation.”) (emphasis
added).4
4

Defendants belittle Myles Salt by referring to it as “a 100year-old decision.” Be that as it may, defendants don’t argue that
it is no longer good law. And it should go without saying that we
must follow Supreme Court precedent on matters of federal

App. 12
¶ 25 Likewise in this case, the District’s organizers included the Landmark Project in the District only
to use it as a source of payment for improvements to
other property—specifically, the European Village Project. And, as the district court found, with record support, the Landmark Project receives no benefit, direct
or indirect, from those improvements. See Genrich v.
City of Rice Lake, 268 Wis.2d 233, 673 N.W.2d 361, 365
(Wis. Ct. App. 2003) (question whether improvements
benefit the general public or are of merely local benefit
is one of fact); 14 Eugene McQuillin, The Law of Municipal Corporations § 38:15, at 116, § 38:44, at 224 (3d
ed., rev. vol. 2008) (same; citing cases). Defendants
don’t challenge this finding.
¶ 26 Defendants’ attempt to distinguish Myles
Salt falls well short. They argue that although Myles
Salt said the levy at issue in that case was an ad valorem tax, it wasn’t really such a tax but was instead a
“special assessment,” and federal and Colorado courts
alike have held that an ad valorem tax needn’t benefit
particular property to be lawfully levied against such
property. See, e.g., Nashville, Chattanooga & St. Louis
Ry. v. Walters, 294 U.S. 405, 429-30, 55 S.Ct. 486, 79
L.Ed. 949 (1935); St. Louis & Sw. Ry. Co. v. Nattin, 277
U.S. 157, 159, 48 S.Ct. 438, 72 L.Ed. 830 (1928); Bloom
v. City of Fort Collins, 784 P.2d 304, 307-08 (Colo.
1989).

constitutional law. People v. Schaufele, 2014 CO 43, ¶ 33, 325
P.3d 1060.

App. 13
¶ 27 But defendants miss the point of Myles Salt.
The Court’s decision didn’t turn on the nature of the
levy (tax versus special assessment); the holding
turned on the organizers’ reason for including particular property in the district in the first place. Because
that reason was to raise revenue to fund a project
solely benefiting other property, the inclusion of the
property receiving no benefit was confiscatory—a
“plain abuse of power.” 239 U.S. at 481, 484-85, 36 S.Ct.
204. Indeed, that is how courts, including the Supreme
Court itself, understand the holding in Myles Salt; they
distinguish the situation in that case from the common
situation where the government imposes a general
purpose tax on residents or property within an existing
political subdivision or unit. See, e.g., Valley Farms Co.
of Yonkers v. Westchester County, 261 U.S. 155, 162-63,
43 S.Ct. 261, 67 L.Ed. 585 (1923) (distinguishing Myles
Salt and similar Supreme Court cases on this basis);
People ex rel. Averna v. City of Palm Springs, 51 Cal.2d
38, 331 P.2d 4, 9-10 (1958); People ex rel. Hanrahan v.
Caliendo, 50 Ill.2d 72, 277 N.E.2d 319, 323-24 (1971);
S. W. Prop. Tr., Inc. v. Dallas Cty. Flood Control Dist. No.
1, 136 S.W.3d 1, 7-8 (Tex. App. 2001) (In Myles Salt,
“the Court focused not on the lack of actual benefit to
the plaintiff ’s property, but rather on the improper motives behind the inclusion of the property in the district.”); see also DeVilbiss v. Matanuska-Susitna
Borough, 356 P.3d 290, 293, 296-99 (Alaska 2015) (addressing a challenge to a tax where there was no issue
concerning inclusion of the taxed property); Griffin v.
Anne Arundel County, 25 Md.App. 115, 333 A.2d 612,

App. 14
620-21 (1975) (addressing a challenge to a general purpose property tax).
¶ 28 The facts of this case can’t be distinguished
from those in Myles Salt in any principled way. So we
conclude that the formation of the District to include
the Landmark Project, and the resulting levying of the
Landmark owners’ properties, violated the Landmark
owners’ rights to due process.
b.

No Special Benefit

¶ 29 As the district court also concluded, even
aside from Myles Salt, Colorado law makes clear that
imposing a special assessment on property that doesn’t
specially benefit from the funded improvements violates those property owners’ rights to due process.
Reams v. City of Grand Junction, 676 P.2d 1189, 119495 (Colo. 1984); Ochs v. Town of Hot Sulphur Springs,
158 Colo. 456, 461-62, 407 P.2d 677, 680 (1965); City &
Cty. of Denver v. Greenspoon, 140 Colo. 402, 406, 344
P.2d 679, 681 (1959), disapproved of on other grounds
by Manuel v. Fort Collins Newspapers, Inc., 631 P.2d
1114 (Colo. 1981); see also Dutoit v. Bd. of Cty. Comm’rs,
233 Kan. 995, 667 P.2d 879, 888 (1983) (creation of a
sewer district); 14 McQuillin, § 38:58, at 278 (property
that doesn’t specially benefit from improvements
funded by a special assessment can’t be included in the
improvement district). And the district court found
that the so-called tax is, in substance, a special assessment because it doesn’t “defray the general expenses
of government” but instead funds a private venture’s

App. 15
desired infrastructure. Because the Landmark owners’
properties don’t receive any special benefit from the
improvements, the District’s imposition violates their
rights to due process.
¶ 30 In arguing that the levy isn’t a special assessment, defendants rely on the fact the levy is ad valorem in form—that is, imposed on real property
according to a uniform mill rate.5 But defendants overlook the purpose and characteristics of the levy. See
City of Littleton v. State, 855 P.2d 448, 453 (Colo. 1993)
(whether a levy is a tax, an assessment, or a fee depends on its functional characteristics); Bloom, 784
P.2d at 307-08 (the nature of a levy is determined according to its function and purpose); see also 14
McQuillin, § 38:1, at 30 (the characteristics of the levy,
not its label, determine whether it’s a special assessment; citing cases).
¶ 31 A true ad valorem tax is one that “provide[s]
revenues in order to defray the general expenses of
government as distinguished from the expense of a
specific function or service.” Bloom, 784 P.2d at 307; see
also Morton Salt Co. v. City of South Hutchinson, 177
F.2d 889, 891-92 (10th Cir. 1949) (“[T]here is a valid
distinction between a special tax or assessment to finance special improvements designed to benefit property or persons located within a particular taxing
district, and an ad valorem tax on all the property
5

Defendants also seem to say that the supreme court decided
in Landmark II that the levy is a tax. It didn’t. It referred to the
levy as a tax, but it didn’t address the issue of whether it is a tax.

App. 16
within the taxing jurisdiction for the general welfare
of the whole community.”); Colo. Union of Taxpayers
Found. v. City of Aspen, 2018 CO 36, ¶¶ 3, 20, 418 P.3d
506 (defining “taxes”); Zelinger v. City & Cty. of Denver,
724 P.2d 1356, 1358 (Colo. 1986); Ochs, 158 Colo. at
460-61, 407 P.2d at 679-80; 14 McQuillin, § 38:1, at 1213, 19-20, § 38:15, at 115. Put another way, a tax funds
such public uses as “schools, the support of the poor, . . .
police and fire protection, . . . health and sanitation, . . .
waterworks and the like.” Morton Salt Co., 177 F.2d at
892. Special assessments, in contrast, fund local improvements that benefit particular property. Bloom,
784 P.2d at 308; Zelinger, 724 P.2d at 1358; Ochs, 158
Colo. at 460, 407 P.2d at 679; see Colo. Union of Taxpayers Found., ¶ 24 (discussing Bloom and Zelinger,
among other cases); San Marcos Water Dist. v. San
Marcos Unified Sch. Dist., 42 Cal.3d 154, 228 Cal.Rptr.
47, 720 P.2d 935, 939 (1986) (ad valorem taxes fund
general expenditures such as fire and police protection,
fire stations, police stations, and public buildings,
whereas special assessments fund local improvements
directly benefiting particular real property, such as
street improvements, street lighting, irrigation, sewer
connection, drainage, and flood control), superseded by
statute on other grounds, Cal. Gov’t Code §§ 5499954999.7 (West 2017), as recognized in City of Marina v.
Bd. of Trs. of Cal. State Univ., 39 Cal.4th 341, 46
Cal.Rptr.3d 355, 138 P.3d 692 (2006); 14 McQuillin,
§ 38:1, at 12-13, 19-20.
¶ 32 True, not all improvements are “local”; some
are general. And if general, imposition of a tax to pay

App. 17
for them is permissible, within constitutional and statutory limits. The distinction has been articulated as
follows:
A general improvement is one that confers a
general benefit, that is, a “substantially equal
benefit and advantage” to the property of the
whole community, or benefits the public at
large. In contrast, a local improvement, although incidentally beneficial to the public at
large, is primarily made for the accommodation and convenience of inhabitants in a particular locality and confers “special benefits”
to their properties.
Genrich, 673 N.W.2d at 364 (quoting Duncan Dev. Corp.
v. Crestview Sanitary Dist., 22 Wis.2d 258, 125 N.W.2d
617, 619-20 (1964)); see Knox v. City of Orland, 4
Cal.4th 132, 14 Cal.Rptr.2d 159, 841 P.2d 144, 149-50
(1992), superseded by constitutional amendment on
other grounds, Cal. Const. art. XIIIC, § 2, as recognized
in Jacks v. City of Santa Barbara, 3 Cal.5th 248, 219
Cal.Rptr.3d 859, 397 P.3d 210 (2017); 14 McQuillin,
§ 38:15, at 115.
¶ 33 The levy at issue in this case funds purely
local improvements directly and specially benefiting
only the European Village Project.6 It does not fund
6

The District comprises only fifteen acres. Greenwood Village comprises 8.3 square miles, about 5,321 acres. The District
thus makes up less than 0.3 percent of the city. And as the district
court found, infrastructure for the Landmark Project was separately financed and paid for. None of the European Village Project
infrastructure was needed for the Landmark Project. “If property
is not benefited by an improvement by reason of the existence of

App. 18
“the general expenses of government.” Bloom, 784 P.2d
at 307.7 It is therefore a special assessment, not a tax.
And so the district court didn’t err in ruling on this basis, too, that the levy violates the Landmark owners’
rights to due process.
B.

The Injunction

¶ 34 Defendants assail the district court’s injunction barring the District from levying against the
Landmark owners’ properties on two additional fronts.
First, they contend that the court erred in balancing
the equities. Second, they say the injunction violates
article X, section 3 of the Colorado Constitution, requiring uniform taxation of property. Neither attack
proves successful.

a like or similar improvement from which the property derives all
the benefit of the kind necessary to its use and enjoyment, it is
not subject to assessment for the later improvement.” 14 Eugene
McQuillin, The Law of Municipal Corporations § 38:42, at 220 (3d
ed., rev. vol. 2008); see City & Cty. of Denver v. Greenspoon, 140
Colo. 402, 344 P.2d 679 (1959) (relying on this principle to declare
an assessment void).
7
Defendants also argue the levy couldn’t have been a special
assessment because, when the District was created, special districts didn’t have statutory authority to impose special assessments. But the fact the District wasn’t authorized to impose
special assessments doesn’t mean it didn’t do so. As discussed, the
nature of the levy is determined by its purpose and characteristics. If the purpose and characteristics of a levy show that it’s a
special assessment, then that’s what it is. In the end, even if defendants are right about the state of the law at the time of the
election, that means only that there’s another reason for declaring
the special assessment invalid.

App. 19
1.

The District Court’s Order

¶ 35 The district court took a belt and suspenders approach in rejecting defendants’ opposition to an
injunction barring the assessments. Initially, it ruled
that such an injunction is required by law where property is unconstitutionally included within a special district and levied against, and so no weighing of the
equities is required or appropriate. It then ruled that
even if a weighing of the equities is required, in a contest between the equities favoring the Landmark owners and those favoring Bondshares (the only defendant
claiming that the equities favor its position), the Landmark owners prevail.
2.

Standard of Review

¶ 36 Defendants’ challenges to the injunction raise
two issues of law—whether the district court properly
ruled that the law requires an injunction in these circumstances, and whether the injunction violates the
Colorado Constitution’s uniform taxation requirement.
We consider such issues de novo. See Coloradans for a
Better Future v. Campaign Integrity Watchdog, 2018
CO 6, ¶ 15, 409 P.3d 350 (appellate court reviews questions of constitutional interpretation de novo); In re
Marriage of Cardona, 2014 CO 3, ¶ 9, 316 P.3d 626 (appellate court reviews purely legal issues de novo); Evans v. Romer, 854 P.2d 1270, 1275 (Colo. 1993)
(appellate court reviews de novo whether an injunction
violates a constitutional right).

App. 20
¶ 37 The district court’s weighing of the equities,
however, was a matter of discretion. See Wal-Mart
Stores, Inc. v. United Food & Commercial Workers Int’l
Union, 2016 COA 72, ¶ 24, 382 P.3d 1249. We review
such a decision for an abuse of that discretion, meaning that we’ll overturn it only if it was manifestly arbitrary, unreasonable, or unfair, or based on a
misapplication of the law. Id.; Stulp v. Schuman, 2012
COA 144, ¶¶ 9, 10, 410 P.3d 457. At the same time, we
defer to the court’s factual findings underlying its decision if they have record support. Stulp, ¶ 9.
3.
a.

The Merits

Weighing the Equities

¶ 38 The law is that if a taxing authority assesses property in violation of a property owner’s right
to due process, the assessment is void and can’t be continued; to enforce the assessment would itself violate
the owner’s right to due process. E.g., Greenspoon, 140
Colo. at 405-07, 344 P.2d at 681-82; Cook v. City & Cty.
of Denver, 128 Colo. 578, 265 P.2d 700 (1954); Pomroy
v. Bd. of Pub. Waterworks, 55 Colo. 476, 136 P. 78 (1913).
Where, as in this case, the law imposes a particular
remedy for a particular wrong, considerations of equity
can’t be applied to deprive the injured party of that
remedy. This is what is meant by the phrase “equity
follows the law.” Armstrong v. Driscoll Constr. Co., 107
Colo. 218, 222, 110 P.2d 651, 653 (1941); Am. Nat’l
Bank of Denver v. Tina Marie Homes, Inc., 28 Colo. App.
477, 485, 476 P.2d 573, 577 (1970). The district court

App. 21
correctly applied this maxim, and defendants scarcely
attempt to show otherwise.8
¶ 39 But, like the district court, leaving nothing
to chance, we also conclude that the district court
didn’t abuse its discretion in balancing the equities. On
this score, defendants say only that if Landmark Project property can’t be levied, Bondshares, which did
nothing wrong, will “suffer millions of dollars in
losses.” Maybe, but the flip side is undoubtedly true: if
the levy is allowed, the Landmark owners—who did
nothing wrong, were actively defrauded, and suffered
violations of their rights to due process—will, collectively, lose millions of dollars. And that isn’t all the
Landmark owners have going for them. The district
court also noted a number of other facts weighing
against Bondshares:
• Bondshares, a sophisticated institutional investor with a great deal of experience in this area,
“had full opportunity to evaluate the viability of
Mr. Davidson and his entities which were the moving forces behind the Marin district.”
• Bondshares was concerned about the risks of
the project from the outset.
• If Bondshares had more carefully looked at the
Service Plan, it would’ve seen that it was

8

Defendants’ entire argument on this point is that “the court
misapplied the law, and thus also the equities.” This assertion is
so perfunctory that we’d be justified in disregarding it altogether.
S. Colo. Orthopaedic Clinic Sports Med. & Arthritis Surgeons,
P.C. v. Weinstein, 2014 COA 171, ¶ 35, 343 P.3d 1044.

App. 22
“questionable” whether the Landmark Project
would receive any actual benefit.
• Bondshares should’ve seen that “virtually no
controls were in place regarding the requests for
payment by Marin and specifically that there was
no process for verification of the accuracy or validity of the claims for payment made.”
¶ 40 Again, defendants don’t challenge any of
these findings. And to them we add the following undisputed facts:
• Defendants don’t even assert that the equities
favor the District (the entity imposing the levy),
and any such assertion would be meritless.
• Bondshares knew that Davidson was exerting
pressure to gain free use of the bond proceeds, but
simply left it up to UMB, the trustee, to deal with
that pressure.
• Bondshares believed that the financing plan in
the Service Plan wasn’t feasible, and purchased
the bonds on terms differing substantially from
those called for by the Service Plan.
• Bondshares knew that, absent some “magical
ability” to collect the $23.8 million balloon payment at the end of the bonds’ term, that payment
wouldn’t be made and the bonds would have to be
refinanced.9

9

At trial, Bondshares’ representative agreed with Landmark’s counsel’s assertion that “absent some magical ability to
collect [the balloon payment], [the District] would have no choice
but to refinance.

App. 23
¶ 41 All of this paints a picture of a sophisticated
institutional investor with some knowledge of both the
risk and the lack of benefit to the Landmark Project,
and the means and incentive to obtain more. The Landmark owners, in contrast, were deliberately kept in the
dark about the creation of the District and blindsided
by the so-called taxes. Under these circumstances, any
decision by the district court that the equities favor
Bondshares would’ve been an abuse of discretion.
b.

The Uniform Tax Clause

¶ 42 Article X, section 3 of the Colorado Constitution provides, as relevant in this case, that “[e]ach
property tax levy shall be uniform upon all real and
personal property not exempt from taxation under this
article located within the territorial limits of the authority levying the tax.” Colo. Const. art. X, § 3(1)(a). It
“requires that the burden of taxation be uniform on the
same class of property within” the taxing authority’s
jurisdiction. Denver Urban Renewal Auth. v. Byrne, 618
P.2d 1374, 1386 (Colo. 1980).
¶ 43 Defendants argue that enjoining the District from levying on the Landmark owners’ properties
violates this requirement because it means that only
some of the property in the District—that in the European Village Project—can be taxed.
¶ 44 The district court rejected this argument
first because defendants didn’t raise it until after the
trial. But it went on to reject it for two additional reasons: the requirement doesn’t apply to special

App. 24
assessments such as that imposed by the District, and
the injunction doesn’t obligate the District to do anything with respect to other persons or property outside
the Landmark Project. The district court ruled correctly in all three respects.
¶ 45 First, it’s undisputed that defendants
raised this issue for the first time in their motion for
reconsideration. That was too late. See Hice v. Lott, 223
P.3d 139, 149 (Colo. App. 2009); Bowlen v. Fed. Deposit
Ins. Corp., 815 P.2d 1013, 1015-16 (Colo. App. 1991); see
also People v. Schaufele, 2014 CO 43, ¶ 49, 325 P.3d
1060 (Boatright, J., concurring) (“Motions for reconsideration are designed to correct erroneous court rulings;
they are not designed to allow parties to present new
legal arguments for the first time and then appeal
their denial. . . .”).10
¶ 46 Arguing to the contrary, defendants say
that the issue didn’t arise until after the court imposed
the injunction following trial. Not so. Landmark
sought injunctive relief from the beginning of the case,
including an injunction enjoining the District from levying against the Landmark owners’ properties. And
the Landmark owners always sought a refund of all
amounts paid to the District. If that weren’t enough to
put defendants on notice that the Landmark owners
were asserting that the District couldn’t levy against
their properties, the Landmark owners also asserted,
10

This rule applies regardless of whether the uniform tax argument is an affirmative defense. And so we don’t need to decide
whether it is.

App. 25
before trial, that any levy against their properties was
invalid because their properties receive no benefit from
the creation of the District or the construction of the
improvements. It was incumbent on defendants to
raise any defense to these claims before and during
trial.
¶ 47 Second, the law is, and defendants don’t dispute, that article X, section 3 doesn’t apply to special
assessments; it applies only to taxes. Zelinger, 724 P.2d
at 1358; City of Denver v. Knowles, 17 Colo. 204, 20711, 30 P. 1041, 1042-44 (1892). As discussed above, the
District’s levies against the Landmark owners’ properties are special assessments, not taxes.
¶ 48 And third, the injunction doesn’t require
the District to impose taxes on anyone or on any property. If the District decides to impose a true tax, it can
exclude the Landmark Project from the District under
section 32-1-501, C.R.S. 2017.11
¶ 49 To these three reasons for rejecting defendants’ argument, as given by the district court, we add
a fourth—the violation of the Landmark owners’ rights
to due process under both the Federal and Colorado
Constitutions entitles them to the injunctive relief
they request, as a matter of law. E.g., Greenspoon, 140
Colo. at 405-07, 344 P.2d at 681-82. We don’t think that

11

The district court’s judgment already does this as a practical matter.

App. 26
article X, section 3 can be read to require what due process forbids.12
C.

The Excessive Mill Rate

¶ 50 The District’s bonds don’t call for the debt
to be paid for by any particular mill levy. But the District imposed a levy of 59.5 mills on all real property
within the District to service the debt. Landmark
claimed that this was at least 9.5 mills more than that
allowed by section 32-1-1101(6)(b), C.R.S. 2017, and
the Service Plan.
¶ 51 The district court found in Landmark’s favor on this claim, reasoning that (1) section 32-11101(6)(b) caps the mill levy rate for the bonds at fifty
mills and (2) the Service Plan similarly caps the mill
levy rate at fifty mills. As to the latter, the court concluded that such a cap is contained in both section
VIII.D of the Service Plan and the “pro forma”
12

We’ve concluded that creation of the District to include the
Landmark owners, and resulting assessments on their properties,
violated their rights to due process under the United States Constitution. That federal constitutional violation trumps any possible incidental violation of the state constitution. In re Title, Ballot
Title and Submission Clause for 2013-2014 #90, 2014 CO 63, ¶ 58,
328 P.3d 155 (state law can’t trump federal takings protections);
Middleton v. Hartman, 45 P.3d 721, 731 (Colo. 2002) (“[T]he Supremacy Clause [of the United States Constitution] mandates
that state law give way when it conflicts with federal law.”); Mesa
Verde Co. v. Montezuma Cty. Bd. of Equalization, 898 P.2d 1, 7-8
(Colo. 1995) (the Supremacy Clause precludes state taxation of
federally owned land; article X doesn’t apply to such land even
though no such exemption is stated therein).

App. 27
financing plan attached thereto and incorporated
therein. As a remedy, the court ordered the District to
come up with a refund plan.
¶ 52 Defendants argue on appeal that (1) the district court failed to read subsections (6)(a) and (6)(b) of
section 32-1-1101 together, and those provisions create
an exception to the fifty-mill limit when bonds are purchased by an institutional investor (such as Bondshares); and (2) sections VIII.D and VIII.E of the
Service Plan essentially track section 32-1-1101(6)(a)
and (b). Put a bit more simply, defendants argue that
the 59.5 mill levy comports with both section 32-11101(6) and the Service Plan.
¶ 53 Defendants’ argument has some merit, but
only up to a point. Landmark agrees that the district
court’s reading of section 32-1-1101(6) was incorrect—
that is, if the institutional investor exception of section
32-1-1101(6)(a)(IV) applies, the mill levy rate may exceed fifty mills, so long as such a levy isn’t inconsistent
with the service plan. We needn’t address that particular issue, however, because we conclude that the district court correctly found that the Service Plan doesn’t
permit a levy of 59.5 mills.
¶ 54 For their part, defendants concede, as they
must, that even if a special district’s mill levy complies
with section 32-1-1101(6), it also must comply with the
applicable service plan. See § 32-1-207(1), C.R.S. 2017
(a “special district shall conform so far as practicable
to the approved service plan”); Plains Metro. Dist. v.
Ken-Caryl Ranch Metro. Dist., 250 P.3d 697, 700 (Colo.

App. 28
App. 2010) (the Special District Act requires special
districts to conform to their service plans). They nonetheless argue that the mill levy complies with sections
VIII.D and VIII.E of the Service Plan. But even if that’s
so, it doesn’t get them where they want to go because
the mill levy doesn’t conform to the financing plan.13
¶ 55 Section VIII.A of the Service Plan says that
the financing plan estimates revenue for paying debt
on the bonds, “including amounts available . . . from
the debt service mill levy.” Though defendants dismiss
the financing plan as merely tentative and of no import, the text of the Service Plan indicates that it was
intended to have binding effect. For example, it says
that “[a]ny bond financing plan that generally conforms with or improves the pro forma model of the Financing Plan . . . will require no further action or
approval of the City.” This statement implies that any
bond financing plan that wouldn’t generally conform
with or improve the financing plan would require city
approval.
¶ 56 The financing plan called for a debt service
mill levy of no more than 49.5 mills. The district court
found that the 59.5-mill-rate levy that the District imposed “is a substantial and significant variance from
the pro forma model materially affecting” the Landmark owners (and anyone else required to pay it). Defendants don’t challenge that factual finding. See
13

We observe that it’s undisputed the bonds were issued as
“limited tax” bonds, not unlimited tax bonds. This would seem to
indicate that the fifty-mill-rate limit of section 32-1-1101(6)(b)
and the Service Plan were intended to apply to the bonds.

App. 29
M.D.C./Wood, Inc. v. Mortimer, 866 P.2d 1380, 1384
(Colo. 1994) (appellate court reviews trial court’s factual findings for clear error); Page v. Clark, 197 Colo.
306, 313, 592 P.2d 792, 796 (1979) (same). And it’s undisputed that the District didn’t obtain Greenwood Village’s approval to impose the 59.5-mill-rate levy. It
necessarily follows that the District violated the Service Plan, and it then follows that the 59.5-mill-rate
levy is illegal.14
D.

Misappropriation of Bond Sale Proceeds

¶ 57 Landmark claims that Davidson misappropriated millions of dollars of the proceeds from the District’s sale of the bonds to Bondshares. The Landmark
owners seek “refunds” of the misappropriated sum under TABOR, specifically clause (1). The district court
found that although Landmark had made a “compelling showing” that Davidson had misappropriated almost $5 million of the bond sale proceeds, it had proved
misappropriation of only $384,611. The court also
found that this misuse of funds violated TABOR, and
it ordered refunds.
¶ 58 Defendants argue that the bond proceeds
aren’t “revenue” within the scope of clause (1), and so
the Landmark owners aren’t entitled to refunds under
that provision. We agree with defendants on this point.
14

Defendants take issue with the district court’s characterization of the 59.5-mill-rate levy as a “TABOR” violation. But they
don’t argue that the court otherwise lacked authority to order a
refund of illegally collected levies.

App. 30
And we disagree with Landmark’s alternative position
that even if refunds aren’t proper under TABOR, they
are proper under the “anti-donation” provisions of the
Colorado Constitution, article XI, sections 1 and 2.
¶ 59 Clause (1) of TABOR says, as relevant to the
issue before us, that “[r]evenue collected, kept, or spent
illegally since four full fiscal years before a suit is filed
shall be refunded with 10% annual simple interest
from the initial conduct.” Are a special district’s proceeds from the issuance of bonds “revenue”? Because
TABOR doesn’t define the term, we must lean on familiar principles of constitutional interpretation to answer that question.15
¶ 60 TABOR became part of Colorado’s constitution through the citizen initiative process. Our aim in
interpreting such an amendment is to “give effect to
the electorate’s intent.” Colo. Ethics Watch v. Senate
Majority Fund, LLC, 2012 CO 12, ¶ 20, 269 P.3d 1248
(quoting Davidson v. Sandstrom, 83 P.3d 648, 654
(Colo. 2004)).
¶ 61 We start, of course, with the ordinary and
popular meanings of the amendment’s words. Id.; Davidson, 83 P.3d at 654; see also City of Wheat Ridge v.
Cerveny, 913 P.2d 1110, 1114 (Colo. 1996) (“[W]ords
used in our Constitution must be given their ‘natural
and popular meaning usually understood by the people
who adopted them.’ ” (quoting Urbish v. Lamm, 761
15

The interpretation of a constitutional provision presents a
question of law that we review de novo. Gessler v. Colo. Common
Cause, 2014 CO 44, ¶ 7, 327 P.3d 232.

App. 31
P.2d 756, 760 (Colo. 1988))) (construing TABOR). And
we do this considering the amendment as a whole, accounting for context and seeking an interpretation
that harmonizes all its provisions. See Colo. Educ.
Ass’n v. Rutt, 184 P.3d 65, 80 (Colo. 2008).
¶ 62 As a general matter, TABOR imposes limits
on government spending, revenue gathering and accumulation, and indebtedness. With respect to revenue
specifically, it “limits the amount of revenue state and
local governments can retain from all (save, essentially, federal) sources at the end of a fiscal year.” Barber v. Ritter, 196 P.3d 238, 247 (Colo. 2008); see Colo.
Const. art. X, § 20(7)(d). “If the government’s revenue
exceeds this limit, the excess must be refunded to the
taxpayers, unless their approval to retain the money is
sought and obtained.” Barber, 196 P.3d at 247; see Colo.
Const. art. X, § 20(7). Clause (1) provides that citizens
may sue to enforce this limitation, as well as to obtain
redress, in the form of a refund, when the government
collects, retains, or spends excess revenue illegally.
¶ 63 Defendants argue, relying on Barber, that
“revenue” means only tax revenue. But Barber doesn’t
say that. The TABOR issues in that case were whether
fees, surcharges, and special assessments collected by
the state became, upon transfer to the general fund,
taxes causing a “net tax revenue gain” or a “new tax”
or “tax rate increase” subject to clause (4)(a)’s requirement of voter approval. Colo. Const. art. X, § 20(4)(a).
The court held, in essence, that clause (4)(a) applies
only to taxes, and that because fees, surcharges, and
special assessments aren’t taxes, they don’t become

App. 32
subject to clause (4)(a) when transferred to the general
fund. Barber, 196 P.3d at 248-52. The court didn’t construe the term “revenue” as used elsewhere in TABOR,
but instead construed a provision of TABOR—clause
(4)(a)—dealing expressly with taxes. We don’t read
Barber as saying, or implying, that only taxes are revenue for purposes of TABOR. To the contrary, in setting
the table for addressing the issues before it, the court
said that “fees constitute ‘revenue’ under [TABOR] accounting principles from the time they are collected.”
Id. at 248.
¶ 64 But this doesn’t mean that all money received, regardless of source or circumstances of acquisition, constitutes revenue subject to clause (1).
Looking at the plain and ordinary meaning of the term,
we see that, when it comes to government entities,
“revenue” means “the annual or periodical yield of
taxes, excises, customs, duties, and other sources of income that a nation, state, or municipality collects and
receives into the treasury for public use.” Webster’s
Third New International Dictionary 1942 (2002); see
also Black’s Law Dictionary 1513 (10th ed. 2014) (defining “revenue” as “[t]he total current income of a government, however derived; esp., taxes”; and defining
“general revenue” as “[t]he income stream from which
a state or municipality pays its obligations unless a
law calls for payment from a special fund”); see also
TABOR Found. v. Reg’l Transp. Dist., 2016 COA 102,
¶¶ 63-65, 417 P.3d 850 (a court may consider dictionary definitions in ascertaining the plain and ordinary
meaning of an undefined term; using such definitions

App. 33
to construe “policy” in TABOR), aff ’d, 2018 CO 29, 416
P.3d 101.
¶ 65 The bond proceeds at issue don’t fit within
that meaning. They are borrowed funds, not income.
Further, they aren’t subject to “refund” to District
property owners because they weren’t collected from
those property owners in the first place. Rather, they
were lent to the District by a private, outside entity. We
therefore conclude that District property owners, including the Landmark owners, aren’t entitled to refunds of misappropriated bond proceeds under clause
(1) of TABOR.
¶ 66 We also conclude that the Landmark owners aren’t entitled to refunds under article XI, sections
1 and 2 of the constitution.16 These sections “prohibit
mingling of public funds with private funds.” In re Interrogatories by Colo. State Senate (Senate Resolution
No. 13) Concerning House Bill No. 1247, 193 Colo. 298,
306, 566 P.2d 350, 356 (1977); accord Lord v. City & Cty.
of Denver, 58 Colo. 1, 16, 143 P. 284, 288 (1914); see
Lyman v. Town of Bow Mar, 188 Colo. 216, 222-23, 533
P.2d 1129, 1133 (1975) (“These sections basically prohibit lending, pledging credit or making donations to
persons, companies or corporations by the state, counties, cities or towns of Colorado.”). But both are limited
16

Landmark made this claim in the district court, but the
district court didn’t rule on it. We may consider whether to affirm
based on this claim because Landmark preserved it and we may
affirm on any ground supported by the record. See Rush Creek
Sols., Inc. v. Ute Mountain Ute Tribe, 107 P.3d 402, 406 (Colo.
App. 2004).

App. 34
in their application to the state, counties, cities, townships, and school districts. Colo. Const. art. XI, §§ 1, 2.
The District is none of these; it’s a special district that
by law is a quasi-municipal corporation and political
subdivision, solely responsible for its own debts. See
§§ 32-1-103(20), -1101, C.R.S. 2017; cf. N. Colo. Water
Conservancy Dist. v. Witwer, 108 Colo. 307, 310, 116
P.2d 200, 201 (1941) (water conservancy district was a
quasi-municipal corporation not subject to sections 1
and 2); Milheim v. Moffat Tunnel Improvement Dist.,
72 Colo. 268, 280, 211 P. 649, 654 (1922) (tunnel improvement district wasn’t subject to article XI, section
8, which applied, before its 1969 repeal, only to cities
and towns). So even assuming Davidson’s misappropriation of bond proceeds is a kind of act otherwise prohibited by sections 1 and 2 (a conclusion that isn’t at
all clear), those sections don’t afford relief to the Landmark owners because they don’t apply to the District.17
¶ 67 We therefore conclude that the district
court erred in ordering refunds of the money Davidson
misappropriated.
III.

Conclusion

¶ 68 We reverse that portion of the judgment ordering TABOR refunds of the $384,611 Davidson misappropriated. We affirm the remainder of the

17

Landmark also mentions sections 3 and 4 of article XI,
which concern limitations on state debt, but hasn’t ever explained
how those provisions arguably apply to this case.

App. 35
judgment. We remand the case to the district court for
further proceedings consistent with this opinion.
JUDGE WEBB and JUDGE BERNARD concur.

App. 36
408 P.3d 836
Supreme Court of Colorado.
UMB BANK, N.A.; Colorado Bondshares –
A tax exempt fund; and Marin Metropolitan
District, a Colorado Special District, Petitioners
v.
LANDMARK TOWERS ASSOCIATION, INC.,
a Colorado nonprofit corporation, by EWP-GV, LLC,
as receiver for 7677 East Berry Avenue
Associates, LP, its Declarant., Respondent
Supreme Court Case No. 16SC455
|
December 11, 2017
|
Rehearing Denied January 22, 2018
Attorneys and Law Firms
Attorneys for Petitioners: Kutak Rock LLP, Neil Arney,
Thomas W. Snyder, Mia K. Della Cava, Denver, Colorado, McNamara Law Firm, P.C., John N. McNamara,
Denver, Colorado.
Attorneys for Respondent: Perkins Coie LLP, Michael
L. Bender, Laura Cramer-Babycz, Denver, Colorado,
Burg Simpson Eldredge Hersh & Jardine, P.C., Brian
K. Matise, Nelson Boyle, Englewood, Colorado.
Attorneys for Amicus Curiae Colorado Association of
Home Builders: Icenogle Seaver Pogue, P.C., Jennifer
L. Ivey, Denver, Colorado.

App. 37
Attorneys for Amicus Curiae Colorado Municipal Bond
Dealers Association, Inc.: Sherman & Howard L.L.C.,
Joseph J. Bronesky, Peter J. Whitmore, Denver, Colorado.
Attorneys for Amicus Curiae Colorado Municipal League:
Colorado Municipal League, Tami Yellico, Denver, Colorado.
Attorneys for Amicus Curiae Special District Association of Colorado: Butler Snow LLP, Martina Hinojosa,
Monica Rosenbluth, Denver, Colorado.
En Banc
Opinion
JUSTICE GABRIEL delivered the Opinion of the
Court.
¶1 This case involves the establishment and funding
activities of petitioner Marin Metropolitan District
(the “District”), a special district that was created as a
vehicle to finance the infrastructure of a proposed residential community. In late 2007, the organizers of the
District held an organization election and approved
the creation of the District. At the same time, pursuant
to Colorado’s Taxpayer Bill of Rights (“TABOR”), the
organizers voted to approve the issuance of bonds and
to impose property taxes to pay the bonds on landowners within the District.
¶2 A group of condominium owners subsequently
learned that their properties had been included in the

App. 38
District under what they believed to be suspicious circumstances and that they had been assessed the
above-noted taxes. Acting through their homeowners’
association, respondent Landmark Towers Association, Inc., (“Landmark”) the owners brought two lawsuits, one to invalidate the creation of the District and
the other (this case) to invalidate the approval of the
bonds and taxes and to recover taxes that they had
paid to the District, among other things.
¶3 The district court ultimately ordered a partial refund of the taxes paid by the condominium owners and
enjoined the District from assessing future taxes on
the owners in order to pay its obligations under the
bonds. Both sides appealed, and in a published decision, a unanimous division of the court of appeals concluded, in pertinent part, that Landmark’s challenge to
the bond and tax election was timely and that the election violated TABOR and applicable statutes. Landmark Towers Ass’n v. UMB Bank, N.A., 2016 COA 61,
¶ 4, ___ P.3d ___.
¶4 Respondents petitioned for certiorari, and we
granted the petition to consider whether Landmark’s
challenge to the bond and tax election was timely and
whether the election was otherwise validly conducted.1

1

Specifically, we granted certiorari to review the following
issues:
1. Whether the court of appeals erred in holding that
the ten-day period in which to contest an election under
section 1-11-213(4), C.R.S. (2016), of the Election Code

App. 39
¶5 We now reverse. Section 1-11-213(4), C.R.S. (2017),
requires a party seeking to contest an election like that
present here to file a written statement of intent to
contest the election within ten days after the official
survey of returns has been filed with the designated
election official. The statute further provides, “If a written statement of intent to contest the election is filed
more than ten days after the completion of the official
survey of returns, no court shall have jurisdiction over
the contest.” Id.
¶6 Here, it is undisputed that Landmark did not file
the requisite written statement until more than three
years after the official survey of the election returns
was filed. Moreover, pursuant to our decision in Cacioppo v. Eagle County School District Re-50J, 92 P.3d
does not bar the respondents’ challenge to the special
district’s TABOR election in this case.
2. Whether the court of appeals erred in holding that
the thirty-day limitations period in section 11-57-212,
C.R.S. (2016), of the Supplemental Public Securities
Act does not bar the respondents’ challenge to the special district’s TABOR election in this case.
3. Whether the court of appeals erred in holding that
the special district’s TABOR election in this case was
invalid because the special district’s organizers’ contracts did not make them eligible electors under section
32-1-103(5)(b), C.R.S. (2016), of the Special District
Act.
4. Whether the court of appeals erred in holding that
the special district’s TABOR election in this case was
conducted illegally because the respondents were eligible electors under section 32-1-103(5)(b), C.R.S. (2016),
of the Special District Act who did not receive notice of
the election as required under TABOR.

App. 40
453 (Colo. 2004), Landmark’s challenge was subject to
section 1-11-213(4)’s time bar, and because section 111-213(4) is a non-claim statute, the equitable estoppel
doctrine does not apply.
¶7 Accordingly, we conclude that Landmark’s challenge to the bond and tax election at issue was time
barred, and thus, we reverse the judgment of the division below and remand for further proceedings. In light
of this disposition, we need not reach the other issues
on which we granted certiorari.
I.

Facts and Procedural Background

¶8 In 2005, 7677 East Berry Avenue Associates, L.P.
(“7677”), which was managed by Zachary M. Davidson,
created a development plan for a project that came to
be known as the “Landmark Towers.” The Landmark
Towers would be a combined residential and retail development in Greenwood Village, Colorado.
¶9 Pursuant to an agreement between 7677 and
Greenwood Village, 7677 was to be provided with a
portion of certain sales tax revenues generated by
the businesses occupying the property. Such revenues
were offered as an inducement to 7677 to complete
public improvements on the project.
¶10 As pertinent here, Davidson also managed Everest Marin, L.P. (“Everest”). Everest sought to construct
a project called “European Village,” which was to be
built directly to the south of the Landmark Towers. Everest did not, however, intend for European Village to

App. 41
provide for its own infrastructure. Instead, Everest
intended to form a special district that would issue
general obligation or revenue bonds to finance the infrastructure. Because Davidson recognized that the
European Village project would not have been viable
without the assessed value and the taxes on the Landmark Towers, he decided to incorporate the Landmark
Towers into the then-proposed District.
¶11 Prior to the creation of the District, approximately 130 people had signed contracts to purchase
condominiums in the Landmark Towers, although
none had proceeded to closing. In connection with
these contracts, the purchasers had paid substantial,
non-refundable deposits.
¶12 At the time the condominium owners signed
their contracts, Everest had planned to form the District, but Davidson, who, as noted above, was also developing the Landmark Towers, did not tell any of the
purchasers about Everest’s planned District. Indeed,
when some of the condominium owners expressly inquired about the existence of any special districts, Davidson and his colleagues responded that no special
districts were applicable to the owners’ property.
¶13 In order to form the District, Everest sought approval of a service plan from the Greenwood Village
City Council. After Greenwood Village representatives
inquired as to why the Landmark Towers should be incorporated into the District, an Everest representative
falsely responded that Davidson and his associates
had gone back to the Landmark condominium buyers

App. 42
and confirmed their approval of and support for the
District’s creation. Similarly, Davidson falsely told the
city council that “the buyers” were aware at the time of
purchase of the then-proposed District’s mill levy. Having heard this and other testimony, Greenwood Village
approved the District’s service plan.
¶14 TABOR then required an election in order to
approve the debt and related taxes. Colo. Const. art. X,
§ 20(4). To create eligible voters for this election, Everest contracted for purchase options on portions of a socalled “director’s parcel” with six individuals connected
to Everest, including Davidson. The District then held
an election in which the six people under contract
for portions of the ten-foot by ten-foot director’s parcel approved, among other things, authorizing up to
$35,500,000 in bonds to finance the European Village
infrastructure. The voters also approved taxes on all
owners within the District in order to secure the repayment of those bonds. The District then issued
$30,485,000 in bonds under a trust indenture between
the District and petitioner UMB Bank, N.A., acting as
trustee.
¶15 Shortly after the approval of the District and the
issuance of bonds, Davidson began to misuse certain of
the bond funds. Everest ultimately never constructed
any of the infrastructure that was to serve European
Village. Moreover, both 7677 and Davidson eventually
filed for bankruptcy, Davidson was indicted for misuse
of public funds and embezzlement, and he subsequently committed suicide.

App. 43
¶16 The condominium owners closed on their homes
in 2008. At that time, they had only minimal, if any,
information about the possibility of a future special
district, notwithstanding the fact that the District had
already been formed and the bonds had been issued.
7677 did not inform the condominium buyers about either the existence of the District or the related tax assessments.
¶17 Subsequently, in 2009, the condominium owners
received their tax bills, and some found that their property taxes were unexpectedly high. Several owners inquired about why their tax bills were unexpectedly
high, and they learned, for the first time, of the existence of the District. They also learned that approximately half of their tax bills were attributable to the
taxes levied by the District.
¶18 Two years later, Landmark, acting on behalf of
its member owners, filed the current action, seeking relief from the bond and tax election, as well as other
claims not now before us. In connection with these
claims, Landmark later argued that because it received no benefit from the creation of the District, the
tax assessment made by the District was illegal and
violated the owners’ due process rights.
¶19 The matter proceeded to a bench trial, after
which the district court issued a lengthy and detailed
order reciting extensive findings of fact and conclusions of law. As pertinent here, the court concluded that
it had no jurisdiction to decide Landmark’s claims regarding the bond and tax election because those claims

App. 44
were barred by the ten-day limitations period set forth
in section 1-11-213(4). The court further concluded,
however, that Landmark and its owners were entitled
to refunds of some of the taxes that they had previously
paid to the District. And the court agreed with Landmark that because it had obtained no benefit from the
District’s formation, it was entitled to a judgment declaring that the tax assessment made by the District
was illegal and to an injunction prohibiting assessment and collection of the tax.
¶20 Petitioners appealed, and Landmark crossappealed. In a unanimous, published opinion, the
division did not directly address the grounds for the
district court’s order. Instead, the division concluded
that (1) Landmark’s challenges were timely; (2) the
District illegally conducted its tax and bond election;
and (3) therefore, the District had illegally levied taxes
to pay the bonds and was required to refund all illegal
taxes paid, and Landmark was entitled to an order
enjoining the District from levying any further taxes
without proper approval. Landmark Towers Ass’n,
¶ 70.
¶21 We subsequently granted certiorari.
II.

Standard of Review

¶22 The matter now before us involves issues of statutory interpretation. We review such issues de novo.
Vallagio at Inverness Residential Condo. Ass’n v. Metro.
Homes, Inc., 2017 CO 69, ¶ 16, 395 P.3d 788, 792. In
doing so, we look to the entire statutory scheme in

App. 45
order to give consistent, harmonious, and sensible effect to all of its parts, and we apply words and phrases
in accordance with their plain and ordinary meanings.
Id. When the statutory language is clear, we apply it as
written and need not resort to other rules of statutory
construction. See id. In addition, when construing a
statute, we must respect the legislature’s choice of language. Turbyne v. People, 151 P.3d 563, 568 (Colo.
2007). Accordingly, “[w]e do not add words to the statute or subtract words from it.” Id. at 567.
III.

Analysis

¶23 We begin by addressing section 1-11-213(4) because if Landmark’s claims are untimely, this would
dispose of all of the assertions now before us. After concluding that Landmark’s election contest claims are
time barred under section 1-11-213(4) absent an applicable exception, we proceed to discuss the equitable
tolling doctrine and this court’s decision in Cacioppo,
92 P.3d 453, which Landmark contends establish pertinent exceptions to section 1-11-213(4)’s time bar.
A.

Section 1-11-213(4)

¶24 Section 1-11-213(4) addresses election contests
filed in district courts. This section provides, in pertinent part:
The contestor, within ten days after the official survey of returns has been filed with the
designated election official, shall file in the office of the clerk of the district court a written

App. 46
statement of the intention to contest the election, setting forth the name of the contestor,
that the contestor is an eligible elector of the
political subdivision, the name of the contestee, the office or ballot issue or ballot question
being contested, the time of the election, and
the particular grounds for the contest. . . . If a
written statement of intent to contest the election is filed more than ten days after the completion of the official survey of returns, no
court shall have jurisdiction over the contest.
Id. (emphasis added).
¶25 Here, the District’s election results were certified
on November 12, 2007. Landmark thus had ten days
from that date to file its contest. Landmark, however,
did not file its initial motion for a temporary restraining order until June 1, 2011, more than three and onehalf years after the statutory deadline. Accordingly,
absent an applicable exception, Landmark’s election
contest claims were time barred.
¶26 Landmark does not dispute that its election challenge was filed beyond section 1-11-213(4)’s ten-day
deadline. It contends, however, that two exceptions apply here. First, it asserts that the doctrine of equitable
tolling operates to save its untimely claim. Second, relying on this court’s decision in Cacioppo, it argues that
it has raised substantive claims that are not subject to
section 1-11-213(4)’s time limitations. We address each
of these arguments in turn.

App. 47
B.

Equitable Tolling

¶27 The doctrine of equitable tolling provides for the
tolling of the statute of limitations when “flexibility
is required to accomplish the goals of justice.” Dean
Witter Reynolds, Inc. v. Hartman, 911 P.2d 1094, 1096
(Colo. 1996). Unlike ordinary statutes of limitations,
however, “non-claim statutes are not subject to equitable defenses such as waiver, tolling, or estoppel.” Mesa
Cty. Valley Sch. Dist. No. 51 v. Kelsey, 8 P.3d 1200, 1206
(Colo. 2000).
¶28 The term “non-claim statute” refers to legislation
that “prohibits absolutely the initiation of litigation after a specific period of time.” Pub. Serv. Co. v. Barnhill,
690 P.2d 1248, 1251 (Colo. 1984). Because a non-claim
statute’s temporal provisions are, in effect, conditions
on the existence of a right to seek redress, “such a statute prohibits the initiation of litigation after the prescribed date and, therefore, is jurisdictional in effect.”
Id.
¶29 The question thus becomes whether section 111-213(4) is a non-claim statute because if it is, then
the equitable tolling doctrine would be inapplicable.
We conclude that the statute is a non-claim statute.
¶30 To determine whether the General Assembly intended to create a non-claim statute, as opposed to a
statute of limitations, we look to the language used in
the provision. Barnhill, 690 P.2d at 1251. Statutory
language suggesting that a provision is a non-claim
statute includes language stating that (1) the failure
to file a claim within the statutory period bars the

App. 48
claim, (2) a timely filing is a condition to the existence
of the claim itself, or (3) the failure to file within the
statutory period “deprives courts of jurisdiction over
such a claim.” Id. at 1252.
¶31 Here, section 1-11-213(4) states that courts are
without jurisdiction over any election contest filed
“more than ten days after the completion of the official
survey of returns.” Applying the principles set forth
above, we thus conclude that section 1-11-213(4) is a
non-claim statute and that the doctrine of equitable estoppel does not apply to save Landmark’s untimely
challenge to the bond and tax election at issue. See
Mesa Cty. Valley Sch. Dist., 8 P.3d at 1206 (concluding
that the plaintiff ’s failure to file a notice of claim
within the time prescribed by the applicable statute
established a jurisdictional bar that could not be overcome by equitable defenses such as estoppel).
C.

Cacioppo

¶32 The question remains as to whether this court’s
decision in Cacioppo relieves Landmark from section
1-11-213(4)’s time bar. Landmark contends that it does
because Landmark “is not merely asserting a technical
procedural error but a complete and intentional failure
to obtain approval of elector-taxpayers.” Landmark asserts that such a claim is substantive and thus not
barred under Cacioppo because it “involve[s] the legality or the constitutionality of the ballot issue’s substance.” We are not persuaded.

App. 49
¶33 In Cacioppo, 92 P.3d at 456, we reviewed a constitutional challenge to a ballot issue approved by Eagle County voters raising taxes to allow a cost-of-living
increase for the Eagle County School District. Nearly
four months after the election, the plaintiff filed suit
seeking to overturn the election. Id. Specifically, as pertinent here, he contended that both the ballot title and
the notice provided to the district’s residents violated
TABOR. Id. The district, however, responded that the
plaintiff ’s challenges were time barred under section
1-11-203.5, C.R.S. (2017) (governing challenges to the
form or content of ballot titles and providing a five-day
window to file such challenges). Cacioppo, 92 P.3d at
457. The plaintiff disagreed, contending that the statute was unconstitutional because in addition to prohibiting form and content challenges beyond the five-day
limit, it also restricted ballot title contests that were
rooted in the Colorado Constitution, which the plaintiff
asserted the statute could not properly do. Cacioppo,
92 P.3d at 463.
¶34 In deciding the timeliness of the plaintiff ’s challenges, we distinguished between challenges to (1) the
form or content of the ballot title, (2) the substance of
a ballot issue or ballot question, and (3) the election
results. Id. at 463-64, 468-69.
¶35 With regard to the first, we stated that a challenge to the form or content of the ballot title is governed by section 1-11-203.5, which sets a five-day time
limit to contest “the order on the ballot or the form or
content of the ballot title.” Cacioppo, 92 P.3d at 462-63
(emphasis added). Construing that statute, we observed

App. 50
that the statute permissibly limits challenges based on
the form or content of the ballot title, whether those
challenges were based either on constitutional or statutory requirements. Id. at 463 (“[T]he statute clearly
time-bars all contests to the form or content of the ballot title, whether the contest to the form or content is
based on statute or the constitution.”).
¶36 With respect to the second type of challenge,
namely, a challenge to the substance of a ballot issue
or ballot question, we first observed that sections 1-11203.5 and 1-11-213 do not apply to such challenges. Id.
at 465, 470 (noting that the question before the court
did not involve the “legality or the constitutionality
of the ballot issue’s substance”). Turning then to the
question of what constitutes a challenge to the substance of a ballot issue, we stated:
[T]he contest involves the substance of the
ballot issue if, regardless of any contest filed
before the election, the ballot issue as approved cannot be upheld under the laws or
constitution of the state. If the claim alleges
that the ballot issue as passed cannot stand
under the laws of this state, it is substantive
in nature. . . .
Id. at 465 (citations omitted).
¶37 Lastly, with respect to a challenge to the results
of an election, we began by noting that such a challenge
is governed by section 1-11-213, which establishes the
rules for conducting election contests in district court.
Id. at 469. We then made clear that because such a

App. 51
challenge does not involve the legality or constitutionality of a ballot issue’s substance but rather “concerns
only the means through which election results were obtained,” it is subject to section 1-11-213(4)’s time limits.
Cacioppo, 92 P.3d at 470. In this regard, we note that
section 1-11-213 itself provides guidance as to the type
of claim that is covered by that statute. Specifically,
section 1-11-213(7) provides for challenges to “the reception of illegal votes or the rejection of legal votes,”
thus indicating that such challenges concern the
means through which the challenged election results
were obtained, not the legality or constitutionality of a
ballot issue’s substance.
¶38 Applying these principles to the case now before
us, we conclude that Landmark’s claim is not a challenge to the substance of the ballot issue but rather is
a challenge to the means by which the election results
were obtained: Landmark contends that the bond and
tax election at issue should be invalidated because ineligible voters participated in the election and eligible
electors did not receive notice of the election and therefore were deprived of the opportunity to participate in
it. This is precisely the type of challenge envisioned by
section 1-11-213(7), and as noted above, we made clear
in Cacioppo, 92 P.3d at 469-70, that such a challenge is
properly subject to section 1-11-213(4)’s time bar.
¶39 Accordingly, for the reasons set forth in Cacioppo,
92 P.3d at 469-70, we conclude that Landmark’s claim
is subject to section 1-11-213(4)’s ten-day time limit
and that its challenge to the bond and tax election at
issue was therefore time barred.

App. 52
IV.

Other Claims

¶40 In light of our foregoing disposition, we need not
reach the remaining issues on which we granted certiorari. For purposes of providing guidance on remand,
however, we note that petitioners have asserted that
section 11-57-212, C.R.S. (2017), also bars Landmark’s
claims. That section provides that no challenge can be
brought to “any legislative acts or proceedings in connection with the authorization or issuance of securities
by a public entity” more than thirty days after the authorization of the securities. To the extent that petitioners assert that this statute applies to Landmark’s
challenge to the TABOR election, we need not address
that issue because we have concluded that the same
claims are barred by section 1-11-213(4). To the extent
that petitioners contend that any other claims asserted
by Landmark are barred by section 11-57-212, however, we express no opinion on that question but rather
leave it, in the first instance, to the courts below. See
Laleh v. Johnson, 2017 CO 93, ¶ 22 n.5, 403 P.3d 207,
212 n.5 (declining to address an issue not raised in the
parties’ petitions for certiorari review and on which
certiorari was not granted); Mercantile Adjustment
Bureau, L.L.C. v. Flood, 2012 CO 38, ¶ 27 n.8, 278 P.3d
348, 357 n.8 (concluding that when this court did not
grant certiorari to review a particular issue, it was not
properly before the court for consideration).
¶41 Likewise, we leave for the courts below the issues raised but not addressed by the division’s opinion,
including the question as to whether the District’s
tax assessment was illegal and in violation of the

App. 53
Landmark owners’ due process rights because the owners received no benefit from the assessment. Again, we
express no opinion on these issues.
V.

Conclusion

¶42 For these reasons, we conclude that Landmark’s
challenge to the bond and tax election in this case was
time barred under section 1-11-213(4). Accordingly, we
reverse the judgment of the court of appeals and remand this case to that court for further proceedings
consistent with this opinion, including on those claims
that the division did not address based on its previous
disposition of this case.

App. 54
436 P.3d 1126
Colorado Court of Appeals, Division III.
LANDMARK TOWERS ASSOCIATION, INC.,
a Colorado nonprofit corporation, by EWP-GV, LLC,
as receiver for 7677 East Berry Avenue
Associates, LP, its declarant,
Plaintiff-Appellee and Cross-Appellant,
v
UMB BANK, N.A., Colorado Bondshares,
a tax exempt fund; and Marin Metropolitan
District, a Colorado special district,
Defendants-Appellants and Cross-Appellees.
Court of Appeals Nos. 14CA2099 & 14CA2463
|
Announced April 21, 2016
|
Rehearing Denied May 12, 2016
Attorneys and Law Firms
Burg Simpson Eldredge Hersh & Jardine, P.C., Brian
K. Matise, Diane Vaksdal Smith, Nelson P. Boyle, Denver,
Colorado, for Plaintiff-Appellee and Cross-Appellant.
Kutak Rock LLP, Neil L. Arney, Mia K. Della Cava;
McNamara Law Firm, P.C., John N. McNamara, Denver, Colorado, for Defendants-Appellants and CrossAppellees.
Sherman & Howard, LLC, Joseph J. Bronesky, Peter J.
Whitmore, Denver, Colorado, for Amicus Curiae Colorado Municipal Bond Dealers Association.

App. 55
Butler Snow LLP, Monica Rosenbluth, Denver, Colorado, for Amicus Curiae Special District Association of
Colorado.
Opinion
Opinion by JUDGE J. JONES
¶ 1 A real estate developer, Everest Marin, L.P. (Everest), created a special district, the Marin Metropolitan District (District), as a vehicle for financing the
infrastructure of a to-be-developed residential community known as the European Village. The District issued bonds to finance the development which were to
be paid for by property taxes imposed on landowners
within the District. A group of condominium owners
who did not live in the European Village learned that
their properties had been included in the District under
suspicious circumstances. The condominium owners
received no benefit from the European Village development, and had not been notified of, much less voted in,
the elections to create the District and approve the
bonds and taxes. Acting through their homeowners association, plaintiff Landmark Towers Association, Inc.
(Landmark), they brought two actions; one to invalidate the creation of the District and the other—this
case—to invalidate the approval of the bonds and taxes
and to recover taxes they had paid to the District.
¶ 2 Following a bench trial, the district court in this
case granted Landmark part of the relief it requested,
ordering partial refund of taxes paid and enjoining the

App. 56
District from continuing to collect taxes from the Landmark condominium owners.
¶ 3 Defendants, UMB Bank (UMB), Colorado Bondshares (Bondshares), and the District, appeal the district court’s rulings in favor of Landmark. Landmark
cross-appeals the court’s determination that its contest
to the bond and tax election under the Taxpayer’s Bill
of Rights (TABOR) was time barred, and the court’s alternative determination that the election complied
with TABOR and applicable statutes.
¶ 4 We conclude that Landmark’s contest of the bond
and tax election is not time barred, and that the election violated TABOR and applicable statutes. We reject
defendants’ contentions that are not mooted by our determination that the election was invalid, and remand
for further proceedings.
I.

Background

¶ 5 The Landmark Towers are two condominium
towers in Greenwood Village with retail space. 7677 East
Berry Avenue Associates, LP, developed the Landmark
Towers. Zachary Davidson was its managing partner.
While the Landmark Towers were being developed
from 2005 through 2007, about 130 buyers (Landmark
buyers) entered into contracts to buy condominiums in
the towers, paid $35,000 to $100,000 in nonrefundable
deposits, and agreed to pay pro-rated taxes for the year
at closing. The purchasers were required to close when
the condominiums were completed. The purchase contracts did not name any special districts encompassing

App. 57
the Landmark Towers, but did contain a notice that
special districts might be created and impose ad valorem property taxes.
¶ 6 Mr. Davidson was also the managing partner of
Everest. Everest bought land near the Landmark Towers and intended to develop the site into a residential
community called the European Village. To finance the
development of the European Village, Mr. Davidson
decided to create the District under Title 32, Article 1
of the Colorado Revised Statutes, and to include the
Landmark Towers in the district to provide a sufficient
tax base.
¶ 7 Mr. Davidson and five other organizers submitted
a service plan for the District to Greenwood Village
which said that the District would provide public infrastructure improvements to all property within the
District. Greenwood Village approved the service plan
pursuant to section 32-1-301, C.R.S.2015.
¶ 8 The service plan provided that the District would
give notice of the creation of the special district to
individuals under contract to buy Landmark condominiums before conveyance of title.1 The service
plan also provided that the District could issue up
to $35,500,000 in general obligation bonds bearing
an interest rate of as much as 12%, which would be
paid over a thirty-year period.
¶ 9 The District’s organizers filed a petition for organization with the district court, and the court set a
1

The District did not give Landmark buyers such notice.

App. 58
hearing on the petition. At the hearing, the court entered an order directing that an organizational election
be held for the District.
¶ 10 The organizers held an organizational election
for the District. To become eligible electors under section 32-1-103(5)(a), C.R.S.2015, each of the six organizers
executed option contracts with Everest to purchase undivided 1/20th interests in a ten-foot by ten-foot parcel
in the District. The contracts purported to obligate the
organizers to pay taxes on the parcels. The organizers
held the organizational election on November 6, 2007,
and approved the creation of the District. At the same
time, the organizers voted to approve the issuance of
bonds and to impose ad valorem property taxes to pay
the bonds. The district court subsequently entered an
order declaring the special district organized.
¶ 11 In 2008, the District sold $30,485,000 in general
obligation bonds bearing an interest rate of 7.75% to
Bondshares. The bonds had a twenty-year maturity
date. UMB held the bond proceeds for the benefit of the
District.
¶ 12 The District was authorized to withdraw funds
from UMB by submitting requests for payment showing
the allocation of that money to the public infrastructure in the European Village. Per the service plan, the
bond funds were to be used only for public infrastructure work. In 2008, the District withdrew $8,000,000,
the full amount available for initial withdrawal. Because Mr. Davidson was the managing partner of both
Everest and the District, he had unsupervised access

App. 59
to the bond funds. Mr. Davidson misused a large portion of the funds.
¶ 13 In 2011, the Landmark buyers discovered facts
indicating that the District had been formed through
alleged misrepresentations to Greenwood Village and
fraud on the district court. Landmark intervened in
the case the District’s organizers had opened to seek
approval of the special district, and moved pursuant to
C.R.C.P. 60(b)(2), (3), and (5) to set aside the district
court’s order approving the District. Landmark asserted fraud on the court, lack of jurisdiction to approve the special district, and invalidity of the order
due to lack of due process.
¶ 14 The district court ruled that it was precluded
from setting aside the order by section 32-1-305(7),
C.R.S.2015, which bars a challenge to an order declaring a special district organized. A division of this court
affirmed. Marin Metro. Dist. v. Landmark Towers Ass’n,
Inc., 2014 COA 40, ¶ 30, 2014 WL 1254720 (Marin I).
¶ 15 Landmark brought this action to recover taxes
Landmark buyers had paid to the District and to enjoin the future levying of taxes pursuant to TABOR.
Landmark asserted that TABOR and related statutes
had been violated in several ways: (1) the bond and tax
election had been illegally conducted because (a) the
organizers’ option contracts were a sham and (b) the
Landmark buyers had not been allowed to participate
in the election; (2) the District had improperly disbursed bond funds for the benefit of Mr. Davidson; (3)
the District set the property tax levy for debt service

App. 60
at a mill levy level higher than that allowed by the service plan or otherwise allowed by law; and (4) the District had made the bonds subject to a net effective
interest rate higher than the limit set in the service
plan. Landmark also asserted that (5) taxing the Landmark buyers violated their constitutional right to
due process because the improvements funded by the
bonds provided no benefit to Landmark property.
¶ 16 The district court ruled in Landmark’s favor on
contentions (2), (3), and (5); ordered the District to refund Landmark buyers the portion of the misused
bond funds that the Landmark buyers had paid; ordered the District to refund Landmark buyers the
property taxes collected in excess of the mill levy limit
set in the service plan; and enjoined the District from
levying further illegal taxes on Landmark. The court
ruled in the District’s favor on contentions (1) and (4).
¶ 17 The district court subsequently held a TABOR
refund hearing and approved the District’s proposed
refund plan. At the refund hearing, Landmark brought
two additional claims against the District, Bondshares,
and UMB, which the district court denied. The district
court later denied Bondshares’ and UMB’s motion for
an award of costs as the prevailing parties on Landmark’s additional claims.
¶ 18 On appeal, defendants contend that we should
reverse the district court’s orders for the following
reasons: (1) Landmark’s challenge to the bond and
tax election is untimely under section 11-57-212,
C.R.S.2015; (2) the district court erred in entering an

App. 61
injunction based on a finding of a due process violation
because the court erroneously applied special assessment law to the District’s ad valorem property tax;
(3) the District’s property tax mill levy does not exceed
that allowed by TABOR and applicable statutes; (4) the
misuse of the bond funds did not violate TABOR because TABOR does not apply to bond proceeds; (5) the
court’s injunction violates the Uniform Taxation
Clause; and (6) the FDIC (which now owns the European Village property) is an indispensable party and
should have been joined. Bondshares and UMB also
contend that (7) they were the prevailing parties on
two of Landmark’s claims and thus should have been
awarded costs.
¶ 19 Landmark cross-appeals the district court’s order on liability, contending that the TABOR election
was illegal and thus the bonds and taxes approved in
the election are void.
¶ 20 We agree with Landmark. We address and reject
defendants’ first and sixth contentions and Bondshares’ and UMB’s contention regarding costs. Because of our disposition of Landmark’s cross-appeal,
we need not address defendants’ second, third, fourth,
and fifth contentions.
II.
A.

Defendants’ Appeal

Timeliness of Landmark’s Challenge

¶ 21 Defendants contend that all of Landmark’s challenges to the validity of the taxes are barred by the

App. 62
thirty day time limit in section 11-57-212. We conclude
that defendants waived this issue.
1.

Standard of Review

¶ 22 Defendants’ contention presents issues of statutory construction. We review such issues de novo.
Beren v. Beren, 2015 CO 29, ¶ 11, 349 P.3d 233.
2.

Analysis

¶ 23 Section 11-57-212 provides:
No legal or equitable action brought with respect to any legislative acts or proceedings in
connection with the authorization or issuance
of securities by a public entity shall be commenced more than thirty days after the authorization of such securities.
¶ 24 The time bar in section 11-57-212 is an affirmative defense. See Reider v. Dawson, 856 P.2d 31, 35
(Colo.App.1992) (“the statute of limitations is an affirmative defense”), aff ’d in part and remanded in part,
872 P.2d 212 (Colo.1994); see also C.R.C.P. 8(c); Dinosaur Park Invs., L.L.C. v. Tello, 192 P.3d 513, 516
(Colo.App.2008) (“An affirmative defense is ‘a legal argument that a defendant . . . may assert to require the
dismissal of a claim or to prevail at trial.’ ” (quoting
State v. Nieto, 993 P.2d 493, 507 (Colo.2000)). An affirmative defense is waived unless it is presented at
trial. Blood v. Qwest Servs. Corp., 224 P.3d 301, 32829 (Colo.App.2009) (an affirmative defense raised in

App. 63
pleadings but not presented at trial is not preserved
for appeal, even if it is raised in a post-trial motion),
aff ’d, 252 P.3d 1071 (Colo.2011); see Christensen v.
Hoover, 643 P.2d 525, 531 (Colo.1982) (“Defenses
and objections not presented at trial are deemed
waived. . . .”).
¶ 25 Contrary to defendants’ assertion in their reply
brief, they did not raise this issue in a manner sufficient to preserve it. Although the District cited section
11-57-212 in its answer and in the trial management
order, it did not raise the issue at trial. The District
asserts that its argument at trial that allowing a challenge to bonds years after they were issued would undermine the Colorado public securities market raised
the section 11-57-212 statute of limitations sufficiently
to preserve the defense. However, the District did not
cite section 11-57-212 at any point during trial or argue at trial that Landmark’s claims were barred by
that statute. Thus, the defense was waived. See J.W.
Constr. Co. v. Elliott, 253 P.3d 1265, 1271 (Colo.App.2011)
(where affirmative defense was not raised at trial,
identification of that defense in the answer and trial
management order did not preserve it for appeal);
Blood, 224 P.3d at 329; see also Core-Mark Midcontinent Inc. v. Sonitrol Corp., 2016 COA 22, ¶ 26, 2016 WL
611566 (“To preserve an argument as to why a particular decision is appropriate, a party must timely raise
that specific argument.”).

App. 64
B.

The FDIC

¶ 26 Defendants contend that the district court erred
in adjudicating Landmark’s claims without joining the
FDIC because the FDIC is an indispensable party to
this action.
¶ 27 Defendants raised this issue for the first time in
their post-trial motion for reconsideration. But, a party
must assert the defense of failure to join a party in its
pleadings, in a motion for judgment on the pleadings,
or at the trial on the merits. C.R.C.P. 12(h)(2). Defendants have known about the FDIC’s interests in the action since it was filed; thus, their contention that the
FDIC is an indispensable party is self-serving and untimely. See Greco v. Pullara, 166 Colo. 465, 470-71, 444
P.2d 383, 385 (1968). It follows that the district court
did not err in adjudicating Landmark’s claims in the
FDIC’s absence.
C.

Bondshares’ and UMB’s Costs

¶ 28 Bondshares and UMB contend that the district
court erred in denying their bill of costs because they
prevailed on Landmark’s fraudulent transfer and unjust enrichment claims against them. We disagree.
1.

Background

¶ 29 The district court held a TABOR refund hearing
to review the District’s refund plan. At the refund hearing, Landmark filed a supplemental petition bringing
additional claims of fraudulent transfer against the

App. 65
District, Bondshares, and UMB and unjust enrichment
against Bondshares. The district court denied Landmark’s new claims.
¶ 30 Bondshares and UMB moved for an award of
costs. The district court denied the motion, reasoning
that Bondshares and UMB were significantly involved
in the trial and that their interests aligned with those
of the District which was, on balance, the losing party.
Thus, while no specific claims were asserted against
Bondshares and UMB at trial, they had not prevailed
in the overall context of the litigation.
2.

Standard of Review and Applicable Law

¶ 31 “A trial court is given broad discretion to determine who is a prevailing party in multiple claim cases
because of its unique opportunity to observe the course
of the litigation.” Archer v. Farmer Bros. Co., 90 P.3d
228, 231 (Colo.2004). We review a district court’s determination of who is a prevailing party for an abuse of
that discretion. Id. at 230. A district court abuses its
discretion when its decision is manifestly arbitrary,
unreasonable, unfair, or when it misapplies the law.
Reisbeck, LLC v. Levis, 2014 COA 167, ¶ 7, 342 P.3d
603.
¶ 32 Under C.R.C.P. 54(d), reasonable costs are
awarded to the prevailing party in the litigation. A
“prevailing party” is one who prevails on a significant
issue in the litigation and derives some benefit sought
by the litigation. Archer, 90 P.3d at 230 “When a case
involves many claims, some of which are successful

App. 66
and some of which are not, it is left to the sole discretion of the trial court to determine which party, if any,
is the prevailing party and whether costs should be
awarded.” Id. at 231; see § 13-16-108, C.R.S.2015.
3.

Analysis

¶ 33 Bondshares and UMB worked extensively with
the District to present a united position against Landmark. As the district court noted, they have as much
interest in defeating Landmark’s claims as does the
District. (Indeed, they have more of an interest in defeating Landmark’s claims given that they stand to
lose millions of dollars if Landmark prevails and the
District cannot repay the bond debt.) Landmark prevailed on most significant issues at trial and recovered
a substantial monetary judgment. We perceive no
abuse of discretion in the district court’s determination
that Bondshares and UMB were not prevailing parties
against Landmark merely because two of Landmark’s
claims against them were unsuccessful. See Lobato v.
Taylor, 13 P.3d 821, 835 (Colo.App.2000), rev’d on other
grounds, 71 P.3d 938 (Colo.2002).
III.

Landmark’s Cross-Appeal

¶ 34 Landmark contends that the district court erred
in ruling that the District’s TABOR election was valid
because (1) the organizers who voted in the election were not eligible electors and (2) the Landmark
buyers were eligible electors who did not receive

App. 67
constitutionally required notice. We agree with both of
Landmark’s contentions.
A.

Issue Preclusion

¶ 35 As a preliminary matter, we reject defendants’
contention that Landmark’s challenge to the TABOR
election is barred because the issues Landmark raises
were previously litigated in Marin I.
¶ 36 Issue preclusion applies only if: (1) the issue
sought to be precluded is identical to an issue actually
and necessarily determined in the prior proceeding;
(2) the party against whom estoppel is asserted was a
party to, or is in privity with a party to, the prior proceeding; (3) there is a final judgment on the merits in
the prior proceeding; and (4) the party against whom
the doctrine is asserted had a full and fair opportunity
to litigate the issue in the prior proceeding. Bebo Constr.
Co. v. Mattox & O’Brien, P.C., 990 P.2d 78, 84-85
(Colo.1999).
¶ 37 The issues presented by Landmark’s contentions on cross-appeal are not identical to the issues decided in Marin I. In Marin I, Landmark challenged the
validity of the creation of the District. A division of this
court affirmed the district court’s ruling that it lacked
jurisdiction over Landmark’s challenge because section 32-1-305(7) bars challenges to the validity of special districts after they are created.
¶ 38 Defendants mischaracterize the disposition of
Marin I in their reply brief by saying that the division

App. 68
ruled on issues “identical” to those Landmark raises
now. The division in Marin I held that applying the
statute barring Landmark’s challenge to the creation
of the District did not violate due process, specifically
because the statute was “not merely a statute of limitations providing for a limited time period within
which to mount a challenge, but rather a jurisdictional
bar to an attack on the formation of the district.” Marin
I, ¶ 43. Section 32-1-305(7) does not apply to Landmark’s present claims, which do not challenge the creation of the District.
¶ 39 Further, the Marin I division held that the notice requirements for the creation of a special district
were met, and, thus, Landmark was not denied due
process based on a lack of required notice. Id. at ¶ 42.
In this case, Landmark contends that the District did
not comply with the notice requirements for a valid
TABOR election, which are addressed by different laws
than those which pertain to the creation of a special
district. Compare Colo. Const. art. X, § 20(3)(b), with
§ 32-1-204, C.R.S.2015. Landmark also asserts due
process violations not asserted in Marin I.
¶ 40 Thus, Landmark has not previously litigated
the issues it raises in this case and is therefore not
barred by issue preclusion from litigating those issues.

App. 69
B.
1.

The Validity of the TABOR Election

Standard of Review and Applicable Law

¶ 41 The issue of who qualifies as an eligible TABOR
elector is a question of statutory interpretation that we
review de novo. Beren, ¶ 11. To the extent deciding the
issue depends on findings of historical fact, we review
the district court’s findings for clear error. See Hamon
Contractors, Inc. v. Carter & Burgess, Inc., 229 P.3d 282,
298 (Colo.App.2009).
¶ 42 Our primary goals in interpreting a statute are
to determine and give effect to the General Assembly’s
intent. Battle North, LLC v. Sensible Housing Co., 2015
COA 83, ¶ 30, 2015 WL 3776835. We look first to the
plain and ordinary meanings of the words and phrases
used in the statute. Id. And we consider the language
in the dual contexts of the statute as a whole and the
comprehensive statutory scheme. Id.
¶ 43 TABOR requires a district to have voter approval for any new tax or tax increase, or for the creation of any multiple-fiscal-year district debt obligation.
Colo. Const. art. X, § 20(4). TABOR also requires a district to mail notice of an election to voters at least
thirty days before the election. Id. at § 20(3)(b).
¶ 44 Section 32-1-806, C.R.S.2015, provides that no
person is permitted to vote in a special district election
unless that person is an eligible elector as defined in
section 32-1-103(5)(a).2 Per section 32-1-103(5)(a), an
2

The parties agree that the provisions of Title 32, C.R.S.
2015, are applicable to the TABOR election.

App. 70
eligible elector is a person who is registered to vote,
and who is a resident of the special district or area to
be included in the special district or who is an owner
of taxable property in the special district or area to be
included in the special district. Section 32-1-103(5)(b)
provides that a person who is obligated to pay taxes
under a contract to purchase taxable property in the
special district or area to be included in the special district is considered an owner within the meaning of
subsection (5). Taxable property is property subject to
general ad valorem taxes. § 32-1-103(22).
2.

Time Bar of Section 1-11-213(4)

¶ 45 Initially, we address the district court’s ruling
that Landmark’s challenge to the TABOR election is
barred by section 1-11-213(4), C.R.S.2015. That statute
provides that to contest an election, the contestor shall
file in the office of the clerk of the district court a written statement of the intention to contest the election
within ten days after the official survey of returns has
been filed with the designated election official. Section
1-11-213(4) also says that “[i]f a written statement of
intent to contest the election is filed more than ten
days after the completion of the official survey of returns, no court shall have jurisdiction over the contest.”
¶ 46 We conclude that the district court erred in applying section 1-11-213(4), for several reasons.

App. 71
a.

Landmark’s Challenges Are Substantive

¶ 47 In Cacioppo v. Eagle County School District
Re-50J, 92 P.3d 453 (Colo.2004), the supreme court
ruled that “[i]f the claim alleges that the ballot issue
as passed cannot stand under the laws of this state, it
is substantive in nature and thus not subject to the
time requirements of . . . section 1-11-213, which governs the time for appeal concerning challenges to election results.” Id. at 465. The court concluded that
because the specific claims brought by the plaintiff
were related to defects in the ballot’s form or content,
they were not substantive in nature and thus were
subject to the statutory time limit. The supreme court
explicitly ruled that a claim relating to a failure to
comply with a constitutional requirement, such as a
lack of constitutionally required notice, would be substantive and not subject to the statutory time constraints. Id. at 468-69 (“However, because this claim
goes to the information provided in the constitutionally required notice and not the ballot title, we determine that section 1-11-203.5 is inapplicable and does
not bar the claim.”).
¶ 48 Landmark claims that ineligible electors voted
in the election and that eligible electors did not receive
constitutionally required notice of the election. These
claims fall squarely within the Cacioppo court’s definition of a substantive claim because, if the claims are
correct, the District would not have had the constitutional authority to issue the bonds or levy the taxes.
See id. at 469 (indicating that the statutory time bar
applied to the petitioner’s claims because he did “not

App. 72
argue that the [d]istrict [was] without legal or constitutional authority to raise the tax”). Thus, Landmark’s
claims are not subject to the statutory time limit of section 1-11-213(4).
b.

Conflict with TABOR

¶ 49 We also conclude that the time limit in section
1-11-213(4) cannot bar Landmark’s claims because
such a bar would limit the Landmark buyers’ constitutional rights under TABOR.3
¶ 50 TABOR allows taxpayers, such as the Landmark buyers, four years to challenge the legality of
taxes levied on them. Colo. Const. art. X, § 20(1) (providing that individuals may file suit to enforce TABOR,
and that “[r]evenue collected, kept, or spent illegally
since four full fiscal years before a suit is filed shall be
refunded with 10% annual simple interest from the initial conduct”). Imposing a ten-day statutory time limit
to a claim asserting a constitutional right to refunds
under TABOR would directly impair individuals’ TABOR right to obtain refunds of taxes collected illegally
in the previous four years. Rights provided by TABOR
cannot be impaired by statute; thus, for this reason as
well, we conclude that the statutory time limit does not
bar substantive TABOR claims. See Cacioppo, 92 P.3d
3

Our analysis in this regard applies equally to defendants’
contention that Landmark’s claims are barred by section 11-57212, C.R.S. 2015. At oral argument, defendants’ counsel conceded
that section 11-57-212 does not apply in the event of a TABOR
violation.

App. 73
at 463 (implementing legislation for TABOR “is permissible as long as it does not directly or indirectly
impair, limit, or destroy the rights that [TABOR] provides”); Passarelli v. Schoettler, 742 P.2d 867, 872
(Colo.1987) (“[W]here a statute and the constitution
are in conflict[,] the constitution is paramount law.”);
see also White v. Davis, 163 Colo. 122, 125, 428 P.2d 909,
910 (1967) (“It is elementary that the requirements of
due process of law under both the United States and
Colorado Constitutions take precedence over statutory
enactments of our legislature. This, of necessity, includes any bar to inquiry as may be provided in the
statute, to those essential elements of due process including proper notice. . . .”).
c.

Equitable Tolling

¶ 51 In any event, even if the statute of limitations in
section 1-11-213(4) applies to Landmark’s claims, the
doctrine of equitable tolling would allow Landmark’s
claims to proceed.4
¶ 52 The doctrine of equitable tolling may apply
where the defendant’s wrongful conduct prevented the
plaintiff from asserting its claims in a timely manner.
Dean Witter Reynolds, Inc. v. Hartman, 911 P.2d 1094,
1096 (Colo.1996). “When a rigid application of the
statute of limitations leads to an unjust result, courts
may properly fashion an equitable exception to the
limitations period that may be asserted against a
4

This reasoning also applies equally to defendants’ argument that section 11-57-212 bars Landmark’s claims.

App. 74
governmental agency as well as against private persons.”
Shell W. E & P, Inc. v. Dolores Cty. Bd. of Comm’rs, 948
P.2d 1002, 1007 (Colo.1997).
¶ 53 A defendant is estopped from asserting a statute
of limitations defense when: (1) the party to be estopped knows the relevant facts; (2) the party to be estopped intends that its conduct be acted on, or acts in
a manner that the party asserting estoppel believes
the party to be estopped has such intent; (3) the party
asserting estoppel is ignorant of the relevant facts; and
(4) the party asserting estoppel relies on the other
party’s conduct to its detriment. Olson v. State Farm
Mut. Auto. Ins. Co., 174 P.3d 849, 858 (Colo.App.2007).
¶ 54 In Marin I, the division noted that the district
court had found in that case that “there is little doubt,
based upon the evidence presented to this court to
date, that efforts were made [to] prevent the individuals who had entered into purchase contracts from finding out about the developer’s intentions and efforts to
create the District and the related tax liability which
would burden the property they were purchasing.”
Marin I, ¶ 10. It is undisputed that, although the District had told Greenwood Village that it would provide
written notice of the creation of the special district
to Landmark buyers before closing, the District did
not give Landmark buyers any notice of the creation
of the special district.5 Nor did the District give the
5

There was also unrebutted testimony by Landmark buyers
that at closing sales personnel told them there were no special
districts.

App. 75
Landmark buyers any notice (before or after the fact)
of the TABOR election. The Landmark buyers did not
find out about the taxes the District had approved until they received their tax bills—after they had closed
on their purchase contracts, after the TABOR election
had been held, and long after the alleged statutory
deadline had passed for challenging the election.
¶ 55 The District prevented the Landmark buyers
from finding out about the creation of the District and
the TABOR election to pass heavy tax levies to fund a
separate development. The Landmark buyers did not
know about the TABOR election or the taxes it approved, and relied on the District’s omissions in closing
their purchase contracts. The District cannot now seek
to use an extremely short statutory time limitation to
prevent the Landmark buyers from challenging an
election they did not know about. Therefore, we conclude that even if the statutory time bar in sections 111-213(4) applies to Landmark’s claims, the District is
estopped from asserting it. See Shell W. E & P, 948 P.2d
at 1007.
3.

The Organizers’ Voter Eligibility
a.

Background

¶ 56 When the organizational and TABOR elections
were held, no one resided in the proposed district, and
only limited partnerships, which are not eligible electors, owned taxable property in the district. Thus, the
only possible eligible electors were persons obligated to

App. 76
pay taxes under contracts to purchase land in the district.
¶ 57 The district court’s factual findings as to the
steps the organizers took to become eligible electors to
create the District and to approve the bonds and taxes
were as follows:
The evidence presented on trial showed that
Zachary Davidson and five of his associates,
including Chad Cox, entered into contracts to
purchase taxable property within the proposed special district which obligated them to
pay taxes as such contracts are described in
C.R.S. 32-1-103(5). They did so specifically to
make themselves eligible voters. The contracts were dated August 31, 2007. The seller
under the agreements was Everest Marin L.P.
which owned the parcel upon which the European Village project was to be constructed.
Each purchase agreement related to an undivided one-twentieth (1/20th) interest in a ten
foot by ten foot parcel referred to on trial as a
“director’s parcel.” The consideration for the
purchase by each buyer was five hundred dollars of which ten dollars was payable on execution of the contract and the balance at
closing. The closing period was open but to occur within eight years. The contract specifically provided that the purchaser agreed to
pay all taxes that may be levied against the
purchased interest from the time the contract
was executed. The contracts also provided
that the seller could itself pay the taxes then
collect the amount from the purchaser. . . .

App. 77
According to the testimony on trial of Mr. Cox,
he did not ever pay the ten dollars earnest
money and there was a tacit agreement between Davidson and the others contracting for the director’s parcels that they would
never actually have to personally pay the
taxes. Closing never occurred on any of the
director’s parcel contracts. As such, the five
hundred dollar purchase payment never became due.
¶ 58 Landmark argued at trial that the organizers’
contracts were sham agreements which did not make
them eligible to vote in the TABOR election. The district court ruled that, even though the organizers
never paid the down payments for the “director’s parcels” or paid any taxes on the land, the contracts were
a legitimate way to create eligible electors under section 32-1-103(b)(5). The court characterized these failures to pay down payments and taxes as “de minimis”
because they involved small amounts of money.
b.

Analysis

¶ 59 We accept the district court’s findings of historical
fact regarding the creation of the organizers’ contracts,
the terms of the contracts, and the circumstances surrounding the creation of the contracts. But we disagree

App. 78
with its legal conclusion that the contracts were sufficient to make the organizers eligible electors.6
¶ 60 The purpose of requiring a district to gain approval from persons who own property within a district
before it imposes a new tax is to allow the people who
will have to pay the tax to decide whether the tax
should be levied. See Huber v. Colo. Mining Ass’n, 264
P.3d 884, 890 (Colo.2011) (“[TABOR’s] purpose is to
protect citizens from unwarranted tax increases and to
allow citizens to approve or disapprove the imposition
of new tax burdens.”).
¶ 61 The organizers’ contracts did not comport with
this purpose because they were illusory.
¶ 62 Sham contracts are without legal consequence.
We believe it to be a well-settled rule in Colorado and elsewhere that in an action on a contract executed by the parties thereto extrinsic
evidence is admissible to establish that the
parties did not intend it to be an exclusive, authoritative memorial of their agreement, and
where they have previously agreed that their
written promises are not to bind them, that
agreement controls, and no legal obligations
whatever arise under the contract. Such a
contract is a mere sham, lacking all legal efficacy, and extrinsic parol or other extrinsic

6

Even if the issue of whether a contract is a sham is a factual
one, we would conclude that the district court clearly erred in
finding that the organizers’ contracts were not sham agreements.

App. 79
evidence will always be received on the determination of that issue.
McGuire v. Luckenbach, 131 Colo. 333, 339, 281 P.2d
997, 1000 (1955); see also 15 Arthur Lindon Corbin &
Joseph M. Perillo, Corbin on Contracts § 85:19 (rev. ed.
2003).
¶ 63 The facts found by the district court, and other
undisputed facts, show that the organizers’ contracts
for options to purchase parcels were sham agreements.7
These facts include the following:
• The size of the individual parcels—an undivided 1/20th interest in a 100-square-foot
parcel—is so small that ownership of such a
parcel would not permit any beneficial use
thereof. Though it is true that the applicable
statutes do not place limits on the size of a
parcel to qualify someone as an eligible elector, we think the size of the parcel is relevant
to determining the bona fides of any contract
to purchase it.

7

The district court in Marin I found that the organizers’ contracts were sham agreements, and that Landmark had therefore
“established that the creation of the District was never approved
by taxpaying electors,” but nevertheless determined that it could
not declare the creation of the District invalid because of section
32-1-305(7), C.R.S. 2015, which does not apply to this case. The
district court noted that, while there was testimony that contracts
such as those at issue are used to create special districts, no legal
authority authorizes such a practice, and that deeming such contracts to create eligible electors legal “would render the requirement [of a vote by individuals with assets and funds at risk] a
meaningless exercise in document creation.” We agree.

App. 80
• Though the contracts purported to obligate the option holder to pay property taxes,
they also waived any right to specific performance of the obligation to pay and any right
to seek damages for any failure to pay. Therefore, the obligation to pay taxes was illusory.
See Sentinel Acceptance Corp. v. Colgate, 162
Colo. 64, 67-68, 424 P.2d 380, 382 (1967) (contract which left performance to the sole discretion of one party was illusory); Bernhardt
v. Hemphill, 878 P.2d 107, 111 (Colo.App.1994)
(where parties did not give up anything of
value, and purported contract did not create
any obligations, contract was illusory).
• One of the organizers testified, without
contradiction, that the organizers agreed
amongst themselves that none of them would
have to pay taxes on the parcels. Cf. Nat’l
Boulevard Bank of Chicago v. Makens, 370
N.W.2d 183, 186, 188 (S.D.1985) (where testimony established that parties did not intend
for contract for deed to be binding, it was a
sham and unenforceable).
• None of the organizers paid the down payment required by the option contracts. Though
the district court characterized those failures
as de minimis because of the small amount
of money at issue, those failures were not
qualitatively de minimis in light of the other
evidence that the agreements were never intended to bind the parties.

App. 81
• None of the organizers paid any property
taxes. Again, these failures were not qualitatively de minimis.
• None of the organizers exercised their options to purchase.
• None of the contracts was ever recorded in
the real property records.
¶ 64 We therefore conclude that the organizers’ contracts did not make them eligible electors under section
32-1-103(5). Thus, the organizers illegally participated
in the District’s TABOR election and their votes are
void. It follows that the TABOR election itself was invalid.
4.

Landmark Buyers’ Voter Eligibility
a.

Background

¶ 65 As noted, 130 individuals were under contract to
purchase units in Landmark when the District held its
TABOR election. Each of those contracts required the
buyer to close as soon as the purchased unit was completed and each contract obligated the buyer to pay
pro-rated property taxes from the date of closing to the
end of the year. The Landmark contracts were enforceable against the buyers and the buyers had paid substantial nonrefundable deposits.
¶ 66 The district court ruled that these contracts
did not make the Landmark buyers eligible electors
under section 32-1-103(5) because the Landmark buyers

App. 82
were not obligated to pay taxes under the contracts
and they were merely “potential future owners.”
b.

Analysis

¶ 67 Section 32-1-103(5)(b) qualifies those who are
obligated to pay taxes under a contract to purchase
taxable property within a special district as eligible
electors in that district. In ruling that a person bound
by such a contract is not an eligible elector unless the
contract obligates the buyer to pay taxes before closing,
the district court read the statute too narrowly. There
is nothing in the statute to indicate that a current obligation to pay property taxes at closing would not
qualify a person with such an obligation as an eligible
elector. And such an exclusion would be inconsistent
with TABOR. A party to a binding contract to purchase
property will, of course, be required to pay any property taxes lawfully imposed. Thus, it makes sense to
allow such parties to vote in an election to impose property taxes given TABOR’s purpose to allow citizens to
decide whether they will be taxed. See Huber, 264 P.3d
at 890.
¶ 68 The contracts required Landmark buyers to
begin paying property taxes on their units at the time
of closing. This obligation existed at the time of the
TABOR election. Thus, we conclude that those under

App. 83
contract to purchase units in the Landmark Towers
were eligible electors in the TABOR election.8
¶ 69 Because the Landmark buyers were eligible
electors, they should have received notice of the election as constitutionally required by TABOR. Colo.
Const. art. X, § 20(3)(b). It is undisputed that they did
not.
¶ 70 In sum, because the TABOR election was conducted illegally—with the participation of ineligible
voters and without constitutionally required notice to
eligible voters—the District’s taxes to pay the bonds
were levied illegally. Pursuant to TABOR’s refund provision, the District must refund all illegal taxes paid
with ten percent annual simple interest. Id. at § 20(1).
The Landmark buyers are also entitled to an order enjoining the District from levying any further taxes
without proper voter approval.
IV.

Other Issues

¶ 71 Because of our resolutions of the issues discussed
above, we need not address defendants’ contentions
that the district court misapplied special assessment
law to the District’s ad valorem taxes, the District’s
mill levy level does not violate TABOR, the misuse of
bond funds did not violate TABOR, and the injunction
8

The division in Marin I noted that the district court in that
case had said that “Landmark has established that the creation
of the District was never approved by taxpaying electors.” Marin
Metro. Dist. v. Landmark Towers Ass’n, Inc., 2014 COA 40, ¶ 11,
2014 WL 1254720.

App. 84
issued by the district court requires the District to violate the Uniform Taxation Clause.
V.

Conclusion

¶ 72 The district court’s judgment is affirmed in part
and reversed in part, and the case is remanded for further proceedings consistent with this opinion.
JUDGE WEBB and JUDGE BOORAS concur.

App. 85
412 P.3d 620
Colorado Court of Appeals, Division II.
MARIN METROPOLITAN DISTRICT, Appellee,
and
Colorado Bondshares—Tax-Exempt Fund,
Intervenor-Appellee,
v.
LANDMARK TOWERS ASSOCIATION, INC.,
a Colorado nonprofit corporation, BY EWP-GV, LLC,
as Receiver for 7677 East Berry Avenue Associates,
LP, its Declarant, Intervenor-Appellant.
Court of Appeals Nos. 13CA0211 & 13CA0751
|
Announced March 27, 2014
|
Rehearing Denied May 1, 2014
Attorneys and Law Firms
McNamara Law Firm, P.C., John McNamara Jr., Denver, Colorado, for Appellee and Intervenor-Appellee
Kutak Rock LLP, Neil L. Arney, Denver, Colorado, for
Intervenor-Appellee
Burg Simpson Eldridge Hersh & Jardine, P.C., Diane
Vaksdal Smith, Brian K. Matise, Nelson P. Boyle, Englewood, Colorado, for Intervenor-Appellant

App. 86
Opinion
Opinion by JUDGE RICHMAN
¶ 1 In this action involving a special metropolitan
district, intervenor-appellant Landmark Towers Association, Inc. (Landmark), appeals the district court’s
denial of its motion to set aside the order which created
the Marin Metropolitan District (District), appellee,
and its related order awarding costs to the District and
to a bond issuer for the district, Colorado Bondshares
(Bondshares). We affirm.
I.

Background

¶ 2 In 2007, a developer and five affiliated individuals (organizers) commenced proceedings under section
32-1-101 to -1807, C.R.S.2013, to form a special metropolitan district within the boundaries of Greenwood
Village. The organizers filed a service plan with the
municipality and the city council approved it pursuant
to section 32-1-204.5, C.R.S.2013, on August 27, 2007.
¶ 3 On September 5, 2007, a petition for organization
was filed with the Arapahoe County District Court pursuant to section 32-1-301, C.R.S.2013. The court set the
petition for hearing on October 4, 2007. Notice of the
hearing was published in the local newspaper, and the
Clerk of the Court issued a notice of the hearing on
September 13, 2007.
¶ 4 On October 4, 2007, the district court entered
an order directing an organizational election be held
on November 6, 2007. The election was held, and on

App. 87
December 6, 2007, the district court entered findings, and an order and decree creating the special district. The order included within the special district
the Landmark Towers condominium properties which
were then under construction. Approximately 130
persons had contracted to purchase condominiums
therein, but no sales had been completed as of December 2007.
¶ 5 According to Landmark, a homeowners’ association comprised of Landmark Towers condominium
owners, it was not until several years after the District
was formed that the owners discovered facts indicating
that the District had been organized through alleged
misrepresentations to the municipality and an asserted fraud on the court. In 2012, Landmark intervened and moved pursuant to C.R.C.P. 60(b)(2), (3), and
(5) to set aside the December 2007 order for alleged
fraud on the court, a lack of subject matter jurisdiction
to approve the special district, and invalidity of the order due to lack of due process.
¶ 6 The court held a three-day evidentiary hearing
and by written order entered on December 17, 2012,
dismissed Landmark’s motion. The court concluded
that it was barred from setting aside the order by section 32-1-305(7), C.R.S.2013. That subsection provides:
If an order is entered declaring the special district organized, such order shall be deemed final, and no appeal or other remedy shall lie
therefrom. The entry of such order shall finally and conclusively establish the regular
organization of the special district against all

App. 88
persons except the state of Colorado in an action in the nature of quo warranto commenced
by the attorney general within thirty-five
days after entry of such order declaring such
special district organized and not otherwise.
The organization of said special district shall
not be directly or collaterally questioned in
any suit, action, or proceeding except as expressly authorized in this subsection (7).
¶ 7 The court interpreted the statute, giving weight
to its plain meaning, as follows:
The language chosen by the Legislature in
adopting C.R.S. § 32-1-305(7) is clear and unambiguous—once the final order is signed
only the attorney general may challenge the
order, and no appeal or other remedy is available.
¶ 8 The court also determined that the relief Landmark sought—to set aside the order based on fraud on
the court, or because the order was void, and because
there was a lack of due process—all fell within the
phrase “other remedy” as used in the statute, and the
relief requested was not available. As the court explained, “[f ]or the Legislature to choose to deprive parties of the right to appeal an order after it becomes
final is extraordinary and demonstrates the breadth of
the prohibition the Legislature intended.”
¶ 9 Thus, the court acknowledged that it was required to deny Landmark’s motion on the statutory basis alone.

App. 89
¶ 10 Nevertheless, the court went on to address
Landmark’s other arguments. With respect to Landmark’s argument that it had been denied due process,
the court mentioned that “there is little doubt, based
upon the evidence presented to this court to date, that
efforts were made [to] prevent the individuals who had
entered into purchase contracts from finding out about
the developer’s intentions and efforts to create the District and the related tax liability which would burden
the property they were purchasing.” However, the
court clarified that regardless of any efforts to prevent
individuals from learning about the formation of the
District, the Legislature clearly chose to deprive parties of the right to appeal or attack an order after it
became final.
¶ 11 With respect to the order being void and therefore subject to being set aside under C.R.C.P. 60(b)(3),
the court stated:
It appears to the Court that Landmark has established that the creation of the District was
never approved by taxpaying electors[,] which
is a prerequisite to the court’s December 17,
2007 Order. Because such would render the
order void there would be no Rule 60(b)(3)
time bar.
The court again clarified that, nonetheless, “the court
lacks jurisdictional authority to enter an order finding
the December 17, 2007 Order void.”
¶ 12 With respect to the issue of Landmark’s timely
filing of its motion under C.R.C.P. 60(b)(5), the court

App. 90
remarked that although the evidence presented to date
strongly suggested that fraud had occurred, the time
bar of C.R.C.P. 60(b)(2) would apply to preclude relief.
And again the court clarified that it was jurisdictionally unable to reach the issue.
¶ 13 In a separate order, the court awarded $5,905.36
in costs to the District and to the other intervenor,
Bondshares, as costs necessarily incurred because of
the litigation and for the proper preparation for trial.
This appeal followed.
II. Statute Providing for
Organization of Special Districts
¶ 14 In order to address Landmark’s arguments,
we first set forth pertinent provisions of the statutes
providing for the formation of special districts.
¶ 15 The legislative declaration pertaining to special
districts provides that the organization of special districts providing the services and having the purposes,
powers, and authority provided in Article 32 will serve
a public use and will promote health, safety, prosperity,
security, and general welfare of the inhabitants of
such districts. § 32-1-102(1), C.R.S.2013. Special districts have the power to borrow money and incur indebtedness by the issuance of bonds, section 32-1-1001,
C.R.S.2013, to levy taxes and collect revenues whenever indebtedness has been incurred, and to create a
fund for meeting the obligations of the district for bond
repayment and interest, section 32-1-1101, C.R.S.2013.

App. 91
¶ 16 In order to form a special district, the persons
proposing the organization must prepare and file a service plan setting forth the contents specified in section
32-1-202. Pursuant to section 32-1-203, C.R.S.2013, the
board of county commissioners of each county which
has territory included within the proposed special district shall review the plan according to criteria set
forth in the statute, unless the “proposed special district . . . is contained entirely within the boundaries
of a municipality.” § 32-1-203(1). If the boundaries of
the special district “are wholly contained within the
boundaries of a municipality,” the district may not be
organized except upon adoption of a resolution of approval by the governing body of the municipality. § 321-204.5.
¶ 17 If the special district is subject to review by the
county commissioners, a public hearing must be held
pursuant to section 32-1-204, C.R.S.2013.1 Section 321-204(1.5) provides that not more than thirty nor less
than twenty days before the hearing, “the petitioners
for the organization of the special district shall send
letter notification of the hearing to the property owners within the proposed special district as listed on the
records of the county assessor on the date requested
unless the petitioners represent one hundred percent
of the property owners.” The hearing shall be open to
1

The statute does not expressly state that the procedural requirements of section 32-1-204, C.R.S.2013, must be met if the
district is “wholly contained within the boundaries of a municipality” as is the case here, but it appears that Greenwood Village
intended to follow those procedural requirements.

App. 92
the public, and all interested parties, as defined by the
statute, shall be given an opportunity to be heard. § 321-204.5(3). Within twenty days after completion of the
hearing, the board shall advise the petitioners in writing as to its action on the proposed service plan. Id.
¶ 18 If the petition for organization is approved, a petition for organization of the special district may be
filed in any district court pursuant to the provisions
of section 32-1-301, accompanied by the resolution of
the governing municipality approving the service plan.
§ 32-1-205(1), C.R.S.2013. The approved service plan
and resolution of approval shall be incorporated into
the court order establishing the special district “after
all other legal procedures for the organization of the
proposed special district have been complied with.”
§ 32-1-205(2), C.R.S.2013.
¶ 19 The legal procedures required to obtain court
approval, insofar as pertinent to this case, are set forth
in sections 32-1-301, -304 and -305, C.R.S.2013.
¶ 20 Section 32-1-301 requires that the persons proposing to organize the special district file a petition for
organization with the district court vested with jurisdiction for the county in which the special district is
located. The petition must be signed by “not less than
thirty percent or two hundred of the taxpaying electors
of the proposed special district, whichever number is
the smaller.” § 32-1-301(1).
¶ 21 The definitional section of the statute provides
that a taxpaying elector means an “eligible elector”
who, or whose spouse, “owns taxable real or personal

App. 93
property within the special district or the area to be
included in . . . the special district, whether the person
resides within the special district or not.” § 32-1103(23)(a), C.R.S.2013. Taxable property means real
property subject to general ad valorem taxes. § 32-1103(22), C.R.S.2013. The statutory definition also provides that “[a] person who is obligated to pay taxes
under a contract to purchase taxable property within
the special district shall be considered an owner within
the meaning of this subsection.” § 32-1-103(23)(b),
C.R.S.2013.2
¶ 22 Section 32-1-304 provides that “immediately after” the filing of the petition for organization with the
court, it shall set a hearing on a date not less than
twenty nor more than forty days after the filing. The
clerk of the court shall cause notice by publication to
be made of the pendency of the petition, the purposes
and boundaries of the special district, and the time and
place of the hearing. The notice must be mailed by the
court clerk to the board of county commissioners, and
2

The statute defines “eligible elector” as a person who at the
designated time or event is registered to vote pursuant to the Uniform Election Code; is a resident of the special district, or the area
to be included in the special district for not less than thirty days;
or who, or whose spouse, owns taxable real property situated
within the boundaries of the special district or the area to be included in the special district, whether or not the person resides
within the special district. § 32-1-103(5)(a), C.R.S.2013. The definition also provides that “[a] person who is obligated to pay taxes
under a contract to purchase taxable property situated within the
boundaries of the special district or the area to be included within
the special district shall be considered an owner within the meaning of this subsection.” § 32-1-103(5)(b), C.R.S.2013.

App. 94
to “each party entitled to notice pursuant to section 321-206(2).” Id. The parties entitled to notice under that
subsection are any “party [that] appeared and presented its objections before the board of county commissioners.” § 32-1-206(2), C.R.S.2013. The notice to be
issued by the court clerk shall include a general description of the boundaries of the proposed special district and information explaining procedures for filing a
petition for exclusion of territory from the special district. § 32-1-304.
¶ 23 Section 32-1-305 sets forth provisions pertaining to the conduct of the court hearing.
¶ 24 First, the court must ascertain, from the “evidence which may be adduced,” that the required number of taxpaying electors of the proposed district have
signed the petition. § 32-1-305(1), C.R.S.2013. If the
court determines the petition has not been signed in
conformity with the requirements, it shall dismiss the
proceedings and assess costs against the signers. “No
appeal or other remedy shall lie from an order dismissing said proceedings.” § 32-1-305(2), C.R.S.2013.
¶ 25 Second, the court may hear any petition filed
by an owner of real property seeking to have his or
her property excluded from the special district, and
determine whether, “in the best public interest,” the
property should be excluded from the special district.
§ 32-1-305(3), C.R.S.2013.
¶ 26 Third, if it appears upon hearing that the petition has been signed and presented in conformity with
the statute, and that the allegations of the petition are

App. 95
true, the court shall direct that the question of the organization of the district be submitted at an election to
be held for that purpose in accordance with the provisions of the Uniform Election Code. § 32-1-305(4),
C.R.S.2013. At such election, the voter shall vote for or
against the organization of the special district and for
five electors who shall constitute the board of the district, if organized. § 32-1-305(5), C.R.S.2013.
¶ 27 If a majority of the votes at the election are in
favor of the organization, and the court determines the
election was held in accordance with the provisions of
the Uniform Election Code, the court “shall declare the
special district organized and give the special district
the corporate name designated in the petition.” § 32-1305(6). Thereupon, the special district shall be a quasimunicipal corporation and a political subdivision of the
state of Colorado with all the powers thereof. Id.
¶ 28 Furthermore, section 32-1-305(7), C.R.S.2013,
as it existed in 2012,3 provided as follows:
If an order is entered declaring the special district organized, such order shall be deemed final, and no appeal or other remedy shall lie
therefrom. The entry of such order shall finally and conclusively establish the regular
organization of the special district against all
persons except the state of Colorado in an action of the nature of quo warranto commenced
3

The former version of the subsection limited the time for
suit to thirty days after entry of the order. See Ch. 283, sec. 9,
§ 32-1-305(7), 2007 Colo. Sess. Laws 1190. This statutory amendment is not pertinent to this case.

App. 96
by the attorney general within thirty-five
days after entry of such order declaring such
special district organized and not otherwise.
The organization of said special district shall
not be directly or collaterally questioned in
any suit, action, or proceeding except as expressly authorized in this subsection (7).
III.

Landmark’s Claims

¶ 29 Landmark’s claims that the District was formed
with a lack of due process, pursuant to a fraud on the
court, or through a court order that was void or voidable, essentially arising from asserted noncompliance
with the provisions of the statute, or alleged misrepresentations by the organizers that they complied with
the statute. The asserted noncompliance relates to an
alleged failure by the organizers to: (1) provide notices
as required by the statute; (2) have a sufficient number
of taxpaying electors sign the organizational petition;
and (3) have a proper election. The alleged misrepresentations relate to the organizers’ statement to the
city council and the court that the statutory provisions
had been complied with and notice had been given to
the putative condominium owners.
¶ 30 Landmark contends that, regardless of section
32-1-305(7), the district court (1) has inherent power
to vacate a void judgment notwithstanding a statutory
time bar; (2) has jurisdiction to set aside a previously
entered order based on fraud on the court; (3) has a
duty to provide constitutional due process, providing
jurisdiction to set aside an order that is void for lack of

App. 97
notice and an opportunity to be heard. We disagree
with these contentions. We also disagree that the court
erred in awarding costs.
IV.

Standard of Review

¶ 31 The proper interpretation of a statute is a question of law that we review de novo. See Kisselman v.
Am. Family Mut. Ins. Co., 292 P.3d 964, 969 (Colo.App.2011).
Our primary goal in statutory interpretation is to determine and give effect to the intent of the legislature.
Id. We look first to the plain and ordinary meaning of
the statutory language. Id. If the language of the statute is plain and its meaning is clear, it must be applied
as written, and we need not resort to any other aids of
statutory interpretation. In re Estate of Holmes, 821
P.2d 300, 303 (Colo.App.1991).
¶ 32 The determination of issues under Landmark’s
C.R.C.P. 60(b) motion rests in the sound discretion of
the trial court. Sterling Radiator Co. v. Siegelman, 32
Colo.App. 115, 513 P.2d 1067, 1068 (1973). Where there
is evidence supporting the trial court’s final determination, and where no abuse of discretion appears, we
will not disturb the determination. Id.
V
A.

Analysis

Motion to Set Aside Order

¶ 33 We agree with the district court that it was
statutorily barred from setting aside the order by section 32-1-305(7). Even if we were to conclude that

App. 98
Landmark’s factual contentions could be resolved in its
favor, section 32-1-305(7) controls and is dispositive.
¶ 34 The statute in question is specific in providing
for review of the action by the district court only in a
very narrow and time-constrained procedure which did
not occur here. First, section 32-1-305(7) declares that
once an order establishing a special district is entered,
it “shall be deemed final, and no appeal or other remedy shall lie therefrom.” Second, it further provides
that the entry of such an order “shall finally and conclusively establish the regular organization of the
special district against all persons except the state of
Colorado in an action in the nature of quo warranto
commenced by the attorney general within thirty days
after entry of such order declaring such special district
organized and not otherwise.” And third, it mandates
that the organization of the district “shall not be directly or collaterally questioned in any suit, action, or
proceeding except as expressly authorized in this subsection (7).” The plain language of the three portions of
subsection (7) all preclude the review Landmark seeks.
¶ 35 In applying a previous version of this statute in
Burns v. Dist. Court, 144 Colo. 259, 268, 356 P.2d 245,
251 (1960), our supreme court dismissed a petition
seeking to declare “null and void” the judicial proceedings that established the South Suburban Recreational Park District.4 In rejecting the challenge to the
4

The statute at issue in Burns, Ch. 199, sec. 7, § 89-12-7(7),
1955 Colo. Sess. Laws 565, used language virtually identical to
that in section 32-1-305(7).

App. 99
district, the court held it is “settled doctrine that the
validity of a de facto municipal or quasi-municipal corporation may not be questioned in an independent action by private citizens.” Id. (citing Enos v. Dist. Court,
124 Colo. 335, 348-49, 238 P.2d 861, 868-69 (1951)). Rather, the court held, “under this statute quo warranto
is available only to the people on relation of the Attorney General.” Id. at 266, 356 P.2d at 250. The court further held that the General Assembly may validly limit
the time period within which the constitutionally guaranteed remedy is available, and concluded that the
time restriction contained in the statute was not so unreasonably short as to destroy the substance of the
remedy. Id.
¶ 36 The opinion expressed reasons why the legislature created such an expedited process. First, the court
noted, “[c]learly, the General Assembly was endeavoring to expedite the procedure contemplated by the entire act, and to that end the limitation relative to
judicial review was made a feature of the law.” Id. at
267, 356 P.2d at 250. Next, interpreting an earlier statutory version, the court emphasized “the purpose of the
General Assembly to work expedition in the determination of questions arising out of the administration of
the act.” Id. Further, the court determined that the
thirty-day limitation was not unreasonably short “in
view of the need for accelerating contract negotiations
and the taking of other action looking to accomplish[ ]
the purposes of the district, free of the fear of subsequent attack of the district’s legal existence.” Id. at 268,
356 P.2d at 250.

App. 100
¶ 37 As a matter of law, special statutory provisions
control over general procedural rules and statutes of
general application. Air Pollution Control Comm’n v.
Dist. Court, 193 Colo. 146, 150, 563 P.2d 351, 354
(1977). See Lloyd A. Fry Roofing Co. v. State Dep’t. of
Health Air Pollution Variance Bd., 191 Colo. 463, 473,
553 P.2d 800, 808 (1976) (any inconsistency between
special statute and rule of civil procedure is resolved
in favor of the statutory section); Brown v. Hansen, 177
Colo. 39, 41, 493 P.2d 1086, 1087 (1972) (rules of civil
procedure do not apply where special statutory proceeding sets forth remedies); City of Westminster v.
Dist. Court, 167 Colo. 263, 266, 447 P.2d 537, 539 (1968)
(“The statutory language makes it clear that no discretion is afforded the annexing municipality. The statute
is mandatory and therefore, absent a finding of inapplicability or unconstitutionality, the district court
lacked jurisdiction to order the City of Westminster to
disobey the clear mandate of the statute.”). Thus, section 32-1-305(7), a more specific statute addressing
challenges to the formation of special districts, controls
over the general procedural rules upon which Landmark relies.
¶ 38 Landmark contends that courts of this state
have an inherent power to set aside a judgment procured through fraud, or through a deprivation of due
process. We do not disagree with this proposition as a
general matter. But, where the authority of the court
to enter an order in the first place emanates solely
from a statutory grant from the legislature, as is the
case with the organization of a special district, and

App. 101
that statutory grant contains a limitation on the power
of the court to review the order once it is entered, we
must defer to the legislative determination to place a
limit on the review of such an order.
¶ 39 The limitation on the power to challenge special
districts, which are quasi-municipal corporations, was
explained in Burns as follows:
Municipal corporations of the character here
involved are created only upon the authority
of the state by legislative enactment, and are,
if created thereunder, solely for public and not
private purposes, and become an arm of the
state. The right to exist as such a corporation
is derived solely from the state and any action
aimed to attack its legal existence after it becomes at least a de facto corporation must be
confined to the state through its official representative . . .
144 Colo. at 268, 356 P.2d at 251 (quoting Enos, 124
Colo. at 347, 238 P.2d at 868).
¶ 40 Finally, we note that in the district court Landmark did not challenge the facial constitutionality of
the provisions of section 32-1-305(7), and does not do
so before us. We therefore conclude that the reasoning
in Burns applies equally to this case and therefore we
follow its mandate.
¶ 41 Because the jurisdictional issue is dispositive,
we need not reach Landmark’s contentions that the
court’s order was void ab initio or that fraud tainted
the order approving the District, rendering it void. Nor

App. 102
need we address the trial court’s dicta regarding what
the evidence might show in regard to such contentions.
Based on this ruling, we need not decide if Landmark’s
motion was timely under C.R.C.P. 60(b).
¶ 42 To the extent that Landmark argues the application of the statute in these circumstances constitutes
a deprivation of its right to due process, we disagree.
Although a different division of this court concluded
that a limitations period applicable to a relinquishment proceeding may not apply where the adoption
judgment is void arising from improper notice, we find
the facts in the instant case distinguishable. See In re
C.L.S., 252 P.3d 556, 560 (Colo.App.2011).
¶ 43 First, as noted above, the statute that bars
Landmark’s challenge is not merely a statute of limitations providing for a limited time period within
which to mount a challenge, but rather a jurisdictional
bar to an attack on the formation of the district.
¶ 44 Second, the statutory notice provisions at issue
in C.L.S. were evaded, whereas in this case we conclude the statute’s notice requirements were met. The
relinquishment statute allowed notice by publication
only if the putative father had not been identified.
§§ 19-5-103.5(2)(b); 19-5-103.7(3)(a)(1), C.R.S.2013. The
mother, however, contrary to the statutory requirement, intentionally misrepresented that she did not
know the father’s identity and whereabouts to avoid
notifying him of the relinquishment proceeding, and
fraudulently omitted the father’s name from the court
documents, depriving him of actual notice. 252 P.3d at

App. 103
559. The division held that because the notice requirements had not been met, the judgment was void and
the limitations period did not apply.
¶ 45 By contrast, we conclude that the statutory notice requirements contained in the special district statute were met in this case, and there was no denial of
due process caused by a failure to comply with the notice requirements.

B.

Notice Requirements

¶ 46 Notice of the public hearing on the proposed
service plan before the county commissioners, or presumably before the municipality, may be made by
publication by the governing authority, and such publication shall constitute “constructive notice.” § 32-1204(1). There is no dispute that Greenwood Village
provided such notice by publication in this case.
¶ 47 Letter notification of the hearing must be made
to property owners within the proposed special district
listed on the public records of the county assessor on
the date requested. § 32-1-204(1.5). However, there is
no dispute that there were no property owners within
the proposed special district at the time the service
plan was submitted to Greenwood Village.
¶ 48 Notice of the court hearing on the petition to approve the proposed special district must be published
by the clerk of the court. § 32-1-304. There is no dispute that the Arapahoe County District Court Clerk

App. 104
published the scheduled hearing on the proposed special district.
¶ 49 Thus, because the statutory provisions regarding notice were met, we find no violation of Landmark’s
right to due process arising from lack of notice.
C.

Costs

¶ 50 Landmark contends that the court erred by
awarding costs to appellees under C.R.C.P. 54(d), because the rules of civil procedure do not apply to special statutory proceedings, such as those pursuant to
Title 32, where such proceedings are inconsistent or in
conflict with the applicable statute. Landmark relies
on C.R.C.P. 81(a) (“These rules do not govern procedure
and practice in any special statutory proceeding insofar as they are inconsistent or in conflict with the
procedure and practice provided by the applicable statute.”). Landmark also contends that C.R.C.P. 54(d)
does not apply where a statute makes express provision for costs: “Except when express provision therefor
is made either in a statute of this state or in these
rules, costs shall be allowed as of course to the prevailing party unless the court otherwise directs.” We are
not persuaded.
¶ 51 Such prevailing party costs are awardable under C.R.C.P. 54(d) unless there is a statute or rule that
specifically prohibits an award of costs. C.R.C.P. 54(d)
(“Except when express provision therefor is made either in a statute of this state or in these rules, costs
shall be allowed as of course to the prevailing party

App. 105
unless the court otherwise directs. . . .”). “In construing
C.R.C.P. 54(d), the supreme court has held that unless
there is a statute or rule that specifically prohibits an
award of costs, trial courts may exercise their discretion to award any reasonable costs to a prevailing
party.” Mackall v. Jalisco Int’l, Inc., 28 P.3d 975, 977
(Colo.App.2001) (citing Rossmiller v. Romero, 625 P.2d
1029, 1030 (Colo.1981)).
¶ 52 “A prevailing defendant may recover the reasonable and necessary costs it incurred in defending litigation.” Valentine v. Mountain States Mut. Cas. Co., 252
P.3d 1182, 1186-87 (Colo.App.2011). See § 13-16-105,
C.R.S.2013. “Absent a prohibition in a statute or rule,
the district court has considerable discretion in determining whether to award costs and what amount to
award.” Valentine, 252 P.3d at 1187. “We will reverse a
district court’s award of costs only upon a showing that
it clearly abused its discretion by acting in a manner
that was manifestly arbitrary, unreasonable, or unfair.”
Id. Accord Archer v. Farmer Bros. Co., 90 P.3d 228, 230
(Colo.2004).
¶ 53 Landmark points to no statute or rule which
specifically prohibits an award of costs, and we likewise find none. In fact, Landmark concedes that “the
legislature did not provide for taxation of any costs
against a property owner or other party who sought to
invoke [its] rights under Title 32.” Thus, the trial court
properly exercised its discretion by awarding reasonable costs to the prevailing party. Mackall, 28 P.3d at
977.

App. 106
¶ 54 Landmark next contends that the cost award in
favor of the District and Bondshares was in error because the costs were incurred by Bondshares, not the
District. The court allowed Bondshares to intervene on
March 14, 2012, and Bondshares became a party at
that time. Because Bondshares and the District share
many of the same interests in the outcome of the litigation, both parties could properly be considered prevailing parties. We discern no abuse of discretion.
¶ 55 Landmark finally contends that the court abused
its discretion by awarding costs to the District because
of “the merit of Landmark’s contribution, the novelty
of the issues, the necessity of the intervention, and the
public interest.” On the record before us, we are unable
to conclude that the court “clearly abused its discretion
by acting in a manner that was manifestly arbitrary,
unreasonable, or unfair.” Valentine, 252 P.3d at 1187.
VI.

Conclusion

¶ 56 The order denying Landmark’s motion to set
aside the December 2007 order is affirmed. The order
awarding costs to the District and Bondshares is also
affirmed.
JUDGE CASEBOLT and JUDGE VOGT* concur.

* Sitting by assignment of the Chief Justice under provisions
of Colo. Const. art. VI, § 5(3), and § 24-51-1105, C.R.S. 2013.

App. 107
DISTRICT COURT,
ARAPAHOE COUNTY,
COLORADO
7325 South Potomac Street
Centennial, Colorado 80112
303-649-6253
Petitioner: LANDMARK
TOWERS ASSOCIATION,
INC., a Colorado nonprofit
corporation, by Miller
Frishman Group, LLC as
Receiver for 7677 East
Berry Avenue Associates,
LP, its Declarant;

↑COURT USE ONLY↑
Case Number:
11CV1076
Division: 308

v.
Respondent(s): UMB
BANK, N.A.; CEDE & CO,
as nominee for THE
DEPOSITORY TRUST
COMPANY; COLORADO
BONDSHARES A TAX
EXEMPT FUND, and
MARIN METROPOLITAN
DISTRICT, a Colorado
special district.
ORDER
(Filed Sep. 6, 2013)
Statement of the Case
This action is brought by the Landmark Towers
Association (“Landmark”) a homeowners association

App. 108
incorporated pursuant to the Colorado Common Interest Ownership Act, C.R.S. 38-33.3-101 et seq.
(“CCIOA”). Respondent Marin Metropolitan District
(“Marin”) is a Colorado special district organized pursuant to C.R.S. 32-1-101 et seq. Respondent Colorado
Bondshares is an institutional investor which purchased general obligation bonds issued by Marin. Respondent UMB Bank, N.A. (“UMB”) acted as a
disbursing trustee with reference to the bonds issued
by Marin and purchased by Colorado Bondshares.
Landmark owns property within the Marin Metropolitan District and is subject to ad valorem property
taxes imposed by the district. This action seeks to enforce the provisions of Colorado Constitution, Article X,
Section 20, the Taxpayer’s Bill of Rights (“Tabor”) as
well as other Colorado statutes and rules relating to
special districts. The action is brought by Landmark
pursuant to its authority under CCIOA to sue for itself
and on behalf of its members who are the owners of
condominium units in the Landmark and Meridian
towers. The petitioner challenges taxes imposed by
Marin as a special district contending that voter approval as required by Tabor did not occur, that the
Marin special district did not provide any public benefit to Landmark, that the interest on general obligation
bonds issued by Marin exceeded the maximum allowed
by law, that taxes were illegally collected in violation
of mill levy limits and that funds derived from the
taxes imposed and collected by Marin were illegally
misused. Landmark seeks a declaratory judgment nullifying its obligation to pay taxes imposed by Marin

App. 109
declaring the misuse of tax funds illegal, declaring
taxes were illegally collected, and declaring the net effective interest rate on the general obligation bonds illegally excessive, together with injunctive relief to
remedy these conditions. The respondents all oppose
all claims asserted by petitioner.
This action was tried to the court without a jury
the week of July 29, 2013. The court now makes findings of fact and conclusions of law as stated herein. All
findings of fact have been proved by a preponderance
of the evidence unless otherwise specifically stated.
BACKGROUND FACTS
The Landmark Project
The Landmark project was developed by the 7677
East Berry Avenue Associates L.P. (“7677”). Mr.
Zachery Davidson was the managing partner of 7677.
Landmark is located within the City of Greenwood Village in Arapahoe County, Colorado. It consists of two
high rise residential condominium towers, those being
the Landmark Tower and the Meridian Tower. The two
towers contain approximately 271 residential units.
While building the towers the developer also developed
commercial facilities in and adjoining the residential
towers for shops, restaurants, theaters and similar
commercial business. At the time the Landmark project was commenced, it was a self-contained development standing separate and apart from any other
development or construction project.

App. 110
During development 7677 did not create a special
district to finance infrastructure for the project. It did,
however, enter into a Development Improvement
Agreement (“DIA”) with Greenwood village dated November 22, 2005. The DIA set forth the developer’s obligations to construct public improvements including
all streets associated with the project, water and sanitary sewer improvements, drainage improvements,
street lighting, landscaping and street furniture. The
DIA also provided for the developer to construct a public parking garage which would service both the residential and commercial uses on the project. Under the
DIA the developer was required to furnish Greenwood
Village with an irrevocable letter of credit which the
city could use to finish construction of the public improvements should the developer fail to do so.
The developer of Landmark, 7677, also entered
into a Sales Tax Rebate Agreement (“STRA”) with
Greenwood Village which provided for a payment to
7677 of sales tax revenues generated by the business
activities in the commercial facilities built as part of
the project. In general terms, the STRA provided that
7677 would receive a rebate of 50% of city sales taxes
collected by the commercial activities conducted on the
project for a period of twenty years following the issuance of a certificate of occupancy for the first commercial facility. The developer would be allowed to recover
the cost of the eligible improvements up to a maximum
of $16,983,720. The STRA also waived collection of
sales and use taxes on building and construction materials and waived building permit fees. Obviously, the

App. 111
STRA was an important component of the developer’s
financing of the Landmark project. 7677 used its rights
under the STRA as collateral to borrow funds to construct the Landmark project.
Beginning in late 2005, the developer, 7677,
started sales of units in the Landmark Tower. By the
end of 2006 approximately 130 units were under contracts to purchase. The contracts anticipated delivery
of units beginning in 2007, but did not have definite
closing dates. Purchasers were told that the Landmark
Tower was expected to be completed in 2007 and the
Meridian Tower by 2008. The contracts did require
substantial non-refundable deposits and required the
purchasers to close on the contracts when the units
were completed. The contracts contained a very specific warning about special districts which might be
created and impose ad valorem property taxes. However, no special districts were named or otherwise identified in the purchase contracts. Purchasers were told
by the developer’s sales personnel that real property
tax rates would not exceed one percent. The contracts
provided that upon closing and transfer of title the purchasers would be required to pay prorated taxes for the
year of closing and all years thereafter.
The European Village Project
And Creation of Marin Metropolitan District
In 2006, Mr. Davidson was also the managing
partner in Everest Marin, L.P. (“Everest”). That entity
acquired a parcel of land of approximately 11.1 acres

App. 112
which was known as the Marin site. Davidson, through
Everest, intended to develop the site by building a residential community to be known as the European Village. It was contemplated that the village would
contain a number of high end residential units referred
to as manor homes and brownstones. No commercial
property was to be included in the project. The site did
require the development and construction of public infrastructure including streets, sidewalks, curb and gutter, water lines, sanitation lines and landscaping.
During 2007, Everest, acting primarily by Davidson, was exploring ideas on how to finance the infrastructure of the Marin project. The decision was
made to create a special district for that purpose pursuant to the provisions of C.R.S. 32-1-101 et.seq. As
work progressed on developing the special district, to
be known as the Marin Metropolitan District, the developer determined that the village property would not
be a sufficient tax base to fully support the general obligation bonds which Mr. Davidson desired be issued
by Marin. Under these circumstances, Mr. Davidson,
acting for both Everest and 7677, decided to include
the Landmark and Meridian towers in the proposed
special district. This was done even though the Landmark project was entirely independent from the village
project and though the Landmark project already had
complete provisions for and financing for the construction of its own infrastructure as stated in the Development Improvement Agreement and the STRA with the
City of Greenwood Village.

App. 113
As required by C.R.S. 32-1-101, et.seq., Everest
submitted its proposed Service Plan to the City of
Greenwood Village. No notice of the application was
provided to the persons who had entered into purchase
agreements for units in Landmark. The proposal was
to be considered at an August 20, 2007 meeting of the
city council. Prior to this meeting the Greenwood Village staff issued its report which was critical of the proposed Service Plan and particularly with the inclusion
of Landmark in the special district. The proposal was
not accepted by the City Council on August 20 but rather was tabled until August 27. At the August 27,
2007 meeting representatives of Everest and the proposed Marin special district, including Zack Davidson,
Rike Palese and their attorney Paul Cockrel, represented that Landmark would be benefited by enhanced
infrastructure and that the district was necessary as
an alleged “transportation oriented development.”
They falsely represented that the purchasers of Landmark units had been given notice of the creation of
Marin and the higher tax burdens. They also misrepresented that the purchasers were in favor of the proposed district. Following these representations, the
City of Greenwood Village approved the Service Plan.
The Service Plan specifically included a provision that
the purchasers of Landmark units would be given notice of the creation of Marin prior to conveyance of title.
Important features of the Service Plan as approved by Greenwood Village and as stated in its financial plan were that Marin could issue general
obligation bonds in an amount not to exceed

App. 114
$35,500,000 at an interest rate not to exceed 12%
which would be paid fully over a thirty year period. An
amortization schedule was attached to the service plan
showing a proposed payment plan consistent with this
requirement. The Service Plan also included several
pages of anticipated costs of the infrastructure to be
constructed. However, nothing in those schedules identified anything specific to the Landmark area of the
district. Maps showing where the infrastructure would
be created including the streets and residential areas
were also attached. Again, these maps did not identify
any area within Landmark which would receive any
benefit. In fact, the areas where improvements were to
be constructed were separated by existing streets from
Landmark. A Supplement to the Service Plan specifically provided that the Marin district shall not finance,
acquire or construct any infrastructure improvements
listed in the Sales Tax Rebate Agreement or Development Improvement Agreement relating to the Landmark.
Following approval of the Service Plan by Greenwood Village, the organizers of the special district filed
a petition for organization with the Arapahoe County
District Court pursuant to C.R.S. 32-1-301. The petition was filed by Zachary Davidson and five of his associates to create the district. No notice of this petition
was provided to the purchasers of Landmark units.
Pursuant to the court’s order, an organizational election was held for the Marin Municipal District on November 6, 2007. The election also included a proposal

App. 115
to issue general obligation bonds as allowed by the Service Plan approved by Greenwood Village.
Because all of the lands included in the proposed
special district were owned by Everest and 7677 entities, not individuals, and no individuals were residing
on any of the proposed district lands, no eligible electors existed within the definition stated by C.R.S. 321-103(5)(a). To conduct the election eligible electors
were qualified by using contracts for purchase which
included an obligation to pay taxes on lands within the
proposed district. By executing such a contract, Mr.
Davidson and five of his associates became eligible
electors as defined by C.R.S. 32-1-103(5)(b). These six
persons were the only ones who received notice of the
elections and voted therein. All ballot questions were
approved on a vote of 6 to 0. The election results were
certified by Mr. Davidson to the district court. The
court then issued its order on December 7, 2007 in the
form of a Decree creating the Marin Municipal District, approving the election of a board of directors, approving ballot issues as required by Article X, Section
20 of the Colorado Constitution (“Tabor”) and approving other issues. By this order Marin formally came
into existence.
Creation of the General Obligation Bonds
And Project Funding
Following creation of the special district, Marin
began the process of issuing general obligation bonds
as allowed by the service plan’s financial plan. Marin

App. 116
hired the firm of Piper Jaffray to assist it in issuing the
bonds. During this process the respondent, Colorado
Bondshares was identified as a possible purchaser of
the bonds. In fact, Colorado Bondshares was an interested purchaser and it started negotiating with Piper
Jaffray and Marin regarding the terms of the bonds
and began its own due diligence efforts in anticipation
of the bond issue. On or about June 11, 2008 Marin entered into a Trust Indenture and sold $30,485,000 in
general obligation bonds. The bonds were purchased by
Colorado Bondshares who paid the full $30,485,000
purchase price to Piper Jaffray. Colorado Bondshares
remains the beneficial owner of the bonds to this date.
The bonds provided for an interest rate of 7.75%. Rather than a 30 year amortized payment plan which
would have paid off the bonds as indicated in the service plan, the bonds have a 20 year maturity date at
which time, if all else has been paid according to the
terms of the bonds, will require a balloon payment of
$23,801,975.1 The monies received by Piper Jaffray, after deducting costs for issuance of the bonds of
$812,252.45, were then paid over to the respondent
UMB Bank, N.A. for the benefit of Marin.
Initially, Marin did not have access to the full
amount of the bond proceeds. According to the provisions of the bond agreement a capitalized interest account was created in the amount of $5,624,247.55. This
1

The amount of the balloon payment which will actually be
required was not shown at trial. It will be reduced by reason of
the return to Colorado Bondshares of $13,000,000 as previously
allowed by this court.

App. 117
was done because Marin would not have income from
ad valorem property taxes during the initial years and
funds would be necessary to pay the interest owed on
the bonds. Also, according to the bond agreement,
$3,048,500 was placed into a reserve fund to cover future debt service which might be required during
Marin’s completion of the project. The remaining
$21,000,000 was placed into a “facility fund” from
which Marin would be allowed to make draws to pay
for work done under the service plan in developing
and constructing the public improvements. Of this
$21,000,000 only $8,000,000 was initially released for
Marin’s draws. The remaining $13,000,000 was to be
released after Marin successfully met identified milestones of the project. Even though access to the proceeds was restricted by the above limitations, the full
amount of the bonds was committed to Marin’s benefit.
The Alleged Misuse of Funds
According to the bond provisions and trust indenture, Marin was authorized to draw funds held by
UMB as trustee by submitting requests for payment.
The requests for payment were in the form of a letter
to UMB, each of which identified Everest Marin, L.P.
as payee and designated the amount of the payment
request. Attached to the payment requests were exhibits which identified the work items on the Marin project, the name of the person or entity which had done
the work, the amount charged for the work and an allocation of that charge to the public infrastructure side
of the Marin project. This allocation distinguished

App. 118
between public infrastructure work, which would
properly be funded using general obligation bond proceeds, and private work which was outside the scope of
the bond funding. Payment requests were made on
July 14, 2008 for $5,234,091.70; on August 22, 2008 for
$567,853.67; on September 11, 2008 for $649180.30 [sic];
on October 20, 2008 for $1,013,866.15; on November
18, 2008 for $309,667.57; and on December 10, 2008 for
$225,340.61. The payment requests were all paid in
full to Everest Marin by UMB. These payments exhausted the $8,000,000 initially available for withdrawal by Marin under the bond agreement and trust
indenture.
Under the trust indenture, UMB was not required
to and did not do any verification of the accuracy of
the payment requests. UMB did not verify that the
described work had actually been accomplished nor
did it verify the accuracy of the allocation between
public and private improvements. UMB simply accepted the signature of the Marin Metropolitan District by Zachary Davidson that the payment requests
were proper. Of course, Mr. Davidson, being the managing principle of both Marin and Everest, had unsupervised access to the funds. This process led to
enormous misuse of the bond proceeds.
Because the general obligation bonds were to be
repaid using tax revenues, any illegal misuse of funds
would violate Tabor. The question of how much of the
funds were misappropriated is a very difficult issue
presented to this court.

App. 119
Petitioner has made a compelling showing that
some $4,957,069.00 was misappropriated by Everest
through Mr. Davidson’s actions. (See trial Exhibit 112-substituted). This exhibit shows items which were included in the payment request made during 2008 and
paid by UMB which facially appear to be unrelated to
public expenditures under the service plan.
Respondent, on the other hand, shows a much
smaller number. By the time Marin had completed and
published its audited financial statements for the year
2009, the number was shown to be $384,611.00. The
financial statements show this listed as a “developer
receivable” in the assets of Marin (See trial Exhibit 16
and note 6 thereto).
Marin’s accounting was originally handled by
LeAnn M. Jones, a Texas CPA, hired by Mr. Davidson.
The same accountant handled the accounting for both
Marin and Everest. However, in late 2008, the Marin
Board of Directors hired John Simmons, C.P.A., as
Marin’s accountant. This was done after all of the requisition requests described above had been accomplished. Mr. Simmons rather quickly recognized that
funds drawn by Marin from UMB had been misused.
The problems primarily related to the fact that allocations on the payment requests had incorrectly been
made to public improvements which were not in fact
public improvements and that many of the vendors
whom Marin should have paid had not been paid. In
either situation Everest Marin would have improperly
been in possession of funds derived from the general
obligation bonds.

App. 120
In the summer of 2009, Marin hired Mr. Guy Ford
of the firm of Independent District Engineering Services to assist in determining what work had actually
been done on the European Village project and how it
should have been properly allocated between private
and public improvements. Mr. Ford made an extensive
study of the project and the payment requisitions to
determine if he could reconcile the discrepancies. During his study he did not make an attempt to ascertain
what work, if any, had benefitted the Landmark portion of the project. In his study, Mr. Ford did not concern himself with whether the vendor of services had
actually been paid, but did acknowledge that he was
aware many had not been paid.
Mr. Ford made a report to the Marin District on
October 5, 2009. As stated in the report, its accuracy
was highly qualified by reason of the fact that Mr. Ford
had not received requested information from the district and that other information provided by the district was vague or non-responsive to his requests. His
report concluded that substantially less than four million dollars of the eight million dollars which had been
drawn by Marin could be described as properly
charged to public improvements. Again, Mr. Ford’s report did not take into account whether the vendor/
contractor had actually been paid by Everest Marin.
The amounts determined by Mr. Ford, however, were
later adjusted by agreements between Marin and Everest. These agreements included the identification of
additional costs incurred by the developer, Everest,
which had not been previously submitted to UMB for

App. 121
payment. Because Everest had done work on the public
portion of the project for which it had not submitted
payment requests to UMB, the amount of misused
funds determined by Mr. Ford needed to be adjusted
downward. (See Note 6 to the audited financial statements for 2009, Exhibit 16). Through this process
Marin finally settled on the amount of $384,611 as the
amount of funds improperly paid to Everest from general obligation bond proceeds.
Certainly there are reasons to question the accuracy of the amount shown in Marin’s financial statements. This concern is based on several factors. First,
Mr. Simmons was hired after the fact of the 2008 payment requests and was trying to reconstruct the financial circumstances after the fact. He admitted on trial
that he had a great deal of difficulty obtaining valid
information from the prior accountants and from the
entities involved. He did not himself have the information necessary to determine if the public/private
allocations were proper. Next, Mr. Ford also was trying to restructure the necessary information and also
did not receive the information he requested from either Everest or Marin. (See qualifications stated in
Exhibit 96). Next, Marin in dealing with this problem
was making every possible effort to lower the amount
of the developer receivable because of the risk of losing the tax exempt status of the general obligation
bonds which could occur if bond proceeds had been
misused. Such a determination would have had a devastating effect on Marin. Next, there continued to be

App. 122
overlapping management of Marin and Everest and
obvious conflicts of interest.
Obviously, the petitioner has the burden of proof
with regard to showing that a misuse of tax revenues
occurred. The problem with petitioner’s reliance on Exhibit 112 is that it does not consider adjustments necessary by reason of Everest having done work on the
public portion of the project not covered by the six payment requests shown above. For the court to pick an
amount between what is claimed by petitioner and
what is admitted by Marin would result in speculation
by the court. The court may not resort to such speculation and must make a finding on an amount proved
with reasonable certainty by a preponderance of the
evidence. In determining the issue of what has been
proved by a preponderance of the evidence regarding
the amount of funds misappropriated from the bond
proceeds, the court finds the audited financial statements showing the amount of $384,611 to be an
amount which certainly was misappropriated. While
the court strongly suspects that it was a much greater
amount, the court would be speculating to select any
higher amount. The effect of this misuse will be discussed later.
The Closing of Purchase Contracts
During the trial, the court received evidence regarding six closings of contracts for Landmark units.
Obviously this is a very small sample of the total

App. 123
closings. However, certain factual circumstances were
uniformly involved in each of the closings.
In each instance described on trial the purchaser
had not been provided the prior written notice of the
Marin Special District as specifically required by Section XI of the Service Plan approved by the City of
Greenwood Village. Further, there was no showing that
any purchaser had received any verbal notice from any
representative of the developer.
Closings on the purchase contracts began in July
2008 and continued progressively as units were ready
for occupancy. Each purchaser was required to pay prorated real property taxes for the current year effective
from the date of closing to the end of the year. The developer, 7677 East Berry Avenue Associates, remained
obligated for all taxes for the year prior to the closing
date. As such, prior to closing and receiving title, no
purchaser was obligated to pay real property taxes relating to Landmark. Those purchasers closing in 2008
were not required to pay prorated taxes by reason of
the Marin Special District as none had been assessed
or become payable by that time. The court did not receive any evidence relating to closings occurring in
2009 or later.
At closing, each purchaser received title by way of
a Special Warranty Deed. Each of the deeds delivered
to purchasers at closing contained a paragraph with
the heading “PERMITTED ENCUMBRANCES” which
generically described a list of conditions which were
exceptions to fee simple title. In this list of exceptions

App. 124
is the term, “inclusion of the property in a special improvement district.” The permitted encumbrances paragraph also excluded from fee simple title all other
matters listed on an attached exhibit. The exhibit attached to each deed listed approximately twenty-five
various encumbrances on title including, “any tax, lien,
fee or assessment by reason of inclusion of the property
in the Marin Metropolitan District.” Thus, the deed
provided to each purchaser at closing did make reference to Marin.
The evidence presented on trial did not show that
notice of Marin, made by reference in the deeds received by the purchasers, became an issue or was objected to at the closing. It was not until tax billing
notices were received by the Landmark owners in 2010
for the tax year 2009 that they had any actual concern
about the amount of taxes relating to Marin.
Rulings on the Issues Presented Further
Findings of Fact and Conclusions of Law
The Tabor Election Issue
The first issue presented is whether the debt incurred by Marin is invalid according to state law and
specifically Tabor due to the failure to obtain proper
voter approval. Petitioner asserts two arguments on
this issue. First, petitioner asserts that the bond election was illegally conducted because the persons
whom had entered into purchase agreements for Landmark units were not provided notice and not allowed
to vote. Second, petitioner argues that the persons who

App. 125
actually voted were not in fact eligible electors because
their qualifying contracts were merely sham agreements. With regard to this issue petitioner seeks entry
of a declaratory judgment that the debt incurred by
Marin, including $30,485,000 of general obligation
bonds is invalid and is in violation of Tabor.
Petitioner’s lawsuit in this court on the validity of
the election issues is a contest of the election. Respondents have raised various statutes of limitations as a
defense to these claims including C.R.S. 1-11-213(4).
The court agrees with this defense to petitioner’s
challenge of the election. First, the Colorado Uniform
Election Code applies to special district elections.
C.R.S. 1-1-102. The Code provides specific provisions
for contesting bond elections. C.R.S. 1-11-212.5. Section 1-11-201(3) provides that the result of any election
to determine a ballot issue may be contested on the
grounds that illegal votes were received. However, the
procedures set forth in C.R.S. 1-11-213 must be complied with to conduct such a contest in the district
court. C.R.S. 1-11-213(4) provides that the election contestor must file a written statement of intention to contest the election within ten days after the official
survey of returns has been filed. This subsection also
provides that if the written statement of intent to contest the election is filed more than ten days after the
completion of the official survey of the returns, no court
shall have jurisdiction over the contest. The official
survey of election returns in this instance was approved by the district court in Action 07CV 1793 on
December 7, 2007. No written statement of intention

App. 126
to contest the election was filed within the ten days as
required. Thus, this court has no jurisdiction to now allow a contest of the election.
Notwithstanding this court’s ruling that the contest of the bond election is time barred, and to cover
the contingency that this ruling is in error, the court
will discuss petitioner’s arguments on the merits.
The court finds that the persons who had entered
into purchase agreements for Landmark units were
not eligible to vote in the bond election held November
6, 2007. Generally, the Colorado Uniform Election
Code defines electors. C.R.S. 1-1-104(16) defines an “eligible elector” to mean a person who meets the specific
requirements for voting at a specific election for a ballot question. C.R.S. 1-1-104(49) defines the term “taxpaying elector” to have the same meaning as provided
in section C.R.S. 32-1-103(23). Under these general
definitions, the court must turn to the special districts
statutes, C.R.S. 32-1-101, et.seq., to determine which
persons were eligible to vote in the subject election.
Section 32-1-103(5) provides:
“(5)(a) “Eligible elector” means a person
who, at the designated time or event, is registered to vote pursuant to the Uniform Election Code of 1992, articles 1 to 13 of title 1,
C.R.S., and:
(I) Who has been a resident of the special district or the area to be included
in the special district for not less
than thirty days; or

App. 127
(II) Who, or whose spouse, owns taxable
real or personal property situated
within the boundaries of the special
district or the area to be included in
the special district, whether said person resides within the special district
or not.
(5)(b) A person who is obligated to pay
taxes under a contract to purchase taxable
property situated within the boundaries of the
special district or the area to be included in
the special district shall be considered an
owner within the meaning of subsection (5).
Very similarly, Section 32-1-103(23) provides:
“(23)(a) “Taxpaying elector” means an
eligible elector of a special district who, or
whose spouse, owns taxable real or personal
property situated within the boundaries of the
special district or the area to be included in
the special district, whether said person resides within the special district or not.
(23)(b) A person who is obligated to pay
taxes under a contract to purchase taxable
property within the special district shall be
considered an owner within the meaning of
this subsection (23).”
The persons who had entered into contracts to buy
Landmark units by the date of the bond election on November 6, 2007 did not meet the definition of eligible
elector or taxpaying elector stated above. They were no
more than potential future owners. They did not reside

App. 128
in the proposed special district nor own any taxable
property therein. They did not have any obligation to
pay taxes under the contract to purchase. The purchase contracts specifically provided that they would
not have any obligation for taxes until the date of closing and title was transferred. Thus, these persons were
not eligible electors as defined by law. C.R.S. 32-1-806
specifically provides that no person shall be permitted
to vote in any election unless that person is an eligible
elector as defined in section 32-1-103(5). As such, the
court concludes that the persons who had entered into
purchase agreements for Landmark units were not entitled to vote in the subject bond election.
The court next addresses the question of whether
the persons who actually voted to approve the bond
election were eligible to do so. It is undisputed that at
the time of the election there were no persons residing
within the boundaries of the proposed special district.
It is also undisputed that the real property was owned
by entities, other than real persons, which entities
would not be eligible to vote.
The evidence presented on trial showed that
Zachary Davidson and five of his associates, including
Chad Cox, entered into contracts to purchase taxable
property within the proposed special district which obligated them to pay taxes as such contracts are described in C.R.S. 32-1-103(5). They did so specifically to
make themselves eligible voters. The contracts were
dated August 31, 2007. The seller under the agreements was Everest Marin L.P. which owned the parcel
upon which the European Village project was to be

App. 129
constructed. Each purchase agreement related to an
undivided one-twentieth (1/20th) interest in a ten foot
by ten foot parcel referred to on trial as a “director’s
parcel.” The consideration for the purchase by each
buyer was five hundred dollars of which ten dollars
was payable on execution of the contract and the balance at closing. The closing period was open but to occur within eight years. The contract specifically
provided that the purchaser agreed to pay all taxes
that may be levied against the purchased interest from
the time the contract was executed. The contracts also
provided that the seller could itself pay the taxes then
collect the amount from the purchaser. (See trial Exhibit 33). According to the testimony on trial of Mr. Cox,
he did not ever pay the ten dollars earnest money and
there was a tacit agreement between Davidson and the
others contracting for the director’s parcels that they
would never actually have to personally pay the taxes.
Closing never occurred on any of the director’s parcel
contracts. As such, the five hundred dollar purchase
payment never became due.
Petitioner argues that the purchase agreements
for the directors parcels were merely sham contracts,
were not valid, and did not support a valid election for
the issuance of the general obligation bonds. To support this argument, petitioner points out that the ten
dollar earnest money was not paid to the seller and
that the obligation to pay taxes was not a reality. The
court is not persuaded by this argument.
In enacting the statutes relating to the formation
of special districts, C.R.S. 32-1-101, et.seq., the

App. 130
legislature clearly recognized that special districts
could be used to finance the construction of infrastructure on unimproved lands owned by entities, rather
than individuals. As entities such as corporations or
limited partnerships are not entitled to vote, a mechanism was required to qualify electors to vote on issues
related to the formation of special districts, the election
of a board of directors and the conduct of the initial
business of the special districts before the lands are
developed and residences established thereon. By enacting C.R.S. 32-1-103(5)(b) the legislature provided
for the very process used to create Marin by qualifying
persons as eligible electors through the mechanism of
a contract to purchase lands in the proposed district
which contains an obligation of the purchaser to pay
taxes on the property. The legislature did not include
any restrictions on how large of a parcel must be purchased nor the amount of taxes which would be covered
by the obligation to pay them. Thus, a contract to
purchase a minimal piece of real property and to pay
minimal taxes thereon would meet statutory requirements. The court finds credible and accepts the testimony of respondent’s expert witness, Russell Dykstra,
that such contracts are commonly used and that the
persons who were purchasers under those contracts in
this case were properly qualified eligible electors.
The court finds that the failure of the purchasers
to actually make the ten dollar down payment on the
purchase contracts is a deminimis matter. The same
is true with regard to any taxes the purchaser would
have been required to pay. Each purchaser was

App. 131
obligated to pay the taxes on one-twentieth of a one
hundred square foot parcel, or on the equivalent of five
square feet of undeveloped land. While the amount of
these taxes was not shown on trial, it could not possibly
be more than a very few dollars annually. If each of the
purchasers had paid the down payment and the taxes
for the portion of 2007 as required, certainly no more
than one hundred dollars would have been paid in total
for all six contracts.
Petitioner is seeking declaratory relief and an injunctive order based on the asserted election irregularities. The facts of this case do not support such an
order. As stated in McQuillan, Law of Municipal Corporations, Chapter 38, Part VII, C., Section 38:218 regarding special taxation and local assessments:
“Equitable relief is sought in a variety of
forms. It may be granted only for sound and
substantial reasons, because equity disregards slight irregularities, unimportant variances and minor departures from directory
requirements. Obviously defects or irregularities, which do not prejudice the property
owner, are not sufficient to justify a court of
equity in setting aside the assessment or restraining collection. Slight errors or immaterial variations will not warrant the issuance
of an injunction.”
Again, the court believes petitioner’s election challenge is time barred as stated above. However, if it
were not time barred, for the reasons above stated, the
court would not enter a declaratory judgment or grant

App. 132
injunctive relief because of any failure of the Tabor requirement for voter approval of the bond issue as requested by petitioner.
The Improper Use of Tax Revenue Issue
Petitioner’s next [sic] is that it is entitled to a declaratory judgment that the proceeds of the bonds issued by Marin were disbursed improperly for the
benefit of private entities, did not benefit the public,
and were used for purposes other than what was authorized by the voters. Petitioner urges the court to
rule this improper use of funds is a violation of Tabor
and the anti-donation clauses of the Colorado Constitution. The court agrees that the misuse of funds as
found earlier in this order is a violation actionable under Tabor. The court does not need to address the antidonation argument.
Article X, Section 20 (1) of the Colorado Constitution (Tabor) provides in pertinent part:
“Revenue collected, kept or spent illegally
since four full fiscal years before suit is filed
shall be refunded with 10% annual simple interest from the initial conduct. Subject to judicial review, district may use any reasonable
method for refunds under this section, including temporary tax credits or rate reductions.
Refunds need not be proportional when prior
payments are impractical to identify or return.”

App. 133
As stated earlier in this order, the court has found
that at least $384,611 in funds were misappropriated
by Marin and used for illegal purposes. This misuse of
funds falls within the scope of the Tabor provision that
revenue spent illegally shall be refunded. While the actual amount may have been much more, the court has
found only this amount has been sufficiently proved by
a preponderance of the evidence.
The court notes that respondents have argued
that the misuse of funds did not violate Tabor because
it did not occur by reason of governmental action. They
assert that Mr. Davidson was acting in his individual
capacity while dealing with the funds. This argument
simply ignores the evidence in this case. The funds in
question were disbursed by UMB Bank to Everest
Marin L.P. at the specific direction of Mr. Davidson acting as the Authorized Issuer Representative of Marin.
(See trial Exhibits 4 – 9.) As such, the misuse of the
funds was the act of Marin and is actionable under
Tabor.
Petitioner is entitled to a declaratory judgment
pursuant to Tabor that taxes collected for Marin up to
this amount must be refunded together with 10% annual simple interest. Since all of the funds were misappropriated no earlier than July 2008 and this suit
was filed June 1, 2011, the four year limitation in Tabor
is not a factor. Petitioner, for itself and the individual
owners it represents, is entitled to prorata recovery for
the portion of the $384,611.00 it paid. (The remainder
of this amount may have been paid by other taxpayers.) The court now enters a mandatory injunction

App. 134
requiring Marin to develop a refund plan as provided
by Tabor identifying how the refund and interest shall
be paid to the petitioner/taxpayers. The plan shall be
submitted to this court within sixty (60) days of the
date of this order. The court will then allow petitioner
twenty (20) days to file any objection it may have. Once
the court approves the form of the repayment plan it
shall be mandatory and binding as against Marin.
The Illegal Collection of Revenue Issue
Petitioner asserts it is entitled to relief under Tabor by reason of alleged illegal collection of revenue by
Marin. Specifically, petitioner argues that collection of
ad valorem real property taxes at a level of more than
50 mills for debt service by Marin was illegal. As shown
above, Tabor provides that taxes collected illegally are
subject to refund. It is undisputed that the taxpayers
in the Marin Metropolitan District were assessed
59.500 mills for debt service related to the general obligation bonds for the tax years 2009 through 2013.
(See trial Exhibits 98 through 102.) Both parties rely
on the provisions of the Marin Service Plan and the
provisions of C.R.S. 32-1-1101 to support their position.
Specifically, petitioner argues that the Service Plan
sets a maximum allowable levy for debt service at 50
mills and that C.R.S. 32-1-1101(6)(b) sets a statutory
cap for debt service at 50 mills. Respondent argues
that the provisions of the Service Plan, including the
50 mill limit, are mandatory only so far as practicable

App. 135
and that the mill levy limit of C.R.S. 32-1-1101(6)(b) is
negated by the provisions of C.R.S. 32-1-1101(6)(a).2
It is important to note that the bonds themselves
do not set the mill levy which will be used to pay the
debt service required by the bonds. In fact, the bonds
specifically recognize that the mill levy required for
debt service will be set by the special district board of
directors and that the district’s authority to levy ad
valorem property taxes is limited by the express terms
of the Service Plan. (See trial Exhibit 2 at pages 25 and
46.) The bond agreement also recognizes in the provisions regarding Statutory Debt Limit that special districts are permitted to issue general obligation debt
payable from a limited mill levy not exceeding fifty
mills. (See trial Exhibit 2, page 51.) Thus, the issue is
not whether the bonds themselves required the illegal
collection of taxes but rather whether Marin itself has
done so by setting the debt service mill levy in excess
of 50 mills.
The Marin Service Plan specifically provides in
sections VIII. C. and D.9. that, under the circumstances
applicable in this case, the bonds shall be issued only
as “limited tax general obligation bonds.” It is undisputed that the bonds issued by Marin are limited tax
general obligation bonds. Section VIII.D.9. of the Service Plan also provides that the district’s obligation for
repayment of general obligation bonds shall be limited
to the imposition and collection of a property tax levy
not to exceed fifty (50) mills for debt service. The
2

See Respondents’ Post-Trial Brief.

App. 136
Service Plan further provides in section VIII.D.8. that
all bonds issued by the district for which property tax
is pledged to pay debt service shall meet the requirements of all applicable State laws.
Again, petitioner contends that under the provisions of the Service Plan cited above and under the provisions of C.R.S. 32-1-1101(6)(b) any tax collected in
excess of the 50 mill level was illegally collected.
Respondents counter the petitioner’s contention
that the assessment of a mill levy in excess of 50 mills
is illegal with a multifaceted argument. First, respondent argues that the bonds are in material compliance
with the Service Plan as required by C.R.S. 32-11101(2). Next, respondents argue that Service Plan
section VIII.B. provides that alternative bond financing plans which “generally conform” with the pro forma
model of the financial plan of the service plan are permissible and that the bonds in this case do generally
conform. Further, respondent argues that section
VIII.D.9. of the Service Plan provides that the limited
debt mill levy and the maximum mill levy may be adjusted by the district’s board to take into account legislatively or constitutionally imposed adjustments in
the assessed valuation of the property of the district.
Also, respondent argues that under the Gallagher
Amendment, Colorado Constitution Article X, section
3(1)(b), that even if the debt was subject to a fifty mill
levy cap the General Assembly sets a ratio of assessed
valuation for residential property which can result in
an assessed mill levy being higher than the cap set
forth in the applicable Service Plan. Respondents last

App. 137
argue that the financial arrangements of the district
need only to conform with the Service Plan so far as
practicable. Respondents cite Plains Metropolitan District v. Ken-Caryl Ranch Metropolitan District, 250
P.3d 697 (Colo. App. 20 10) to support this argument.3
As will be shown below, the court disagrees with each
of these arguments.
Again, the question is not whether the bonds were
illegal but whether the assessment and collection of
more than the fifty mill limit by Marin was legal. In
regard to respondents’ several arguments as stated
above, the court finds as follows: First, the court finds
that imposing a 59.5 mill levy in the face of a specific
50.0 mill levy limit for debt service stated in the Service Plan is not in material compliance with the Service Plan. The increase in tax caused by the excess mill
levy is substantial and material. Further, the Service
Plan specifically provides that the bonds shall meet the
requirements of applicable State law. C.R.S. 32-11101(6)(b) sets a maximum mill levy for debt service at
50 mills. The 59.5 mill levy does not meet this requirement of State law. Next, the court finds the 59.5 mill
levy does not generally conform to the pro forma model
of the Service Plan. The pro forma model is attached to
the Service Plan as Exhibit F. That Exhibit shows a pro
forma 49.5 mill levy for debt service which progressively works downward. The 59.5 mill levy actually imposed is a substantial and significant variance from
the pro forma model materially affecting the taxpayers
3

See Respondent’s Post-Trial Brief.

App. 138
obligated to pay the increased amount. Next, the court
finds there was no showing on trial that the Marin
board of directors had to make any adjustment in the
mill levy imposed by reason of any legislatively or constitutionally imposed adjustments in the assessed valuation of the property in the district. Further, the court
finds there was no evidence presented on trial that the
Gallagher Amendment or any legislative setting of a
ratio of assessed valuation had any bearing whatsoever on Marin’s decision to assess the 59.5 mill levy.
Last, the court finds respondents made no showing on
trial that compliance with the provisions of the Service
Plan would not have been practicable.
Respondents also argue that the provisions of
C.R.S. 32-1-1101(6)(a) negate the fifty mill levy limitation of C.R.S. 32-1-1101(6)b) because Colorado Bond
Shares is an institutional investor. Respondents admit
they have no case law on point and cite no rules of construction that would support this position.
The general obligation bonds in this case are subject to the provisions of C.R.S. 32-1-1101(6). This section provides in pertinent part:
(6)(a) The total principle [sic] amount of
general obligation debt of a special district issued pursuant to subsection (2) of this section,
shall not at the time of issuance exceed the
greater of two million dollars or fifty percent
of the valuation for assessment of the taxable
property in the special district as certified by
the assessor, except for debt which is:

App. 139
(IV) issued to financial institutions or
institutional investors.
(6)(b) Nothing in this title shall prohibit
a special district from issuing general obligation debt or other obligations which are either
payable from a limited debt service mill levy,
which mill levy shall not exceed fifty mills, or
which are refunding or restructuring of outstanding obligations, or which are obligations
issued pursuant to part 14 of this article.
It is undisputed that the bonds were issued under
the authority of C.R.S. 32-1-1101(2). It is also undisputed that Colorado Bondshares is an institutional investor as referred to in 32-1-1101(6)(a). It is further
undisputed that the bonds issued by Marin are limited
tax general obligation bonds. (See trial Exhibit 2.)
The court does not agree with respondent’s construction of this statute. The court finds the plain and
clear language of the statute is not ambiguous. Section
32-1-1101(6)(a) deals only with the total principle [sic]
amount of general obligation debt which may be issued
by a special district. It sets a basic limit which may
only be exceeded in certain circumstances, one of which
is where the debt is issued to an institutional investor.
On the other hand, section 32-1-1101(6)(b) sets a cap
on the mill levy which may be assessed to pay the debt
service on limited debt service bonds. This subsection
(b) does not reference subsection (a) nor does it refer in
any way to the amount of the general obligation debt
permitted or to institutional investors.

App. 140
Respondents’ contention that subsection (6)(a)
negates subsection (6)(b) is not consistent with established rules of statutory construction. When construing a statute, courts must ascertain and give effect to
the intent of the General Assembly, see Waller v. People, 932 P.2d 303, 309 (Colo. 1997) and must refrain
from rendering judgments that are inconsistent with
that intent. See Farmers Ins. Exch. v. Bill Boom, Inc.,
961 P.2d 465, 469 (Colo. 1998). To determine legislative
intent, the court must therefore look first to the plain
language of the statute. See Vaughn v. McMinn, 945
P.2d 404, 408 (Colo. 1997); City of Westminster v. Dogan
Constr. Co., 930 P.2d 585, 590 (Colo. 1997). If courts can
give effect to the ordinary meaning of words used by
the legislature, the statute should be construed as
written, giving full effect to the words chosen, as it is
presumed that the General Assembly meant what it
clearly said. See Askew v. Industrial Claim Appeals Office, 92 7 P. 2d 1333 (Colo. 1996). PDM Molding Inc. v.
Stanberg, 898 P.2d 542, 545 (Colo. 1995). If the statutory language is clear and unambiguous, courts need
not look further. See Town of Superior v. Midcities Co.,
933 P.2d 596, 600 (Colo. 1997); Boulder County Board
of Equalization v. MDC Construction Co., 830 P.2d 975,
980 (Colo. 1992). State v. Nieto, 993 P.2d 493, 500 (Colo.
2000).
Here, the language used in section 32-1-1101(6)(a)
and (b) is clear and unambiguous. The two subsections
deal with different issues and do not qualify each other.
Therefore, the court rejects respondents’ argument
that the fifty mill cap stated in 32-1-1101(6)(b) does not

App. 141
apply in this action because Colorado Bondshares is an
institutional investor.
For the reasons just stated, the court rules that
petitioner is entitled to a declaratory judgment pursuant to Tabor that taxes collected by Marin from petitioner and the individual taxpayers it represents in
excess of fifty mills for debt service annually (ie: an excess of 9.5 mills) must be refunded together with 10%
annual simple interest. Since all of the excess taxes
were collected for the tax year 2009 and later and this
suit was filed June 1, 2011, the four year limitation in
Tabor is not a factor. The court now enters a mandatory
injunction requiring Marin to develop a refund plan as
provided by Tabor identifying how the refund and interest shall be paid to the affected taxpayers. The plan
shall be submitted to this court within sixty (60) days
of the date of this order. The court will then allow petitioner twenty (20) days to file any objection it may
have. Once the court approves the form of the repayment plan it shall be mandatory and binding upon
Marin.
The Net Effective Interest Rate Issue
The next issue raised by petitioner is its claim that
it is entitled to a declaratory judgment that the net effective interest rate of the Marin general obligation
bonds exceeds that authorized under Tabor and state
law.
In its trial brief petitioner argues that the general
obligation bond debt for which taxes are levied may not

App. 142
exceed 12% or a Tabor violation would occur. The 12%
figure comes from the limitation set in the Service Plan
approved by the City of Greenwood Village. Section
VIII(D)(2) of the Service Plan in pertinent part states:
“The maximum voted interest rate for
any bonds or notes (other than those issued to
developers or other related parties) shall be
12% per annum and the maximum discount
shall be four percent (4%). The exact interest
rates and discounts shall be determined at the
time the bonds are sold and will reflect market conditions at the time of sale.”
The court agrees with petitioner that an effective
interest rate in excess of the 12% limit set in the Service Plan would be illegal. However, the court does not
agree that this occurred. The bonds issued by Marin
specifically state an interest rate of 7.75% is to be paid
on the $30,485,000 paid for the bonds.
In the face of the specific provision in the bond documents that the interest rate is 7.75%, petitioner’s argument is that Marin only received $8,000,000 of the
bond funds but was required to pay interest on the full
$30,485,000 amount of the general obligation bonds resulting in an effective interest rate in excess of 12%.
However, this argument does not recognize the reality
that Colorado Bondshares paid the full $30,485,000 to
Piper Jaffrey [sic] for the bonds and that amount, less
the cost of issuing the bonds incurred by Marin was
placed with UMB for the benefit of Marin.

App. 143
The Marin Metropolitan District Limited Tax
General Obligation Bonds – Series 2008 agreement
was admitted as Exhibit 2 on trial. (“Bond Agreement”). At page 28 of the Bond Agreement the use of
proceeds from the bonds is presented as follows:
Deposit to Facility Fund
Deposit to Reserve Fund
Deposit to Bond Fund (capitalized
interest)
Cost of issuance and contingency
Total

Amount
$21,000,000.00
$ 3,048,500.00
$ 5,624,247.55
$ 812,252.45
$30,485,000.00

As explained on pages 17 and 18 of the Bond
Agreement the $21,000,000 designated as the Facility
Fund was for construction of the facilities of Marin.
Access to the funds was phased into three stages. First,
$8,000,000 was immediately available to Marin
through the trustee to pay construction expenses.
Thereafter, and progressively, first $10,000,000 and
then $3,000,000 was available to Marin upon meeting
milestones of construction. Thus, this fund was committed to and fully available to Marin if it performed
its obligations under the Bond Agreement.
The Reserve Fund is explained on page 27 of the
Bond Agreement. In general terms, this fund was established to insure Marin’s ability to meet bond obligation payments. The Bond Fund (capitalized interest)
is explained on page 30 of the Bond Agreement. This
fund recognized that Marin would not have constructed improvements which would create a basis for

App. 144
property tax payments sufficient to meet the debt service on the bonds during the first years. The costs of
issuance and contingency are detailed on trial Exhibit
J-19 explaining the underwriter’s discount, costs of issuance and a rounding adjustment. In summary, all of
$30,485,000.00 borrowed by Marin through the bond
issue was used for or available for use by Marin. As
such, the net effective interest rate must compare the
interest charged to the full amount of the bonds. That
interest rate is 7.75%.
For the reasons stated herein, petitioners request
for declaratory relief on the net effective interest rate
is denied.
The Failure to Provide Public Benefit Issue
This issue addresses the question of whether
Landmark received any benefit at all by reason of the
creation of Marin.
Prior to the creation of Marin, Landmark was a
stand-alone project to construct the residential towers,
associated commercial facilities and all of the infrastructure required for those improvements. As indicated in the DIA discussed above, 7677, as the
developer, had the obligation to construct all of the
public improvements for the project including street
improvements, water and sanitary sewer improvements, drainage improvements, street lighting, landscaping and street furniture. The water and sanitary
sewer improvements were to be constructed in accordance with the rules and regulations of the Southgate

App. 145
Water and Sanitation District and the Goldsmith
Gulch Sanitation District. 7677 was to provide financing for these improvements and was required to provide an irrevocable letter of credit to the city to insure
it would do so. 7677 did provide the letter of credit, so
financing was in place to insure the public infrastructure would be completed. Part of the financing scheme
for the public improvements was the STRA discussed
earlier. The public improvements specifically included
the reconstruction and improvement of East Berry Avenue. Had the European Village never been conceived
of and Marin never been created, the Landmark project would have had every necessary infrastructure
necessary for its use and occupation.
Initially, when the European Village project was
conceptualized by Mr. Davidson, he did not contemplate including the Landmark towers in the special
district to be formed. It was only when Mr. Davidson
realized that the European Village project by itself
would not support the amount of capital he wished to
finance through a special district that he decided to
add the Landmark towers. By the time the Service
Plan for Marin was submitted to the City of Greenwood Village for approval, many of the Landmark
units had been sold. These contracts and the contracts
for the remaining units could have been closed without
any further benefit from the contemplated special district.
The Service Plan submitted to and approved by
Greenwood Village is extremely vague as to what improvements, if any, would be provided to Landmark by

App. 146
Marin. Since Landmark was a stand-alone project with
separate financing for all of its own infrastructure, it
certainly did not need anything from the proposed
Marin special district to make it fully operational for
residential or commercial purposes. The Service Plan
makes references to some “enhanced street, traffic and
safety control, storm water drainage, water, sanitation,
park and recreation, and other public infrastructure”
but provides no detail whatever as to how it might possibly benefit the Landmark project. The maps and
other schedules attached to the Service Plan provide
no specific identification of any improvements to be
constructed within the area of the Landmark and Meridian towers. Certainly, no new streets were to be constructed which would improve ingress or egress to or
from Landmark with any major streets in the area.
With the exception of a very small public park to be
constructed on a RTD parcel located on the east side of
the special district, which would be fully open to the
general public, the Service Plan strongly suggests all
of the infrastructure would be constructed on the European Village area of the special district.
Not only is the Service Plan lacking in any detail
of what benefits might be provided by Marin for the
Landmark project, a supplement to the Service Plan
very specifically prohibits any overlap in infrastructure construction with that already existing in the
Landmark project. (See trial Exhibit 84.) In fact, the
Supplement to Service Plan specifically prohibits the
district (Marin) from providing any service or facility
that is currently furnished by the Southgate

App. 147
Sanitation District, Southgate Water District and
Goldsmith Gulch Sanitation District as were already
established to provide the necessary services to Landmark. The supplement also directs that the district
(Marin) shall not finance, acquire or construct any infrastructure improvements listed in the Sales Tax Rebate Agreement or the Development Improvement
Agreement relating to Landmark between the city and
(7677) East Berry Avenue Associates, L.P. By this supplement, all of the infrastructure for Landmark which
was included in the DIA and STRA discussed earlier
was specifically excluded from the scope of the Marin
district.
Notwithstanding whatever speculative or illusory
benefit might have been found in the Service Plan,
nothing was ever constructed by Marin. In fact, Landmark has received absolutely nothing by reason of its
inclusion in Marin. Specifically, the court finds that the
Marin Service Plan did not identify any actual benefit
to the Landmark Towers, direct or indirect. The Service
Plan did not contemplate any improvements which
would increase the value of the Landmark Towers. By
the Supplement to the Service Plan, Marin was prohibited from providing infrastructure which was already
in place for Landmark. And in fact, no actual benefit of
any kind was ever provided to the Landmark Towers.
The only thing which has occurred with regard to the
Landmark and Meridian owners by reason of Marin
has been to foist upon them the cost of the failed European Village project and the repayment of the bonds
issued by Marin.

App. 148
The issue is thus posed as to whether, where a special district has been legally formed in accordance with
Colorado law, including the necessary voter approval,
can subsequent owner/taxpayers challenge the obligation to pay real property taxes on the grounds that the
special district has provided no actual benefit or increment of value to their property. This court answers
that question in the affirmative.
There is a substantial body of Colorado law
dealing with this issue which affords a remedy for the
taxpayers in this action. In City and County of Denver
v. Greenspoon, 344 P.2d 649 (Colo. 1959) a special
improvement district had legally and properly been
created. The plaintiff taxpayer challenged the assessments made against his property to pay for the
improvements. The property was already fully and adequately served and no need existed for the additional
improvements. In fact, the property was receiving no
actual benefit from the constructed improvements. Our
Supreme Court held that the right to assess and collect
a special assessment tax exists only where a special
benefit has been conferred upon the property subject
to the tax. In the absence of a special benefit, the levy
would amount to a confiscation without due process of
law. The same rule of law has been stated by the Supreme Court on many occasions. See Pomroy v. Board
of Public Waterworks, Dist. No. 2 of City of Pueblo, 136
P. 78 (Colo. 1913); Town of Fort Lupton v. Union Pacific
Railroad Company, 399 P.2d 248 (Colo. 1965); Satter v.
City of Littleton, 522 P.2d 95 (Colo. 1974); and Reams v.
City of Grand Junction, 676 P.2d 1189 (Colo. 1984).

App. 149
The same rule has been recognized by the United
States Supreme Court. In Myles Salt Company v.
Board of Commissioners of the Iberia & St, Mary
Drainage District, 239 U.S. 478, 36 S.Ct. 204(1916)
the plaintiff had challenged a property tax levied
against its property to repay bonds issued by a special
district. The suit had been dismissed by the state
courts in Louisiana as not stating an actionable claim.
The plaintiff ’s claim asserted: (1) a special improvement drainage district had been legally and properly
formed pursuant to state law; (2) the district was authorized to and did issue bonds to finance the construction of drainage improvements; (3) plaintiff ’s property
was within the boundaries of the district; (4) all of the
property within the district was assessed a tax to pay
for the bonds; (5) that plaintiff ’s land was included in
the district, not because any benefit would be provided,
but with the predetermined purpose of deriving revenues to the end of granting a special benefit to other
lands without any benefit to plaintiff ’s property; and
(6) no benefit was needed or received by plaintiff ’s
property. The Supreme Court ruled that these assertions did state a claim for confiscation without due process of law under the federal constitution. The case
was remanded to the Louisiana state courts for further
proceedings.
In each of the cases just cited, the governmental
entity involved had actually constructed the improvements required. The issue presented was whether the
taxpayer bring [sic] suit had received any benefit from
the improvements. Here, nothing was constructed or

App. 150
done to benefit anyone. Nonetheless, the governmental
entity, Marin, proceeded to impose ad valorem property taxes simply to repay its debt.
Based on the foregoing findings of fact and the
rules of law above stated, this court finds that petitioner is entitled to a declaratory judgment that the
tax assessment made by Marin is illegal and to an injunction prohibiting the assessment and collection of
the tax.
Equitable Jurisdiction and Balancing of Equities
This court recognizes that its decision in this case
and the remedies allowed petitioner may result in
economic loss to Colorado Bondshares. Respondents’
counsel has argued that Colorado Bondshares is an
honest, bona fide purchaser of the general obligation
bonds issued by Marin. Counsel points out that no misdeeds by Colorado Bondshares have been alleged in
this case and none have been proved.4 Counsel argues
that when sitting in equity the court must always consider balancing of equities in fashioning any remedy.
In that regard respondent argues that Colorado Bondshares has done nothing wrong and that the petitioner
taxpayers are sophisticated people who were given notice of Marin in the documents they were provided
when they closed their purchase contracts. When they
proceeded to close their contracts, respondents argue,
they did so at the risk of taxes imposed by Marin.

4

See Respondents’ Post Trial Brief.

App. 151
This is not a case where the court has fashioned
an equitable remedy because no adequate legal remedy exists under the law. To the contrary, the remedies
now afforded by the court are all based on legal principles. A fundamental maxim of equity is that equity
follows the law. Am.Jur.2d Equity § 87. Under this
maxim, where substantial justice can be accomplished
by following the law and the parties’ actions are clearly
governed by rules of law, equity follows the law. Equity
follows established rules and precedents and will not
change or unsettle rights which are defined and established by existing legal principles. Where, as here, the
court is applying established law to grant relief to petitioner, the balancing of equities doctrine is not applicable as it might be if the court were fashioning a
purely equitable remedy. See Dobbs, Law or Remedies,
2nd Edition, § 2.4(5).
If balancing of equities were required there are
several factors which would balance against Colorado
Bondshares. The evidence presented on trial clearly
shows that Colorado Bondshares is a sophisticated institutional investor with a great deal of experience in
dealing with municipal bonds. Colorado Bondshares
directly participated with Marin and Piper Jaffray in
negotiating the terms of the bonds to be issued. During
these negotiations, Colorado Bondshares had full opportunity to evaluate the viability of Mr. Davidson and
his entities which were the moving forces behind the
Marin district. Certainly red flags existed as stated by
its representative Fred Kelly on trial. Nonetheless, it
decided to take the financial risk of purchasing the

App. 152
bonds. Had Colorado Bondshares carefully examined
the Service Plan for Marin it should have seen that the
question of providing any actual benefit to the Landmark properties was questionable. It should have
recognized the fifty mill levy limit provided by C.R.S.
32-1-1101(6)(b) as was specifically stated in the bond
documents. It should have recognized that virtually no
controls were in place regarding the requests for payment by Marin and specifically that there was no process for verification of the accuracy or validity of the
claims for payment made.5 In the courts [sic] mind
these factors substantially and negatively outweigh
the fact that mention of the Marin Metropolitan District was included in title exceptions at closing of the
purchased Landmark units without any notice of the
amount of tax consequences which would later occur.
There would be no favorable balancing for Marin as it,
through its management, was the driving force in all
of the problems which are the basis of this order.
Summary of Relief Granted
Petitioner is entitled to a declaratory judgment
pursuant to Tabor that taxes collected for Marin in the
amount of $384,611.00 must be refunded together with
10% annual simple interest. The recovery shall be
5

The bond indenture agreement with UMB detailing its
obligations in making disbursal of funds was not admitted into
evidence. However, Mr. Kelly testified that UMB had no responsibility to verify the basis for payment requests. UMB was only
required to see that the payment request was signed by an authorized representative of Marin.

App. 153
prorata as stated above allowing petitioner recovery of
that portion of the $384,611.00 which it paid. The court
now enters a mandatory injunction requiring Marin to
develop a refund plan as provided by Tabor identifying
how the refund and interest shall be paid to the affected taxpayers. The plan shall be submitted to this
court within sixty (60) days of the date of this order.
The court will then allow petitioner twenty (20) days
to file any objection it may have. Once the court approves the form of the repayment plan it shall be binding and mandatory upon Marin. Petitioner is entitled
to recover its costs and attorney fees with regard to
this issue as provided by Tabor.
Petitioner is entitled to a declaratory judgment
pursuant to Tabor that all taxes collected by Marin
from petitioner and the individual taxpayers it represents in excess of fifty mills for debt service annually
(ie: the excess of 9.5 mills) must be refunded together
with 10% annual simple interest. The court now enters
a mandatory injunction requiring Marin to develop a
refund plan as provided by Tabor identifying how the
refund and interest shall be paid to the affected taxpayers. The plan shall be submitted to this court
within sixty (60) days of the date of this order. The
court will then allow petitioner twenty (20) days to file
any objection it may have. Once the court approves the
form of the repayment plan it shall be binding and
mandatory upon Marin. Petitioner is entitled to recover its costs and attorney fees with regard to this issue as provided by Tabor. The amount of the refund

App. 154
ordered in this paragraph shall not overlap the
amount of refund ordered in the prior paragraph.
Petitioner is entitled to a declaratory judgment
that the assessment of taxes by Marin Metropolitan
District to pay its obligations under the general obligation bonds it issued and sold to Colorado Bondshares
is illegal as it concerns Landmark. An injunction is
now entered preventing Marin from making any such
assessment in the future.
Done this 6th Day of September, 2013 at Centennial, Colorado.
/S/__________________________________
DONALD W. MARSHALL
SENIOR DISTRICT COURT JUDGE

App. 155
DISTRICT COURT,
ARAPAHOE COUNTY,
COLORADO
7325 South Potomac Street
Centennial, Colorado 80112
303-649-6253

DATE FILED:
October 31, 2013
CASE NUMBER:
2011CV1076
↑COURT USE ONLY↑

Petitioner: LANDMARK
TOWERS ASSOCIATION, Case Number:
INC., a Colorado nonprofit 11CV1076
corporation, by Miller
Division: 308
Frishman Group, LLC as
Receiver for 7677 East
Berry Avenue Associates,
LP, its Declarant;
v.
Respondent(s): UMB
BANK, N.A.; CEDE & CO,
as nominee for THE
DEPOSITORY TRUST
COMPANY; COLORADO
BONDSHARES A TAX
EXEMPT FUND, and
MARIN METROPOLITAN
DISTRICT, a Colorado
special district.
ORDER
The court has received and reviewed Respondents
Colorado Bondshares’ and UMB Bank, N.A.’s Motion
and Brief for Reconsideration of Order Dated September 6, 2013. Respondent Marin Metropolitan District

App. 156
has joined in the motion. In this order the court will
refer to the moving parties as respondents unless context requires otherwise. The court has also received petitioner’s Response and respondents’ Reply. The court
now dispenses with oral arguments and enters its ruling on the motion as stated herein.
In summary, the motion seeks the amendment of
the court’s order of September 6, 2013 and raises five
arguments in support of that request. The arguments
are (1) that the court improperly invalidated an ad valorem property tax while incorrectly relying on law addressing special assessments; (2) that the court’s order
violates the Colorado Constitutional requirement for
uniform taxes; (3) that the court improperly ruled that
the Marin Metropolitan District (hereinafter “Marin”)
could not levy taxes in excess of 50 mills for payment
of debt; (4) that petitioner’s claims were time barred by
C.R.S. 11-57-212; and (5) the order was issued in the
absence of an indispensible [sic] party. Petitioner disagrees with each argument and challenges the propriety of the use of a motion to reconsider.
Propriety of the Motion to Reconsider
Petitioner argues that the court may only properly
consider a motion for reconsideration of an interlocutory order when one or more of three grounds exist.
These are; (1) an intervening change in controlling law;
(2) the availability of new evidence; and (3) the need
to correct clear error or prevent manifest injustice.
Petitioner cites several authorities to support this

App. 157
argument. Petitioner also argues that a party cannot
reframe issues in a motion for reconsideration or for
new trial where the facts were known at the time of
trial. Petitioner argues that respondents are now reframing issues and arguing new theories which were
not raised at trial. The court disagrees with petitioner’s
position that this motion should be refused entirely for
these reasons. While this argument has some merit
with reference to some of the issues raised, the court
believes that respondents have raised other issues
which require clarification of the September 6, 2013 order.
Respondents state that the motion is proper under
C.R.C.P. 54(b). Respondents correctly state that the order of September 6, 2013 is not a final judgment because it has not resolved all issues and claims against
all parties to the litigation. Under Rule 54(b) the
court’s order in this case is subject to revision at any
time before the entry of judgment adjudicating all
claims and all rights and liabilities of all of the parties.
As such, the September 6 order is subject to revision
and a motion requesting such action is proper. Therefore, the court accepts the motion and enters its ruling
on the issues raised as stated herein.
Respondents’ Argument Regarding
Misapplication of Law Relating to Special
Assessments to an Ad Valorem Property Tax
Respondents argue that the court improperly
applied law relating only to special assessments in

App. 158
nullifying petitioner’s obligation to pay taxes in this
case. Respondents make a three-pronged argument
under the following headings: (1) Marin is authorized
to impose an ad valorem tax, not special assessments;
(2) Ad valorem taxes distribute the government’s general burden while special assessments inure a benefit
on particular property; and (3) the court misapplied
Colorado special assessment law to Marin’s ad valorem
property tax.
With regard to respondents’ first contention, that
Marin is only authorized under the law to impose ad
valorem property taxes, the court finds this argument
to have no merit. Marin was organized under the
Colorado Special District Act, C.R.S. 32-1-101, et. seq.
Clearly, the act does authorize a special district to levy
and collect ad valorem taxes on property. C.R.S. 32-11101(1)(a). This does not mean, however, that any
charge imposed by Marin against property owners
would be a proper ad valorem property tax. Under
C.R.S. 32-1-1001(1)(j) special districts have the power
to fix charges for services, programs or facilities furnished by the district. Further, the Service Plan approved by Greenwood Village makes no mention of
ad valorem taxes. The Financing Plan section of the
Service Plan identifies revenue sources as, “estimated
property tax revenue, revenue available from specific
ownership taxes, fees and charges and other revenue
sources, including amounts available for payment of
debt service on District bonds from the debt service
mill levy.” See Service Plan section VIII.A. Therefore,
under the Special District Act and the Service Plan,

App. 159
Marin had power to raise multiple forms of revenue.
The test for determining the nature of the charges imposed in this case is not solely the label used but rather
the functional characteristics of the charges.
The court certainly recognizes that it referred to
the charge imposed by Marin against the petitioner/
taxpayers as an ad valorem property tax. The court
used that term only because the term “ad valorem” was
used in the Limited Offering Memorandum issued by
Marin. The court was also referring to the fact that the
charge imposed was based on the value of the property
owned by the taxpayers. Because the issue of distinguishing an ad valorem tax and a special assessment
was not raised on trial, the court did not recognize the
need to do so. While this resulted in an improvident
use of the term “ad valorem” by the court, the court did
not in any way intend to state or imply that the charge
made by Marin was an ad valorem property tax as distinguished from a special assessment. Because the present motion for the first time raises the issue, the court
will clarify and modify its order as stated herein.
The law is clear that when the nature of a charge
imposed by a governmental entity is in question, the
court may evaluate the circumstances and operative
aspects of the charge to determine its actual nature.
Bloom v. City of Fort Collins, 784 P.2d 304 (Colo. 1990);
City of Littleton v. State of Colorado, 855 P.2d 448 (Colo.
1993). The label placed on the charges imposed is not
controlling. The charge must be evaluated based on its
functional characteristics. In this case the issue relates

App. 160
to the distinction between an ad valorem property tax
and a special assessment.
In Bloom, the court identified the characteristics
of an ad valorem tax. The court stated an ad valorem
tax is a tax upon various classes of real and personal
property located within the territorial limits of the taxing authority. Its purpose is to provide revenues in order to defray the general expenses of government as
distinguished from the expense of a specific function or
service. Bloom, supra at 307.
In Bloom, the court also stated the characteristics
of a special assessment distinguishing it from a property tax. The court ruled the essential characteristic
of a special assessment is that it must confer some
special benefit to the property assessed. A special assessment is based on the premise that the property assessed is enhanced in value at least to the amount of
the levy. The burden of the assessment falls on the
property owners because “the benefits they receive
from the particular improvements are different from
the benefits they enjoy in common with other property
owners. Unlike a tax, a special fee is not designed to
raise revenues to defray the general expenses of government, but rather it is a charge imposed upon persons or property for the purpose of defraying the cost
of a particular governmental service. Bloom, supra at
308.
There is no question that the Marin special district was established for the primary purpose of obtaining construction financing for Zachary Davidson’s

App. 161
private enterprises. While the organizers of the district
did comply with Colorado law in establishing the district, the objective of the organizers was to obtain
funds to build infrastructure for their private venture.
The central purpose was not to create a governmental
entity providing services for residents of the district.
The area to be served was very small and local. The
property to be benefited was all owned by entities controlled by Zachary Davidson. The special district was
created to enhance the value of the privately owned
property for later resale to the public. The bonds issued
by Marin were clearly for the purpose of raising the
necessary capital to make these local improvements
for the benefit of the developer. Under its service plan,
upon completion of the construction Marin was obligated to transfer certain off-site street improvements
to the city and the water and sanitation improvements
to pre-existing special districts for maintenance and
operation rather than doing so itself. In summary, but
for the reasons of raising construction capital for Mr.
Davidson’s private enterprises, the Marin special district would not have been created. The charges imposed [sic] residents of the special district were clearly
and primarily for the purpose of defraying the costs of
construction of the infrastructure needed for development.
Further, the court finds the tax imposed was not,
in any significant way, to defray the general expenses
of Marin as a governmental entity. The total of 61.0
mills of tax collected for the benefit of Marin was allocated 1.5 mills of general operating expenses and 59.5

App. 162
mills for payment of the general obligation bonds.1 See
Trial Exhibits 98 – 102. Again, those bonds were issued
to obtain construction capital for the benefit of Zachary
Davidson controlled private entities. As such, the
charges imposed on petitioner had only a very limited
component for defraying general expenses for Marin.
In fact, Marin has never provided any governmental
services to petitioner or any other persons and foreseeably never will.2
For the reasons just stated, the court finds that the
monies collected by Marin from the property owners in
the special district are in the nature of a special assessment and not an ad valorem property tax.
The court now addresses respondents’ argument
that the court misapplied Colorado special assessment law to the tax imposed in this case. While the
court rules that the charge imposed by Marin is an assessment rather than an ad valorem property tax, a
contrary determination would not necessarily be dispositive of the issue.
Respondents are correct that the Colorado cases
cited by the court in the September 6, 2013 order dealing with the collection of taxes where no benefit has
been conferred by the taxing entity do relate to collection of special assessment taxes. The court notes,
1

The tax collected also included 8.0 mills to be paid to the
City of Greenwood Village pursuant to an intergovernmental
agreement between Marin and the city.
2
Marin apparently presently exists only to collect monies to
pay its debt service and to litigate pending cases.

App. 163
however, that these cases are based on the constitutional rule that to enforce an assessment for a purpose
which does not confer a special benefit upon the property upon which it is levied would result in taking private property without compensation, and without due
process of law. See Pomroy v. Board of Public Waterworks, Dist. No. 2 of City of Pueblo, 136 P. 78 (Colo.
1913); Ochs v. Town of Hot Sulphur Springs, 407 P.2d
677 (Colo. 1965); Reams v. City of Grand Junction, 676
P.2d 1189 (Colo. 1984); and City and County of Denver
v. Greenspoon, 344 P.2d 679 (Colo. 1959).
The constitutional due process requirement is not
limited to situations where the governmental charge
to a property owner is labeled a special assessment. As
stated in the order of September 6, the case of Myles
Salt Company v. Board of Commissioners of the Iberia
& Saint Mary Drainage District, 239 U.S. 478, 36 S.Ct.
204 (1916) is squarely on point. In Myles, the plaintiff ’s
claim asserted: (1) a special district had been legally
and properly formed pursuant to state law; (2) the district was authorized to and did issue bonds to finance
the construction of improvements; (3) plaintiff ’s property was within the boundaries of the district; (4) all of
the property within the district was assessed an ad
valorem property tax to pay for the bonds; (5) that
plaintiff ’s land was included in the district, not because any benefit would be provided, but with the predetermined purpose of deriving revenues to the end
of granting a special benefit to other lands without
any benefit to plaintiff ’s property; and (6) no benefit
was needed or received by plaintiff ’s property. The

App. 164
Supreme Court ruled that these assertions did state a
claim for confiscation without due process of law under
the federal constitution. From this case it is seen that
it is not the label of the tax or assessment which controls but rather whether an unconstitutional taking
has occurred.
In this case, a situation functionally identical to
Myles exists. The facts here are: (1) a special district
has been legally and properly formed pursuant to state
law; (2) the district was authorized to and did issue
bonds to finance the construction of improvements;
(3) petitioner’s property is within the boundaries of the
district; (4) all of the property within the district was
assessed a charge labeled as an ad valorem property
tax to pay for the bonds; (5) petitioner’s land was included in the district, not because any benefit would be
provided, but with the predetermined purpose of deriving revenues to the end of granting a special benefit to
other lands without any benefit to petitioner’s property; and (6) no benefit was needed or received by petitioner’s property.
The court will not fully restate the findings made
at pages 23 – 25 of its September 6 order. However,
those findings are specifically incorporated into this order. As was the case in Myles, this court earlier found,
and again finds, that petitioner’s property was included in the Marin district only when Mr. Davidson
became aware that the European Village property was
not sufficient to secure the bond revenues he wanted
to obtain. It was not because any benefit was needed or
provided. Rather, it was done with the specific purpose

App. 165
of increasing the tax base so as to obtain the bond revenues needed for the European Village project and to
derive revenues to the end of granting a special benefit
to those other lands without any actual or needed benefit to petitioner’s property. Further, the Marin district
never has, and foreseeably never will provide any benefit or service to petitioner or any other person. Under
these circumstances an unconstitutional taking of private property has occurred without due process of law.
The consequences of this unconstitutional taking may
not be avoided simply by labeling the governmental
charges as an ad valorem tax.
Respondents’ Argument Regarding
Requirement for Uniform Taxes
Respondents argue that the court’s order violates
Colorado Constitution Article X §3, the provision for
uniform taxes. Respondents argue that property other
than that owned by petitioner, and its members, is included in the Marin district. They argue that Marin is
still allowed to and required to tax the other property
within the district which, by reason of the court’s order,
will now have to be taxed at a non-uniform rate. Thus,
they argue, owners within the district will not be taxed
uniformly in violation of the Colorado Constitution.
This argument was never raised by pleading or
during trial. It is an affirmative defense that should
have been raised before or during trial. The court rejects this after-the-fact argument as untimely made.
See American Home Assurance Co. v. Glenn Estress &

App. 166
Associates, 763 F.2d 1237 (11thCir. 1985); Sanluis Development Co. v. CCP Sanluis, LLC., 556 Fed Supp.2d
329 (S.Dist. N.Y. 2008).
Even if this issue had been properly raised, the
court disagrees with respondents’ position on the merits.
First, Colorado Constitution Article X §3 applies to
property taxes, not local assessments. City of Denver v.
Knowles, 30 P. 1041 Colo. 1892); Reams v. City of Grand
Junction, 676 P.2d 1189 (Colo. 1984); Zelinger v. City
and County of Denver, 724 P.2d 1356 (Colo. 1986). The
court has found the charges made by Marin on Petitioner are in the nature of a local assessment, not an
ad valorem property tax. Therefore, Article X §3 would
not apply.
Further, respondents’ argument regarding uniformity of taxes misconstrues the court’s ruling. The
order of September 6, 2013 held, (1) that Marin had
improperly used tax revenues in violation of Tabor;
(2) that taxes had been illegally collected from petitioner by reason of an excessive mill levy; and (3) the
“tax” imposed by Marin could not legally be collected
from petitioner and its members. The court did not
make any order, injunctive or otherwise, regarding
how Marin may act with regard to other persons or
property. The court did not address any issue as to the
legality of taxes or charges Marin may choose [sic] impose on persons not party to this action. Marin is not
restricted by the court’s order to proceed as it is

App. 167
allowed by law with regard to such other persons as
there may be.
Respondents’ Argument Regarding
C.R.S. 32-1-1106 and 50 Mill Limit
In this motion for reconsideration, respondents
make the identical argument they made on trial. The
court disagrees with this argument. The court’s reasoning is fully explained in the order of September 6,
2013 and need not be repeated here.
Respondents’ Argument that Petitioner’s
Challenge of Marin’s Debt Financing is Untimely
Respondents argue that this action was time
barred by C.R.S. 11-57-212. That statutory section provides that no legal or equitable action with respect to
any legislative acts or proceeding in connection with
the authorization or issuance of securities by a public
entity shall be commenced more than thirty days after
the authorization of such securities.
This defense was pleaded by respondents. However, since it was not argued at trial the court did not
address this matter in its order of September 6, 2013.
The court agrees with petitioner’s argument
stated in its Response to this motion. The 30 day time
limit of C.R.S. 11-57-212 applies to legal or equitable
actions challenging “any legislative acts or proceedings
in connection with the authorization or issuance of securities.” Landmark’s claims asserted in this action did

App. 168
not challenge the legislative acts or proceedings of
Marin in connection with the authorization of the
bonds. Rather, Landmark challenged the constitutionality of the tax levies imposed on Landmark pursuant
to TABOR and due process.
No claim was asserted which related to conduct
controlled by C.R.S. 11-57-101.3
Respondents’ Argument
Regarding an Indispensable Party
Respondents argue that a new trial should be
granted because the FDIC is an indispensible [sic]
party that was not joined in the action. Respondents
argue joiner [sic] was required under C.R.C.P. 19 as
FDIC is an owner of property within the Marin district
and is subject to the charges imposed.
The court will first rule that this motion is not
timely. The defense of failure to join a party must be
asserted in a party’s pleading or raised by motion pursuant to C.R.C.P. 12(b). Pursuant to C.R.C.P. 12 h)(2)
the defense of failure to join a party under Rule 19 may
be made in any pleading permitted or ordered under
Rule 7(a), or by motion for judgment on the pleadings, or at the trial on the merits. Clearly, respondents
failed to comply with these requirements. C.R.C.P. 12(h)
3

Although not here a factor, the court notes that the only
parties who would have had standing to challenge the issuance of
the securities during the 30 day period in question were controlled
by Zachary Davidson who also was dominant in organizing Marin
and the decision to issue the securities.

App. 169
cannot be interpreted to mean that a party with the
necessary information to make a motion for joinder of
an indispensible party can sit back and raise it at any
point in the proceedings when the only effect of the
motion under the circumstances would be to protect
himself and not the party alleged to be indispensible.
See Greco v. Pulara, 444 P.2d 383 (Colo. 1968); Benger
Laboratories Limited v. R.K. Laros Co., 24 F.R.D. 450
(E.D. Pa.).
The court notes respondents’ argument that Greco
has been rejected by the Colorado Court of Appeals
in Clubhouse at Fairway Pines, LLC v. Fairway Pines
Estates Owners, 214 P.3d 451 (Colo.App. 2008). This argument is not correct. In Fairway Pines the court
clearly distinguished the situation where the indispensible party argument was raised for the purpose of
protecting the absent party from the situation where
the moving party was acting only to protect himself. In
Fairway Pines the court found the need for joinder in
that case was to protect the absent party. In distinguishing the differing purposes for raising the indispensible [sic] party issue the court specifically referred
to Greco and stated,
“Unlike in Greco and Karakehian the Association raised indispensability to protect the interests of absent parties rather than to protect
itself against possible future claims by such
parties.”
Here, respondents are clearly acting at this time
to protect themselves from the court’s order, not to protect any interest of the FDIC.

App. 170
Further, the court rules that FDIC would not be
an indispensible [sic] party to this action. Under Rule
19 a person properly subject to service of process shall
be joined as a party in the action if: (1) in his absence
complete relief cannot be accorded among those already parties, or (2) he claims an interest relating to
the subject of the action and is so situated that the disposition of the action in his absence may: (A) as a practical matter impair or impede his ability to protect that
interest or (B) leave any of the persons already parties
subject to a substantial risk of incurring double, multiple, or otherwise inconsistent obligations by reason of
his claimed interest.
Respondents have failed to make a showing that
FDIC fits into the criteria for an indispensible party.
Respondents have failed to show the absence of FDIC
in any way limited the court’s ability to afford complete
relief to the existing parties, limited relief or protection
sought by any party or in any way would impede
FDIC’s ability to protect any interest it may have. Nor
have respondents shown they or any other party to this
action are subject to a substantial risk of incurring
double, multiple, or otherwise inconsistent obligations
by reason of any interest of the FDIC.
Summary
For the reasons stated herein, Respondents’ motion for reconsideration is denied. This order shall be
deemed to supplement the order entered September 6,
2013. All findings of fact and conclusions of law made

App. 171
herein are incorporated into the September 6 order.
Specifically, the injunction against Marin Metropolitan
District stated on page 28 of the order shall prohibit
Marin from collecting any form of revenue from petitioner and/or its members whether denominated as an
ad valorem tax or an assessment.
Done this 31st Day of October, 2013 at Centennial,
Colorado.
/S/
DONALD W. MARSHALL
SENIOR DISTRICT COURT JUDGE

App. 172
2019 WL 1321166
Supreme Court of Colorado.
UMB BANK, N.A.; Colorado Bondshares,
a Tax Exempt Fund; and Marin Metropolitan
District, a Colorado Special District,
v.
LANDMARK TOWERS ASSOCIATION, INC.,
a Colorado Nonprofit Corporation, by EWG-GV, LLC,
as Receiver for 7677 East Berry Avenue
Associates, LP, Its Declarant.
No. 18SC507
|
March 25, 2019
Court of Appeals Case Nos. 14CA2099 & 14CA2463
EN BANC.
Opinion
Petition for Writ of Certiorari DENIED.

App. 173
RESOLUTION NO: 36

SERIES OF 2007

INTRODUCED BY: COUNCILMEMBER KERBER
A RESOLUTION APPROVING A
SERVICE PLAN FOR THE MARIN
METROPOLITAN DISTRICT
WHEREAS, on August 13, 2007, a proposed Service Plan for the organization of the Marin Metropolitan District (the “District”) was filed in the office of the
City Clerk of the City of Greenwood Village, Colorado
(the “City”);
WHEREAS, pursuant to C.R.S. § 32-1-204.5(1), no
special district may be organized if its boundaries are
wholly contained within the boundaries of a municipality, except upon adoption of a resolution of approval
by the governing body of such municipality;
WHEREAS, pursuant to C.R.S. § 32-1-204.5(1),
the City Council has the authority to review and approve the proposed Service Plan without condition or
modification, to disapprove the Service Plan or to conditionally approve the Service Plan subject to the submission of additional information relating to, or the
modification of, the Service Plan or by agreement with
the proponents of the Service Plan;
WHEREAS, on August 20, 2007, and continuing
on August 27, 2007, the City Council held a public
hearing, timely notice of which had been waived in
writing by the affected property owners, which waivers
are attached hereto as Exhibits A and B and incorporated herein by this reference;

App. 174
WHEREAS, at said public hearing the City Council reviewed the proposed Service Plan and considered
all testimony, presentations and staff recommendations; and
WHEREAS, the City Council has determined that
the Service Plan meets the approval criteria set forth
in C.R.S. § 32-1-203(2).
NOW, THEREFORE, BE IT RESOLVED BY THE
CITY COUNCIL OF THE CITY OF GREENWOOD
VILLAGE;
1. The City Council hereby finds and determines
that there is sufficient existing and projected need in
the area to be serviced by the proposed Marin Metropolitan District (the “District’) for the services described
[sic] the District’s proposed Service Plan (the “Service
Plan”).
2. The City Council further finds and determines
that the existing level of service and facilities within
the area to be served by the proposed District, including facilities and services furnished by the City and existing special districts, does not meet the present and
projected needs of this unique transportation-oriented
residential development with respect to the enhanced
level of public infrastructure facilities and services to
be provided by the proposed District.
3. The City Council finds that the proposed District is capable of providing economical and sufficient
service to the area within its proposed boundaries and
that the area to be included in the proposed District

App. 175
has, or will have, the financial ability to discharge the
proposed indebtedness on a reasonable basis.
4. The City Council hereby determines that upon
consideration of the Service Plan and all evidence presented at a public hearing held on August 20, 2007, and
continuing on August 27, 2007, the Service Plan for the
Marin Metropolitan District as filed with the City shall
be, and the same is hereby approved subject to the following:
a. Exclusion of the District from all existing
special districts currently providing the same service(s) or substantially similar service(s) (the
“Overlapping Services) within the District’s Service Area or a letter from the Boards of Directors
of such special districts consenting to the District’s
provision of Overlapping Services within the District’s Service Area; and
b. All terms, limitations and provisions set
forth in the Service Plan, with the following conditions:
i. That subsection F of Section VIII of
the Service Plan be amended to change both
references to the mill levy for City incremental services, also referred to therein as the
“City Services Mill Levy,” from “six (6.0) mills”
to “eight (8.0) mills”; and
ii. That subsection F of Section VIII of
the Service Plan be further amended to delete
the following language from the last sentence
therein: “or (y) the total costs to the City of

App. 176
funding its recreation reimbursement program to residents within the District. . . .”
READ, PASSED, AND APPROVED this 27th day
of August, 2007.
/s/ Nancy N. Sharpe
Nancy N. Sharpe, Mayor
ATTEST:

[SEAL]

/s/ Susan M. Phillips
Susan M. Phillips, CMC, City Clerk

App. 177
Arapahoe
[LOGO] County
Colorado’s First

DOUG MILLIKEN, TREASURER

********OTHER PAYMENT OPTIONS*******
****************************************
ON-LINE AT:
www.co.arapahoe.co.us/departments/tr
*****************(OR)******************
BY PHONE AT: 1-877-847-6317
****************************************
Notice: 2.5% convenience fee
PROPERTY TAX STATEMENT
on credit card payments
Acct #
Schedule #
T.A.C.
Type
Tax Year/Payable
Mtg Code
Control #
4876596
2075-16-2-20-129
1629
RE
2009
2010
A328013
Situs Address: 5455 LANDMARK PL 1416 GREENWOOD VILLAGE
Owner of Record
O’TOOLE, JAMES W & GAIL P
Legal Description:
JT TEN
40070-000-416
5455 LANDMARK PL UNIT #1416
UNIT 1416 AS PER CONDO DECLARATION RECORDED ON RECEPTION
GREENWOOD VILLAGE CO 80111-1959
#B8051569 LANDMARK TOWERS CONDOMINIUMS
Taxing Entity
Tax Rate Tax Amount Messages:
CHERRY CRK SCHOOL DIST 5
.048825
4,330.78
• IF YOU HAVE RECENTLY FILED BANKRUPTCY, THIS IS NOT A DEMAND
1) ARAPAHOE COUNTY
.014672
1,301.40
FOR PAYMENT.
DEVELOPMENTAL DISABILITY
.001000
88.70
• 1) INCLUDES TEMPORARY TAX RATE REDUCTION, PURSUANT
CITY OF GREENWOOD VILLAGE
.002932
260.07
TO SECTION 39-1-111.5, CRS.
ARAPAHOE LIBRARY DISTRICT
.004783
424.25
• A COPY OF YOUR TAX NOTICE WILL BE SENT TO YOUR LOAN COMPANY
SOUTH METRO FIRE RESCUE
AT THEIR REQUEST.
.009362
830.41
1) GOLDSMITH GULCH SAN
.001248
110.70
• THIS INVOICE MUST BE PAID WITH CERTIFIED FUNDS AFTER
1) GREENWOOD NORTH METRO
.002000
177.40
SEPTEMBER 30TH.
MARIN METRO DISTRICT
.069000
6,120.30
• REAL PROPERTY – 2009 PROPERTY TAX DUE IN 2010, PAYMENTS
REGIONAL TRANSPORTATION
.000000
0.00
MUST BE RECEIVED BY THE TREASURER’S OFFICE
SOUTHGATE WATER DIST
.000000
0.00
OR MUST BE POST MARKED BY THE DUE DATE. POSTAGE METER DATES
WILL NOT BE ACCEPTED.
1) URBAN DRAINAGE & FLOOD
.000508
45.06
1) URBN DRNGE&FLD (S PLATTE)
.000061
5.41
SB NO 25: IN THE ABSENCE OF
TOTAL TAX RATE
.154391
STATE FUNDING, YOUR SCHOOL
FIRST HALF
$
6,847.26
GENERAL FUND TAX RATE WOULD
DUE MARCH 1
HAVE BEEN
.071256
SECOND HALF $
6,847.22
Actual Valuation
$ 1,114,400 DUE JUNE 15
Valuation Date
June 30, 2008
OR
5334 SOUTH PRINCE STREET
LITTLETON, COLORADO 80166
(Use ZIP code 80120 for overnight delivery)
PHONE: (303) 795-4550 FAX: (303) 347-2597
TDD: (303) 795-4646
www.co.arapahoe.co.us/departments/tr

App. 178
Assessed Imp. Value$
46,910 FULL AMOUNT $ 13,694.48
Assessed Land Value$
41,780 DUE APRIL 30
Total Assessed Value$
88,700
DETACH HERE AND RETURN BOTTOM PORTION WITH YOUR PAYMENT. RETAIN TOP PORTION FOR YOUR RECORDS
MAKE CHECK PAYABLE TO:
ARAPAHOE COUNTY TREASURER
PAY ON-LINE AT:
PAY BY PHONE AT: QUESTIONS?
P.O. BOX 571
(OR) www.co.arapahoe.co.us/departments/tr (OR) 1-877-847-6317 Call (303) 795-4550
LITTLETON, CO 80160 (ZIP 80120 for
overnight)
Acct #
Schedule #
Tax Year/Payable
Check here if receipt other than
4876596
2075-16-2-20-129
2009
2010
cancelled check is desired
PLEASE DO NOT STAPLE, STAMP, OR WRITE BELOW THIS MESSAGE.
31207516220129001 00006847263 00013694485
O’TOOLE, JAMES W

& GAIL P

$ 6,847.26

FIRST HALF

1

JT TEN

DUE MARCH

5455 LANDMARK PL UNIT #1416
80111-1959

FULL AMOUNT

GREENWOOD VILLAGE CO

OR
DUE APRIL

[BAR CODE]

$ 13,694.48

30
119666

App. 179
SERVICE PLAN
FOR
MARIN METROPOLITAN DISTRICT
GREENWOOD VILLAGE, COLORADO
AUGUST 2007

*

*

*

SERVICE PLAN FOR
MARIN METROPOLITAN DISTRICT
I.

INTRODUCTION

This Service Plan for Marin Metropolitan District
(“District”) in the City of Greenwood Village (“City”),
Colorado (“State”), is submitted by Everest Development Company, LLC (“Organizer”), an Oklahoma limited liability company, pursuant to the requirements of
the Special District Act, Section 32-1-101, et seq.,
C.R.S. (“Special District Act”), and more particularly
Section 32-1-204.5, C.R.S. This Service Plan is being
submitted in connection with the planning and development of (i) the residential portion of the mixed-use
redevelopment project known as “The Landmark”
(“Landmark”), consisting of approximately three and
one-half (3.5) acres of land being developed for highrise residential uses, parks, greenbelts and open space,
located on Lots 1 (Landmark / Tower 1) and 3 (Meridian / Tower 2) of The Landmark Filing No. 1 Plat
(“Landmark Plat”) as filed of record with the Clerk and
Recorder of Arapahoe County, Colorado (“County”),

App. 180
and (ii) the residential redevelopment project known
as “Marin” (“Marin”, and together with Landmark, the
“Development”), consisting of approximately eleven
and four-tenths (11.4) acres of land to be developed as
luxury single and multi-unit residences, parks, courtyards and open space contiguous to the Landmark
presently situate [sic] on Lot 1 of the Greenwood Plaza,
Fourth Filing, Amended Plat (“Marin Plat”) as filed of
record with the County. The Organizer is the representative of the owners of the Development (7677 East
Berry Avenue Associates, L.P., owner of the Landmark,
and Everest Marin, L.P., owner of Marin) and the master developer of all property within the Development.
References in this Service Plan to a developer apply to
the Organizer, any affiliated or related entity, and any
successor developer or an affiliated or related entity
thereof. A reference herein to any “Part” or “subpart”
means a section or subsection of this Service Plan; any
capitalized term may include the singular or plural of
such term, if appropriate.
II.

PURPOSES OF DISTRICT

The District will be a metropolitan district organized to provide certain enhanced street, traffic and
safety control, stormwater drainage, water, sanitation,
park and recreation, and other public infrastructure
improvements and related facilities and services commensurate with the quality of the Development (all of
which public infrastructure improvements are referred to herein generally as the “Improvements” and
are more particularly described in Parts V and VI)

App. 181
subject to all limitations set forth in this Service Plan.
The District will be responsible for the financing, acquisition, construction, completion, operation and
maintenance of the Improvements as discussed more
fully in Part VII. The Improvements will be completed
for the integrated use and benefit of the property owners and taxpayers within, and residents of both the
Landmark and Marin, as well as for the public generally. Upon completion, it is anticipated that the District
will dedicate and transfer (i) certain off-site street Improvements to the City and (ii) the water and sanitation Improvements to the Southgate Water and
Sanitation District (“Southgate”) or the Goldsmith
Gulch Sanitation District (“Goldsmith”, and together
with Southgate, the “Sanitation Districts”), as more
fully discussed in Part V.A.4. At the time of organization, the Development will not be located in any other
special district. The owners of the Development have
submitted, or will submit, petitions for the exclusion of
the Development property from the Greenwood Metropolitan District (“Greenwood Metro”) and the Greenwood North Metropolitan District, each of which
Districts [sic] has tentatively agreed to exclude the Development property. The District will operate and
maintain all other Improvements within the Development consistent with the provisions of this Service
Plan.
As discussed more fully in Part VIII, it is anticipated that the developer will complete the Improvements for acquisition by the District, or will make
advances to the District as necessary to fund directly

App. 182
the costs of acquisition, construction and completion of
the Improvements, until such time as the District can
issue bonds for such purposes. The developer may also
make advances to fund operations. Alternatively, the
District may, if feasible, issue bonds or notes immediately to fund the costs of the Improvements and to pay
back any developer advances. It is expected that over
time District property taxes will pay all debt service on
bonds or notes issued by the District and will fund the
costs of administration, operation and maintenance of
the Improvements that are not transferred to the City
or the Sanitation Districts.
The Development is not presently served with the
enhanced level of public infrastructure to be provided
by the District. The City, the Sanitation Districts and
other special district [sic] have no current plans or
budget to provide the enhanced level of facilities and
services that the District will provide within a reasonable time and on a comparable basis. The organization
of the District to finance, acquire, construct, complete,
operate and maintain the Improvements will assure
the provision of enhanced public infrastructure and
other attractive amenities that are planned and expected by future residents of the Development. Thus,
the organization of the District will promote the interests of future residents, property owners and taxpayers within the District as well as the general interests
of the City.
*

*

*

App. 183
VIII. FINANCING PLAN
This Part VIII constitutes the Financing Plan of
the District as required by the Special District Act and
describes the nature, basis, methods of funding and financing limitations associated with the issuance of
District bonds, notes and other financial obligations incurred in connection with the acquisition, construction,
completion, operation and maintenance of the Improvements. The Financing Plan will be finalized, coordinated and implemented by the Board, subject to all
limitations set forth herein.
A. Financing Plan
A pro forma model of the Financing Plan showing
the projected issuance of District bonds is attached
hereto as Exhibit F and incorporated herein. The Financing Plan includes the estimated property tax revenue of the District, revenue available from specific
ownership taxes, fees and charges and other revenue
sources, including amounts available for payment of
debt service on District bonds from the debt service
mill levy. The pro forma model of the Financing Plan
projects the issuance of District bonds and anticipated
debt repayment based on the development assumptions and absorptions for the Development as prepared
by the Organizer and its economic and planning consultants. The District at final build-out is expected to
have a property tax levy of forty-five and one-quarter
(45.25) mills for debt service purposes. All District tax
levies for debt service will be applied to repay bonds,

App. 184
developer advances and other financial obligations. As
confirmed by the letter from Piper Jaffray, the District’s investment banker, attached hereto as Exhibit
G and incorporated herein, the Financing Plan demonstrates that, at the projected levels of development, the
District will have the ability to finance the Improvements and will also have the financial ability to discharge all indebtedness on a reasonable basis. Any
bond financing plan that generally conforms with or
improves the pro forma model of the Financing Plan as
set forth in Exhibit F will require no further action or
approval of the City.
B. Bonds and Developer Advances
Currently, it is anticipated that the developer will
make advances to the District as necessary to fund all
or a portion of the costs of the acquisition, construction
and completion of the Improvements. The District in
turn will enter into contracts and/or will issue notes or
bonds to evidence its repayment obligation to the developer, which obligations will be repaid from bond proceeds received when the District issues its long-term
bonds at such time that adequate property tax revenues are or will be available to support such bonds. The
Financing Plan sets forth one bond financing scenario
in which the District will issue one series of bonds in
2007 or 2008 totaling approximately $29,445,000. The
net effective interest rate on District bonds is projected
at five and three-quarter percent (5.75%) without any
form of credit enhancement. Alternate bond financing
plans that generally conform with or improve the pro

App. 185
forma model of the Financing Plan as set forth in Exhibit F, including without limitation multiple series of
bonds or bonds supported by credit enhancement, may
also be implemented by the District without any further action or approval of the City.
The District may issue limited or unlimited tax
general obligation or revenue bonds, subject to the
limitations set forth in subpart VIII.D below. The District may enter into multiple-fiscal year financial obligations of any nature, including without limitation
intergovernmental agreements and acquisition, reimbursement and funding agreements with the developer
to accomplish any of the various purposes authorized
in this Service Plan. Refunding bonds may be issued
by the District to defease original issue bonds after
submittal to the City in compliance with subpart
VIII.D below and all applicable State and federal laws.
The developer may advance funds to the District
to pay operating as well as capital costs, which advances may be repaid from bond proceeds or property
tax collections as development progresses. Interest on
developer advances will be set at competitive market
rates but shall be capped at nine percent (9%) per annum, unless a higher interest rate is approved in writing by the City. Interest on developer advances will be
compounded no more than annually.
C. Debt Authorization
At its organizational election, the District will
seek voter authority to issue general obligation or

App. 186
revenue indebtedness, including bonds, notes and
other multiple-fiscal year financial obligations, to enter
into the City IGA, to impose the City Services Mill
Levy (as defined in subpart VIII.F below), and to enter
into acquisition, reimbursement and funding agreements in the amount of $35,500,000 for each category
of Improvement; provided, however, that the total general obligation indebtedness of the District, excluding
developer advances, shall not exceed $35,500,000 for
all categories of Improvements (the “Maximum Debt
Limit”). The Financing Plan anticipates that the District will utilize its debt authorization to issue limited
tax general obligation bonds. The total principal
amount of debt authorization to be voted by the District exceeds the projected costs of the Improvements
in order (i) to allow for unforeseen contingencies and
increases in construction costs due to inflation and (ii)
to cover all organizational and bond issuance costs, including capitalized interest, reserve funds, credit enhancement, discounts, legal and consulting fees, and
other incidental costs of issuance.
D. Parameters for District Indebtedness
Unless otherwise approved by the City Council, all
bonds, notes or other multi-fiscal year financial obligations incurred or issued by the District, except for the
City IGA, shall be subject to the following restrictions:
1. Each series of bonds issued by the District
shall mature in not more than thirty (30) years from
the date of issuance.

App. 187
2. The maximum voted interest rate for any
bonds or notes (other than those issued to developers
or other related parties) shall be twelve percent (12%)
per annum and the maximum discount shall be four
percent (4%). The exact interest rates and discounts
will be determined at the time that bonds are sold and
will reflect market conditions at the time of sale. All
bonds shall be structured to obtain competitive rates.
All bonds shall contain call provisions to allow for the
prior redemption or refinancing of such bonds.
3. The maximum interest rate for any bonds
or notes issued to developers or other related parties
shall be nine percent (9%) per annum. Bonds issued to
developers or other related parties shall be callable after five (5) years and have maturity dates of thirty (30)
years or less.
4. No uninsured or non-credit enhanced
bonds shall be issued which contain provisions permitting acceleration of the bonds upon default.
5. The District shall comply with all applicable State and federal laws relating to the issuance of
its bonds, including TABOR and Securities and Exchange Commission, Treasury Department, Internal
Revenue Service and Colorado Division of Securities
rules and regulations.
6. The District will provide written notice to
the City within three (3) days after any debt service
payment date, if such payment is not made in full.

App. 188
7. No new money obligations, including
bonds or certificated leases, shall be incurred in the
event that the District has previously undertaken to
do a refunding of outstanding obligations for the purpose of avoiding a default without (i) obtaining the
prior written approval of the City Council and (ii) only
after providing evidence satisfactory to the City either
that the District is then capable of discharging its
debts as they come due, or such refunding obligations
are no longer outstanding, notwithstanding anything
in this Service Plan to the contrary.
8. All bonds or notes issued by the District
for which a property tax is pledged to pay debt service
shall meet the requirements of all applicable State
laws; provided, however, that any unlimited tax general obligation bonds issued by the District, together
with all other outstanding unlimited tax general obligation bonds previously issued, shall be no greater
than fifty percent (50%) of the District’s assessed valuation for all taxable property within the District, except to the extent that such debt complies with the
provisions of Section 32-1-1101(6), C.R.S.
9. Any general obligation bonds issued by
the District, together with all outstanding general obligation bonds previously issued without any limitation upon the tax levy, the principal amounts of which
are greater than fifty percent (50%) of the District’s assessed valuation and not otherwise in compliance with
the provisions of Section 32-1-1101(6), C.R.S., shall be
issued only as limited tax general obligation bonds.
The District’s obligation for repayment of each series

App. 189
of such bonds will be limited to the imposition and collection of a property tax levy not to exceed fifty (50)
mills for debt service, inclusive of any mill levy required for the payment of all other outstanding unlimited tax general obligation bonds (the “Limited Debt
Mill Levy”), subject to certain adjustments as provided
herein. The total of all annual debt service payments
on such bonds shall not exceed the Limited Debt Mill
Levy. The Limited Debt Mill Levy and the Maximum
Mill Levy (as defined in subpart VIII.E below) may be
adjusted from time to time by the Board to take into
account legislative or constitutionally imposed adjustments in the assessed valuation of property within the
District or the method of calculation of such valuation
(as of the date of this Service Plan), so that to the extent possible, the actual revenues generated by the
Limited Debt Mill Levy are neither diminished nor enhanced as a result of such change. Among other adjustments, a change in the ratio of actual valuation of
assessable property shall be deemed a change in the
method of calculating assessed valuation. If applicable,
the Limited Debt Mill Levy will remain in effect for
such general obligation bonds until such time as (i) the
assessed valuation of all taxable property within the
District is equal to or exceeds two (2) times the outstanding unlimited tax general obligation debt of the
District, together with any series of general obligation
bonds proposed for release from the Limited Debt Mill
Levy; (ii) such bonds are in compliance with the provisions of Section 32-1-1101(6), C.R.S.; or (iii) all of such
general obligation bonds have been fully retired or redeemed.

App. 190
10. The District shall not incur general obligation indebtedness, excluding developer advances, in
excess of the Maximum Debt Limit (i.e., $35,500,000)
without the prior approval of the City Council.
11. The District shall not pledge as security
for the repayment of any bonds, notes or other obligations any funds, Improvements or land to be transferred to the City. No funds, assets or credit of the City
shall be pledged as security for the repayment of any
obligations of the District.
12. The District shall notify the City in writing before participating in or approving the creation of
any corporate authority or other entity to act on the
District’s behalf or obtaining financing through such
an entity. The City may require documentation showing material compliance with all provisions of this Part
VIII before the District participates in or creates such
corporate authority or entity or obtains financing
through such corporate authority or entity, which to
the extent allowed by law shall remain under the
Board’s control.
13. The District shall provide the City with
notification and substantially final bond documents no
later than ten (10) days prior to the sale of any District
bonds, including refunding bonds. All reasonable consulting, legal and other costs incurred by the City for
any review of such bond documents shall be paid by
the District within thirty (30) days of receipt of invoice,
regardless of whether the transaction closes.

App. 191
E. Revenue Sources
The District will rely on developer advances initially and then primarily on property tax revenues to
meet its financial obligations. Other sources of revenue
available to the District include without limitation
earnings derived from the reinvestment of bond funds,
capitalized interest from bond proceeds, specific ownership tax revenue, revenue sharing, and fees and
charges collected by the District. The District may establish a system of rates, fees and charges for services
or facilities in accordance with and subject to all limitations under the Special District Act in order to generate additional revenue for the payment of debt
service or operating costs as needed. The District will
not, without the prior written approval of the City
Council, apply for Conservation Trust Funds, Great
Outdoors Colorado funds, or other funds available from
or through governmental or nonprofit entities for
which the City is eligible to apply.
The anticipated revenue sources as set forth in the
Financing Plan will be sufficient to retire the District’s
proposed indebtedness, if the District tax base grows
as projected. Variations in assessed valuation projections or in the phasing of taxable improvements may
cause the mill levy and the level of fees, rates and
charges to move upward or downward from those set
forth in the Financing Plan, which event will not constitute a material modification of this Service Plan.
The property tax levy of the District for debt service
shall not exceed the Limited Debt Mill Levy, if applicable, subject to certain adjustments as authorized in

App. 192
subpart VIII.D.9. The property tax levy of the District
for operating purposes is expected to be one and onehalf (1.5) mills (the “Operating Mill Levy”), and together with the property tax levy for debt service purposes and the City Services Mill Levy (as defined in
subpart VIII.F below), shall not exceed sixty-nine
(69.0) mills in the aggregate (the “Maximum Mill
Levy”), subject to certain adjustments as authorized in
subpart VIII.D.9. The Board will annually establish
the City Services Mill Levy and the Operating Mill
Levy, which together with the property tax levy for
debt service purposes shall not exceed the Maximum
Mill Levy. The District’s total property taxes are projected at fifty-two and three-quarters (52.75) mills,
which is well within the range of property tax levies of
other transportation-oriented metropolitan districts
along the Denver / DTC / Meridian light rail corridor
as shown in the table of comparative property tax levies attached hereto as Exhibit H and incorporated
herein.
*

*

*

